<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida           DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma     STENY H. HOYER, Maryland
 DAN MILLER, Florida                 NANCY PELOSI, California
 ROGER F. WICKER, Mississippi        NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky           ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,          JESSE L. JACKSON, Jr., Illinois
California                           PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         
                   
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Craig Higgins, Sue Quantius, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 7B

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 80-410                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                             Tuesday, May 14, 2002.

             NATIONAL ALLIANCE FOR EYE AND VISION RESEARCH

                                WITNESS

RICHARD J. SALEM, SALEM SAXON P.A., TAMPA, FLORIDA
    Mr. Regula. Okay, we'll get started today. We have a long 
list of witnesses, and I'll just repeat the rules. Five 
minutes. We'll have a timer on the table. It will be green, 
caution and stop. If I ask questions, that's on my time. Or if 
you'll save a little of your time, it would be helpful.
    So we'll get started here. Our first witness will be 
Richard J. Salem. He will be introduced by the Chairman of the 
Full Committee, Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much. I'm happy to 
welcome Mr. Salem here. Mr. Salem is a prominent attorney in 
the Tampa Bay area that I have the privilege of representing. 
Mr. Salem, until he was a teenager, was able to see as well as 
the rest of us, maybe better than some of us that have to wear 
glasses. But he had a baseball accident and lost his vision.
    The interesting story is that he applied to Duke University 
for admittance to college. They said, you know, Mr. Salem, 
we're not really sure that we're ready for a blind student. He 
said, well, I'm not really sure that I'm ready for you. But 
anyway, they got together and he graduated with honors from 
Duke Law School.
    He's a founding partner of Salem and Saxon, which is a firm 
based in Tampa. And he's here representing those with sight 
problems. He's been extremely active in issues working with the 
disabled, where there is a lack of sight or whatever. He's just 
been a real trooper when it comes to trying to help other 
people.
    And he's here today and I notice he has no notes in front 
of him, because he couldn't read them if he had. He works from 
the brilliance of his own brain. Richard, we're very happy to 
have you here before this distinguished Subcommittee. Mr. 
Regula is an outstanding Chairman and the members of the 
Committee are all very sympathetic to the problems of the 
disabled, whatever that disability might be. So we're happy to 
have you here, Richard, and thank you.
    Mr. Salem. Thank you, Chairman Young and thank you, 
Chairman Regula, for the invitation and our thanks to your 
members of the Committee and the staff for the hard work that 
you have been doing. We were fortunately or unfortunately here 
on September 11th in Washington, and have recognized since then 
the hard work that you, Chairman Regula, and Chairman Young, 
under his leadership, have done to protect and preserve the 
rights that we so, so jealously guard as uniquely American. 
Thank you for your hard work on the war against terrorism. We 
know it's been a lot of work.
    The issues that you're dealing with today are indeed 
another urgent battle that we are fighting. Can you imagine, 
Mr. Chairman, a seven year old boy who is frightened and dreads 
trick-or-treating on Halloween? It's a hard thing to think 
about, as a parent or think of it in terms of even when we were 
children, always a grand day. The truth of the matter is that 
kids that are losing their sight through retinitis pigmentosis 
and other degenerative disease often lose their night vision 
first. It becomes very frightening to them.
    I tell you this story, it's not about me, it's about young 
Bob Mack. And his parents, Steve and Lisa Mack, are here with 
us today. They are constituents of one of your Committee 
members, Congresswoman Morella, from Gaithersburg. Steven, 
Lisa, would you stand up, please?
    I bring them with us this morning--thank you--Mr. Chairman, 
because they represent the future. Their five year old and 
seven year old boys are losing their sight. They can't see at 
night now and soon they won't be able to see during the day 
time either. And they're important, too, because they're 
parents.
    The first time I ever saw my father cry was the day we left 
Johns Hopkins and went home. Driving into the parking lot of my 
father's office, my mother said, well, do you want to tell him 
or should I tell him. I said, I can do it, Mom. I walked into 
my father's office, I was 16 years old, and said, Dad, we just 
finished at Hopkins, and before we left, the doctors told me 
that in a few months I'm not going to be able to see any more. 
My father's eyes teared up, he cut off the lights and dried his 
eyes off with his handkerchief and came over and dried my eyes 
off and gave me a hug. He said, okay, Rick, we've got to fight. 
Let's get out there and fight this.
    That's what we're doing today, Congressmen. That's what 
we're asking your help in doing. There are extraordinary things 
happening in the science of vision research. I have the 
privilege of serving on your National Institutes of Health 
National Eye Institute board of advisors. One thing is for 
sure, I often think I should have paid more attention in 
science class.
    But having said that, sitting through enough scientific 
meetings, you start to get the idea, it is imminent. What we're 
asking for is something that you started last year, catching 
up, thank you, Chairman Regula, the budget of the Eye Institute 
that had lagged behind for decades from the other institutes at 
NIH, to catch up their research. Things as exciting as, and I'm 
sure you recall meeting Lancelot, Lancelot was a dog born 
blind. Through research therapy, they've been able to restore 
the sight in his eyes. There are more Lancelots coming, and 
soon human trials will follow. We have already funded those at 
NEI.
    There are sciences out there, as you have read in the paper 
recently, that allow chips to be implanted on the retina and 
vision to be stimulated in the eye. The eye isindeed the window 
to the body. It's also a direct line to the brain. Neurology and 
ophthalmology go hand in hand. The Alliance for Vision Research is a 
group, a consortium of pharmaceutical companies, Allergan, Alcon, the 
Academy of Ophthalmologists, organizations such as the Foundation 
Fighting Blindness, your friend Mr. Gordon Gunn's organization.
    Private monies are being raised to match with Federal 
monies to keep the research going, and with your help this 
year, at a budget figure of $692 million, we think that in the 
near term, that you will see not only the Dannys and Bobs of 
this world have their vision loss arrested, but possibly vision 
restored. Those sciences can be transferred to other areas of 
the body and the knowledge gained used to accomplish great ends 
for our individual kids and our Nation.
    So thank you, Chairman Young, Chairman Regula, Members, for 
your time and attention and for your effort in getting us to 
that $692 million figure.
    [The prepared statement of Mr. Salem follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. We thank you. It's a message that has a measure 
of optimism.
    Mr. Salem. Thank you.
                              ----------                              

                                             Tuesday, May 14, 2002.

              CITY AND COUNTY OF SAN FRANCISCO, CALIFORNIA


                                WITNESS

BARBARA GARCIA, DEPUTY DIRECTOR OF HEALTH, SAN FRANCISCO DEPARTMENT OF 
    PUBLIC HEALTH
    Mr. Regula. Barbara Garcia, Deputy Director of Health, San 
Francisco Department of Public Health. Thank you for coming.
    Ms. Garcia. Thank you. Mr. Chairman and members of the 
Committee, I'm pleased to be here today to discuss San 
Francisco's response to substance abuse, which according to a 
recent study by the Robert Wood Johnson Foundation, was 
identified as the leading health problem in the United States.
    In 1996, when I became the Director of Substance Abuse 
Services in San Francisco, the limited treatment programs that 
existed were struggling to keep their doors open and retain 
skilled staff. Since then, with the political and financial 
support of the Mayor and the board of supervisors of San 
Francisco, we built the capacities of our agencies and expanded 
our focus towards the goal of achieving prompt placement for 
all who seek treatment.
    Expanded, prompt and enhanced treatment is key to reducing 
injury and death as well as costs, and is the cornerstone of 
our treatment on demand initiative. Treatment on demand is a 
comprehensive approach to improve and increase treatment 
capacity in San Francisco. The Federal and State government 
play a key role in our continued success of this initiative, 
and particularly the Substance Abuse and Mental Health Services 
Administration and the California State Alcohol and Drug 
Program.
    Like many other metropolitan areas in the United States, 
San Francisco's issues with drugs are alarming. Untreated 
addiction costs San Francisco close to $1.7 billion annually in 
lost revenues and has negative social impacts. San Francisco's 
emergency room episodes rank number one in the Nation for 
methamphetamine, number one for GHB, and number three for LSD. 
Two years ago, San Francisco General Hospital treated 14 
injection related abscesses a day at a cost exceeding $42 
million over a two year period. Because most of these patients 
are uninsured or ineligible for Medicaid, San Francisco pays 
for their care.
    Heroin is a particularly challenging problem due to its 
high purity and low cost. The heroin related death rate is 
three times higher in San Francisco than in the rest of 
California. In 1999, there were 87 heroin related deaths in San 
Francisco, an average of four to five non-fatal overdoses per 
day and one fatal overdose every other day. A majority of our 
homeless deaths, 54 in 1999, are related to heroin overdoses.
    In 1997, the Social Security Administration revised its 
definition of disability to exclude individuals diagnosed with 
substance abuse problems. Because Medicaid is linked to SSI, 
the ability of local municipalities to obtain Federal and State 
funding for medical costs for people who havesubstance abuse 
problems was eliminated. Therefore, the burden of care has fallen to 
local and State governments.
    Recognizing that investing in treatment decreases the 
individual, social, legal and economic costs of substance 
abuse, San Francisco's Mayor and Board of Supervisors committed 
substantial local funds to increase access to care and improve 
the treatment system. Local support currently accounts for 
three times more funding than Federal or State contributions.
    The treatment on demand initiative was the first in a 
series of progressive substance abuse policies initiated by San 
Francisco. The goals of treatment on demand are to expand 
effective existing services, develop new culturally focused 
services, and address other policy barriers to treatment, entry 
and progress. In 1997, the Office-Based Opiate Addiction 
Treatment Resolution was passed by the Board of Supervisors, 
advocating for private physicians to treat addiction with 
methadone as a part of comprehensive care for their patients, 
expanding treatment beyond existing methadone clinics.
    In another effort in 1999 we made to try to reduce heroin 
related deaths, the Department of Public Health sponsored a 
Heroin Overdose Prevention and Soft Tissue Infection Task 
Force. Recommendations from these groups led to the opening of 
a client-centered wound clinic at San Francisco General 
Hospital, community-based services for abscesses, CPR training 
in local jails and a multi-faceted media campaign to reduce 
overdose deaths.
    Our preliminary evaluation and data of progressive 
substance abuse policies in San Francisco suggests that these 
changes have a positive impact. For the six-year period from 
fiscal year 1995 to fiscal year 2001-2002, treatment capacity 
increased 39 percent, and there was a significant reduction in 
the number of heroin overdoses for calendar year 2000.
    For more than a decade, national data and drug related 
emergency room visits consistently ranked San Francisco in the 
top affected metropolitan areas. Ranked number one in the 
Nation in 1997, today San Francisco fell to number five in 
2000.
    In the late 1980s, the country looked to San Francisco's 
aggressive response to the AIDS epidemic as a model. In the 
face of the substance abuse epidemic, San Francisco may again 
serve as a model as we address this epidemic affecting a 
marginalized population with inadequate health resources.
    Polls show that more than half of Americans strongly 
believe that drug treatment should be more available. A two 
year study by the State of California Department of Alcohol and 
Drug Programs showed that for every dollar invested in 
treatment, there is a $7 cost savings to taxpayers. The 
fundamental task for public health officials, public leaders 
and legislators is now to increase support for treatment and 
establish addiction as a disease of epidemic proportions.
    Progressive substance abuse policies in San Francisco 
continue to reduce the negative impact of substance abuse on 
our community. The Federal and State governments have been and 
are encouraged to continue to be our partners in reducing harm 
associated with substance use and abuse.
    Mr. Chairman, that's the end of my comments. I'll be glad 
to answer any questions you may have.
    [The prepared testimony of Ms. Garcia follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you very much. It's not just in San 
Francisco, it's a national problem.
    Ms. Garcia. Absolutely.
                              ----------                              

                                             Tuesday, May 14, 2002.

                       MEN AGAINST BREAST CANCER


                                WITNESS

MARC HEYISON, PRESIDENT/CO-FOUNDER, MEN AGAINST BREAST CANCER
    Mr. Regula. Our next witness will be introduced by our 
colleague, Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman, for the opportunity 
to very briefly introduce a constituent of mine who's an 
extraordinary man, who has great commitment toward the cause 
he's going to speak to you about. Incidentally, Mr. Chairman, 
thank you for the work you're doing on this Committee. I think 
this is one of the most important appropriations subcommittees. 
I value the work you've done.
    I am going to be introducing to you Marc Heyison. Marc has 
so much passion and dedication toward the eradication of breast 
cancer, because it almost took his mother. In his quest to 
eliminate breast cancer, Marc has created two 501(c)(3) non-
profit organizations for which he has received much recognition 
and many awards. They are, the Gloria Heyison Breast Cancer 
Foundation, named for his mother, and the Men Against Breast 
Cancer, the first national non-profit organization designed to 
target and mobilize men to become active participants in the 
fight to eradicate breast cancer.
    I don't want to take time from Marc's testimony, so I will 
let Marc tell you his story.
    Mr. Heyison. Thank you. I could take the full five minutes 
and then some thanking Representative Morella for all her work 
on our behalf. I just want to say thank you. I appreciate your 
being here.
    Mr. Chairman and members of the Subcommittee, as 
Representative Morella said, my name is Marc Heyison. In 1999, 
Steve Peck and I co-founded Men Against Breast Cancer, as you 
heard, the first national organization designed to target and 
mobilize men to get them actively involved.
    What we want to do, quite simply, is educate men to be 
effective caregivers when breast cancer strikes the family. In 
addition, we've designed a low income and moderate fee program 
to ensure all women have access to the quality care they 
deserve and that my mom was fortunate to get. While at this 
time I have no specific request for fiscal year 2003, I thought 
it was important for me to come and share with you the hopes 
and desires of Men Against Breast Cancer, with the hope that we 
will work together in the future and team up.
    My personal experience, as you've heard, has led me to 
dedicate myself to this cause. I know breast cancer has a 
devastating effect, because in 1992, my mom was diagnosed. I'm 
fortunate that my mom is here with me today, along with my dad. 
My mom is here to see what's being done in love and in honor of 
her. My mom's strength, my mom's courage, has been the 
inspiration that has led to my passion and commitment to do 
whatever I can against this disease.
    To fully understand, I need to go back and take a few 
seconds and tell you about how it began. It began in 1992 when 
I heard the five most horrific words ever uttered, your mother 
has breast cancer. I knew at that point my dad, my brother and 
myself, if we could have, would have switched places with my 
mom. Unfortunately, we could not do that. What we could do, 
though, is be there for her, as she was there for us as we were 
growing up into adulthood. That's what Men Against Breast 
Cancer is all about, to be there for everybody.
    In the past 10 years, I have learned so much from so many 
people as I travel throughout the country. The most important 
thing I have learned is that people can and do make a 
difference. Because if we don't do it, who's going to do it? 
I'm very fond of a quote by Martin Luther King that I think 
sums it all up very well, why we're doing this, is that 
everyone can be great, because everyone can serve. It only 
takes a heart full of grace and a soul generated by love.
    There are many men doing great things throughout this 
country, and their soul is generated by love and caring for the 
women in their lives. Because they realize it's not a choice. 
My mom didn't raise her hand and say, oh, can I have breast 
cancer. What we need to do as men and part of the family is 
say, what can I do, and how much can I do for you. Breast 
cancer is a family issue. All you need to do is go home and 
look at your pictures and, if you take the women you love out 
of them, I challenge you to tell me that it's a family.
    Our ribbon is pink and blue, which symbolizes that men and 
women are in this together and it's a partnership. The man's 
role is to provide the needed support from treatment, recovery, 
and just as importantly, beyond. The need to support the male 
caregiver is critical in this regard, because in doing so, you 
ultimately support the patient. It's like anything else, if you 
have a tough day at work, you can go home to talk to somebody 
about it, you're going to feel better with what you're dealing 
with, and you're going to deal with it in a better fashion.
    As I've traveled throughout the country, what has been 
reinforced is that men do want to help and they want to be 
there. Because they realize the time is now. And Men Against 
Breast Cancer will provide the guidance, resources and 
education necessary for men to be there for the women they 
love.
    As the first organization to target men, Men Against Breast 
Cancer is in a unique position to develop an important niche. 
Our unique approach has allowed us already to open the way with 
partnerships with nationally recognized cancer organizations 
such as the Johns Hopkins Oncology Center, the Mayo Clinic and 
the Y-Me National Breast Cancer Organization. They want to work 
with us because our services complement and enhance what is 
already being offered.
    In addition, here, Men Against Breast Cancer has already 
received strong bipartisan support. Our honorary board includes 
both House Republicans and House Democrats and Representative 
Morella is the honorary chair, who not only support our mission 
and our message, but MABC's national programs as well, which 
are briefly, called Survival Skills for Men, which is a support 
group designed to educate and empower men to be effective 
caregivers. We also have a program called Partners in Survival, 
which is an educational workshop designed to help the family 
navigate through the myriad emotional crises that develop with 
breast cancer, with a specific emphasis on the role that the 
man can play, as well as our National Mammography Program, 
which I've already talked with CDC about to try to partner with 
them, so together we can reach more people.
    Your hard work and dedication over the years has played a 
significant role in the advancements and the breakthroughs that 
we've seen. But like anything else, there is more work to be 
done. I have come here today to introduce Men Against Breast 
Cancer to you, and look forward to next year coming back and 
reporting the progress to you and then to ask for your support 
in working together to empower men and for breast cancer to be 
seen as a family issue.
    Matt Loscalzo, who is the Director of Patient and Family 
Services at Johns Hopkins Oncology, summed it up best when 
hesaid, ``MABC represents the very best of what people can do together. 
Men represent an invisible yet unrealized powerful force toward 
humanizing the effects of breast cancer.''
    Mr. Chairman, thank you again for the opportunity and 
privilege to be here. I appreciate it.
    [The prepared statement of Mr. Heyison follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. It's great that you're giving leadership to 
this. Things happen because people do take leadership roles. I 
assume you would like to get the NIH to spend more on research.
    Mr. Heyison. Anything that would help further the advance.
    Mr. Regula. As you know, we're committed to a five year 
doubling of their budget. This is the fifth year, and of course 
we'll wind up that commitment. But they have received a doubled 
budget, or will have as of this year.
    Mr. Heyison. Yes, I've followed it.
    Mr. Regula. We hope that this will bring results.
    Mr. Heyison. It will.
    Mr. Regula. They are making breakthroughs in a lot of 
things. Thank you very much for coming, and to your parents. 
It's nice of you to come. You ought to be proud of your son. 
He's not only concerned for you but for many others. A lot of 
people will benefit from his efforts that will never know.
    Mrs. Morella. They've been there every step of the way. Had 
I realized you were here, I would have introduced you.
    Thank you, Mr. Chairman.
    Mr. Heyison. Thank you, Mr. Chairman.
                              ----------                              

                                             Tuesday, May 14, 2002.

                       UNIVERSITY OF INDIANAPOLIS


                                WITNESS

JERRY ISRAEL, PRESIDENT, UNIVERSITY OF INDIANAPOLIS
    Mr. Regula. All right, we have Julia Carson, Congresswoman 
from Indianapolis, who is going to introduce our next witness.
    Ms. Carson. Thank you very much, Chairman Regula and 
members of the Committee. I admire your working on this 
Committee. I would be boo-hooing throughout the whole process. 
[Laughter.]
    Mr. Regula. I do that privately. [Laughter.]
    Ms. Carson. You've really had some incredible testimony 
this morning so far.
    Mr. Chairman, I'm Julia Carson from Indianapolis. I want to 
introduce Dr. Jerry Israel, President of the University of 
Indianapolis. Dr. Israel has been a leader both at the 
University and in the greater Indianapolis community. He 
previously served as President of Morningside College in Sioux 
City, Iowa. President Israel earned his B.A. in 1962 at New 
York University. His list of academic accomplishments are 
numerous. I don't want to consume his time.
    Since coming to Indianapolis, Dr. Israel has maintained the 
outstanding reputation that elevated the University as a highly 
qualified and experienced provider of critical health care 
professions education and training. He seeks to build on those 
strengths, creating the Center for Aging and Community in 2001. 
I'm going to defer the rest of my time so that he will have an 
opportunity, Mr. Chairman, to articulate the reasons that he's 
here.
    I really appreciate your allowing us to come.
    Mr. Regula. I think instead of boo-hoos, you'd rather have 
money. [Laughter.]
    Dr. Israel. Thank you, Representative Carson. Your service 
to the community inspires us all. And Chairman Regula, thank 
you and members of your Committee and your staff for allowing 
me this time to be in front of you.
    It's my fourth year as President of the University of 
Indianapolis. I had the good fortune to follow Dr. Ben Lance, 
who was President of your alma mater, Chairman Regula, at Mount 
Union College.
    As the Congresswoman said, we have an extraordinary 
strength at the University of Indianapolis in some areas of 
health professions and allied health.
    Mr. Regula. Is this a State or a local?
    Dr. Israel. It's a private institution, United Methodist 
related, like Mount Union. It was known as Indiana Central 
until 1986, when the name was changed to the University of 
Indianapolis. We have about 4,000 undergraduate and graduate 
students.
    We are known best in nationally recognized programs 
inphysical therapy, occupational therapy, clinical psychology, social 
welfare, health and human service fields. We tend to train the 
professionals for those fields in the midwest, in Indiana in 
particular.
    Mr. Regula. Do you do masters?
    Dr. Israel. We do masters, and we also do doctorates in 
physical therapy, occupational therapy and clinical psychology.
    About a year ago, we decided to try to make a difference in 
what we judged to be as important a social issue for the United 
States in the next 20 years as any, and that's the area of 
gerontology and senior citizens. All the areas I mentioned work 
heavily in that field.
    In addition to building a center on aging, we wanted to 
build one that would have a direct impact on the community of 
Indianapolis, both for its own sake and also as a model for 
other communities around the country. We don't want to build a 
gerontology center that people would have to come to, we want 
to build one that's engaged with the community.
    Recently we partnered with a local health care organization 
and with United Way in establishing a greatly enhanced health 
care facility where our faculty and students could work 
together with local physicians in Congresswoman Carson's 
district to provide services that were not available in that 
community. We are here to request in particular $1 million in 
funding through the Administration on Aging's Aging Research 
and Training Account to advance our research with regard to 
providing clinical care for our senior citizens in the 
community, as well as a model for cost effective adult day 
care.
    We've discovered that a major problem in our community and 
around the country is the ability to keep senior citizens with 
increasing frailty in their homes and in their community rather 
than being institutionalized. And we've discovered that no 
major research institution or teaching institution is really 
working on how to develop models that will be compliant with 
the needs of those citizens and with the services that they 
require. In conjunction with local adult day care centers, 
again in Congresswoman Carson's district, we hope to establish 
a model for an adult day care program that would combine the 
services of our University staff and students with those 
caregivers and their clients.
    We feel we're uniquely qualified to provide this and we 
hope it will serve as a model for services around the country 
in similar ways. We hope to be back with additional programs. 
Our intent is to build a nationally distinctive model of a 
center that will work both on issues of gerontology and in the 
community. But we've discovered the most pressing need to be in 
the area of adult day care. That's where we'd like to get 
started in bringing these services.
    [The prepared statement of Dr. Israel following:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you.
    Have you received any Federal grants?
    Dr. Israel. As an institution we have, but not for this.
    Mr. Regula. Not for this program.
    Dr. Israel. Yes. We've been primarily a teaching 
institution, training professionals in fields like health care 
and teacher education. We now feel with the growth of the 
institution and with the graduate work that you referenced that 
we have the capacity to add to the best practices available in 
these areas from a clinical perspective.
    Mr. Regula. My daughter went to a convention in 
Indianapolis, she was thrilled with your study. She had a lot 
of good things to say.
    Dr. Israel. Congresswoman Carson has done a lot to make it 
possible.
    Ms. Carson. We're glad of that. Speaker Pro Tem LaHood's 
daughter and husband graduated from IU Medical School. They 
bought a house in my neighborhood, right around the corner from 
me. I don't think they'll vote for me, but----
    [Laughter.]
    Mr. Regula. You never know. When you pull the curtain, you 
can get some very unusual results.
    Ms. Carson. But we're thrilled to have them. They're 
wonderful people.
    Mr. Regula. Obviously a majority of the people in your 
district did.
    Mr. Carson. Yes, thank you, Mr. Chairman.
    Dr. Israel. Thank you, Mr. Chairman, for the opportunity.
    Ms. Carson. We stayed within the time. I hope that will 
give us a bonus. [Laughter.]
    Mr. Regula. That helps.
                              ----------                              

                                             Tuesday, May 14, 2002.

                       VIRTUAL HERBARIUM PROJECT


                                WITNESS

MICHAEL BALICK, VICE PRESIDENT, BOTANICAL SCIENCE RESEARCH AND 
    TRAINING, PHILECOLOGY CURATOR AND DIRECTOR, INSTITUTE OF ECONOMIC 
    BOTANY, NEW YORK BOTANICAL GARDEN
    Mr. Regula. Dr. Michael Balick, Vice President for 
Botanical Science Research and Training, New York Botanical 
Gardens. Dr. Balick.
    Dr. Balick. Mr. Chairman, I appreciate the opportunity to 
testify before the Subcommittee on behalf of the Virtual 
Herbarium Project at the New York Botanical Garden, a private, 
not-for-profit organization located on a 250 acre camps in New 
York City's Borough of the Bronx.
    Mr. Chairman, the New York Botanical Garden respectfully 
seeks the Subcommittee's support for $1 million for its Virtual 
Herbarium Project in the Institute of Museum and Library 
Services account in your fiscal year 2003 appropriations bill. 
This $1 million will leverage the $10 million already raised by 
the Garden to build the Virtual Herbarium.
    Funds will be spent to continue development of the Virtual 
Herbarium, a set of software tools that permits the Garden to 
catalog, manage and make electronically accessible its 
collection of over 6 million plant specimens. At present, a 
portion of the Herbarium collection may be searched free of 
charge by any scientist or researcher around the world with 
access to the internet, and images for thousands of plant types 
may be viewed. Further software development is requested, as 
well as the ongoing work of data entering and imaging plants.
    My purpose in testifying before the Subcommittee today is 
not just to request funding for the New York Botanical Garden's 
Virtual Herbarium Project. I also wish to highlight two 
particular aspects of our program that seem especially 
pertinent and timely. First, speeding the discovery of new 
medicines, therapies and other useful substances from plants 
and fungi, and second, increasing access to information in the 
New York Botanical Garden's extensive collections as it relates 
to all species of current or potential use to humanity.
    The New York Botanical Garden is known nationally and 
internationally for its preeminence in plant and fungal 
research. It has the largest and most important collection of 
preserved plants and botanical reference library in one 
location in the Americas, as well as a world class research 
team of some 150 scientists, technical support staff, including 
42 doctoral students pursuing their studies through 
collaborative programs with the City University of New York, 
Columbia, Cornell, New York University and Yale University.
    The link between plants and medicines is now well known, 
thanks to the widely available fact that 25 percent of 
currently sold patent medicines in the United States have 
amongst their active ingredients a species of plant. At least 
50 commercially available drugs owe their discovery to a clue 
gathered by an observant researcher noticing a plant species 
being used medicinally by local peoples.
    The rosy periwinkle comes to mind for the drugs vincristine 
and vinblastine for treating childhood leukemia and Hodgkins 
Disease. There's also a plant known as pilocarpus which 
provides a drug for treating glaucoma, and the curare plant 
used by indigenous cultures in South America as an arrow 
poison, but for modern medicine was the basis of the drug D-
tubocurarine, a compound used as a muscle relaxant in open 
heart surgery.
    The New York Botanical Garden has a research unit devoted 
to the study of medicinal plants and all useful plants, for 
that matter, called the Institute of Economic Botany. It 
comprises the largest and most active group of economic 
botanists in the United States. In the realm of medicinal 
botany, the Garden has worked in partnership with the 
pharmaceutical industry and the National Institutes of Health, 
particularly the National Cancer Institute.
    Two entities at the National Institutes of Health that fund 
research on medicinal plants are the Office of Dietary 
Supplements and the Fogarty International Center. The New York 
Botanical Garden supports funding of the important work of both 
of these entities.
    Mr. Chairman, thank you for providing me the opportunity to 
bring these aspects of the New York Botanical Garden's 
important work to the attention of your Subcommittee.
    [The prepared statement of Dr. Balick follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Is the word economic in your 
Institute title indicative that what you're developing has a 
major economic value and impact?
    Dr. Balick. It could have a major or a minor one. For 
example, if the work involves traditional cultures in a small 
village in some part of the world and it impacts them in a 
minor way, we would be most happy with that. But looking for 
new fuels, new foods, new sources of medicine, fibers, etc.
    Mr. Regula. Well, I guess most activity has an economic 
dimension, and that's what your title is saying.
    Thank you for coming.
                              ----------                              

                                             Tuesday, May 14, 2002.

                 NEW YORK UNIVERSITY SCHOOL OF MEDICINE


                                WITNESS

STEVEN J. BURAKOFF, M.D., DIRECTOR, NEW YORK UNIVERSITY CANCER 
    INSTITUTE; DIRECTOR, SKIRBALL INSTITUTE OF BIMOLECULAR MEDICINE
    Mr. Regula. Dr. Steven Burakoff, Director, New York 
University Cancer Institute and Director, Skirball Institute of 
Bimolecular Medicine.
    Dr. Burakoff. Thank you, Mr. Chairman, for the opportunity 
to testify before you and the Subcommittee today to discuss the 
importance of continuing to invest in biomedical research and 
to discuss one of the exciting initiatives at the NYU School of 
Medicine.
    As mentioned, I am Steven Burakoff. I'm Director of both 
the NYU Cancer Institute and the Skirball Institute of 
Bimolecular Medicine. First, I would like to thank all the 
members of the Subcommittee for the outstanding support 
provided for the NIH over the past several years. The 
additional funds clearly have a significant impact on finding 
the causes and preventing and treating the major health 
problems that afflict the citizens of our Nation and the world.
    I am here today to seek your support for further enhancing 
the extraordinary partnership that was established with great 
foresight years ago between academic institutions and the 
Federal Government. This partnership has spawned remarkable 
scientific developments over decades. These advances position 
us, academia, industry and Government, to work together to 
exploit the golden era of biology. Academic institutions across 
the Nation are proud to be major players in this partnership.
    As we look ahead to the fiscal year 2003, the NYU School of 
Medicine supports, along with the extramural research 
community, the President's budget request for the NIH, totaling 
$27.3 billion, representing a $3.7 billion increase over 
current funding.
    Having raised the need to increase funding to NIH, there 
are several factors that impact on the ability of our 
institutions to carry out the extramural components of our 
Nation's expanding and thriving biomedical research enterprise. 
Our institutions bear certain costs for conducting NIH research 
that are not supported by the Federal research dollar. We must 
further strengthen the academic-Federal partnerships so the 
extramural biomedical research community can operate at optimal 
capacity and efficiency.
    Specifically, I urge you to maintain the salary cap for 
NIH-funded extramural researchers at the current executive 
level one. Secondly, to increase extramural construction 
funding so that NIH investigators can utilize state of the art 
facilities to carry out the increasing volume of federally 
supported biomedical research through increased appropriations 
for extramural facility construction grants.
    Over the past several decades, scientists have made 
encouraging progress in the development of new vaccines that 
bolster patients' immune systems to respond to and destroy 
malignant cells. The field of cancer vaccines is one of the 
most exciting and promising paths in science research to 
understand and eradicate cancer. With world class basic 
research scientists at the NYU School of Medicine and at 
Skirball Institute of Bimolecular Medicine, NYU has become a 
leader in the field of immunology and immunological response to 
viruses and tumors. We're now recruiting a world class 
immunologist who will apply her research to vaccine therapy.
    The NYU Cancer Institute is strongly positioned to develop 
new therapies in cancer vaccines, and thus make a major impact 
on cancer treatment. NYU plans to build a multidisciplinary 
program for new immunological treatments of prostate cancer and 
cancers of breast and skin.
    What we are doing, in fact, is determining that we can find 
the specific antigens that are on tumor cells and use those to 
in fact immunize and augment our immune response to tumors. 
Thus, we are creating a vaccine laboratory at the NYU Cancer 
Institute that will produce and study vaccines for cancers and 
most importantly, will determine their efficiency in patients 
through rigorous clinical trials.
    The cost of the project is approximately $20 million to $25 
million. The medical center expects to raise $5 million in 
philanthropy to fund the project and to receive several million 
now in grants to the investigators involved. The remaining 
funds will be provided by the medical center and possibly 
additional fund raising. We are respectfully requesting Federal 
assistance in the amount of $5 million for capital costs from 
the HRSA health facilities construction account in fiscal year 
2003 for helping us.
    I just wanted to say briefly, having led the pediatric 
oncology program at Harvard for many years, and in fact, having 
now cured 90 percent of kids with leukemia, we continue to do 
that at extraordinary cost in terms of the toxic drugs we use. 
So as an investigator, the possibility that we could develop 
vaccines that will use our own immune system to eradicate 
cancer is a very exciting opportunity, which is about to 
happen. Thank you.
    [The prepared statement of Dr. Burakoff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Question, we have a number of cancer 
institutes, like the one in Texas, M.D. Anderson. Do you share, 
I mean, obviously you partner with NIH and I assume you get NIH 
grants for research?
    Dr. Burakoff. We do.
    Mr. Regula. But do you share information that represents 
maybe a breakthrough or unique treatment that works with the 
cancer institutes around the United States?
    Dr. Burakoff. Yes. In fact, I think over the last several 
years, more than ever. So in fact Saturday, or Friday I should 
be heading down to what's called the American Society for 
Clinical Oncology. We're in fact at the very cutting edge of 
research and information gathering, people are in fact sharing 
that information, in a formal and informal way. That's 
happening more and more with our realization that none of us 
can do it alone. We really have to work together.
    Mr. Regula. That's good, because obviously the whole ball 
will move forward faster if all these institutes are helping 
each other with information.
    Dr. Burakoff. In fact, I think secrecy is a no longer 
accepted mode of functioning any more.
    Mr. Regula. That's encouraging. Thank you very much.
    Dr. Burakoff. You're welcome.
                              ----------                              

                                             Tuesday, May 14, 2002.

                   AMERICAN MUSEUM OF NATURAL HISTORY


                                WITNESS

MICHAEL NOVACEK, SENIOR VICE PRESIDENT AND PROVOST OF SCIENCE, AMERICAN 
    MUSEUM OF NATURAL HISTORY
    Mr. Regula. Michael Novacek, Senior Vice President and 
Provost of Science, at the American Museum of Natural History.
    Mr. Novacek. Thank you for the opportunity, Mr. Chairman, 
to appear today to speak on the American Museum of Natural 
History's behalf, in support of the Departments of Health and 
Human Services and Education.
    This Subcommittee, with its scope that includes the DHHS 
and Education plays a pivotal role in determining our Nation's 
health and welfare. DHHS, under distinguished leadership leads 
the country's health related research and training. The 
Department of Education, under the experienced leadership, 
addresses critical national needs by working to assure quality 
education opportunity for all.
    The Subcommittee's broad purview mirrors that of the 
American Museum. So we are keenly aware of the critical 
importance of vigorous funding for health, research and 
education. For more than 130 years since our founding in 1869, 
we have pursued a joint mission of science and education, of 
examining critical scientific issues and educating the public 
about them. This twin mission underpins everything we do, in 
research and education, in exhibitions and in collections.
    Our audience is one of the largest and most diverse of any 
museum in the country, with nearly 5 million visitors last 
year, including nearly 500,000 school-age children, as well as 
thousands of students and teachers visiting in school groups. 
Our collections are vast, more than 32 million natural 
specimens and cultural artifacts constitute a priceless 
scientific resource, including many endangered and extinct 
species, the world's most comprehensive collections of 
dinosaurs, fossil mammals, northwest coast cultural artifacts 
and one of the world's most important bird collections.
    Our research programs are renowned worldwide. More than 200 
museum scientists conduct collections based research programs 
as well as field work and training in fields ranging from 
paleontology and conservation biology to anthropology and 
astrophysics.
    In our new Institute for Comparative Genomics, researchers 
are mapping the genomes of non-human organisms and creating new 
super-computing tools to retrace the evolutionary tree of life. 
The Museum also conducts undergraduate, graduate and post-
doctoral training programs in conjunction with a host of 
distinguished universities.
    The Museum builds on its unparalleled resources to promote 
public education for all ages. In addition to exhibitions, we 
provide standards-based materials and programs for students, 
professional development for teachers, workshops and field 
excursions for adults, and award winning online educational 
resources for learners of all ages through our National Center 
for Science Literacy, Education and Technology.
    Among our most ambitious and exciting new science and 
education initiatives concerns comparative genomics. In the 
genomics era, natural history museum collections have become 
critical baseline resources for genomic research. For the 
assessment of genetic diversity of natural populations and for 
the pursuit of health related research questions, genomes, 
especially those of the simplest organisms, provide a window 
into the fundamental mechanics of life. Conducting genomics 
research with a natural history perspective promises to enrich 
our knowledge not only of biodiversity but also of human 
evolution, medicine and life itself.
    So as to contribute its unique resources and expertise to 
our national genomic research and education efforts, in 2001 we 
launched the Institute of Comparative Genomics. The Institute 
grew out of our expanding capacity in comparative genomics in 
1990, when we established a molecular systematics program. 
Today more than 40 of our museum researchers in molecular 
systematics, conservation genetics and developmental biology 
conduct genetic research on a variety of study organisms. Their 
work contributes to an understanding of the rate and extent of 
evolution, the grandest of all biological experiments that took 
place over the 3.5 billion year history of the Earth.
    This information is essential for using genomics to improve 
medical treatment and predictive capabilities and for such 
applications as forensics and conservation biology. The 
Institute is equipped not only with scientific expertise, but 
also with advanced research facilities that include state of 
the art molecular systematics laboratories with DNA sequencers, 
a super cold storage facility for the Museum's expanding 
collection of preserved biological tissues and DNA specimens 
from a wide range of species, and the fastest parallel 
computing facility for research in evolutionary biology, a 560 
processor cluster built in-house, from scratch, by museum 
scientists.
    The Institute is also committed to using the Museum's 
education and technology resources in innovative ways to 
promote public understanding of and education about genomics. 
It has already launched a rich agenda of genomic related 
exhibition, conference and public education programming, 
including our landmark 2001 exhibition, The Genomic Revolution, 
which examines the revolution taking place in molecular biology 
and its impact on modern science and technology, natural 
history, ethical and legal issues and our everyday lives.
    Approximately 500,000 visitors saw the exhibition in New 
York, and many thousands more will see it as it travels 
nationally on a tour which was launched last month at the North 
Carolina Museum of Natural Sciences. Now we plan to use 
advanced educational and distance learning technologies to 
expand the reach of our genomics related educational resources 
throughout New York and across the Nation.
    The Museum looks forward to contributing to the Nation's 
health research and education. We urge strong and increased 
investment in health research and facilities, in education and 
training, to help move these vital national concerns forward. 
The American Museum of Natural History deeply appreciates the 
work of the Subcommittee.
    Thank you, Mr. Chairman and members of the Subcommittee, 
for the opportunity to appear before you today.
    [The prepared statement of Mr. Novacek follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. I'm on the Board of Regents of the 
Smithsonian. I go out to Suitland and I see thousands of things 
in jars and artifacts. You must have the same problem there, 
with collections that just won't stop.
    Mr. Novacek. Collections are both a blessing and a problem. 
[Laughter.]
    But those collections, Mr. Chairman, are actually worlds of 
discovery. We still continue to make discoveries in them, 
especially if we can maintain them and provide the kind of 
modern data bases that are required.
    Mr. Regula. Do you ever have deaccession?
    Mr. Novacek. Rarely. But we do where we see an opportunity 
for benefit for maintaining the Museum's mission in science and 
collections care.
    Mr. Regula. Do you loan out artifacts to museums, either in 
New York State or in other areas?
    Mr. Novacek. We have a very, very extensive loan program on 
an annual basis. Many, many scholars and institutions, hundreds 
of institutions are actually using, studying and we are loaning 
material to them, as well as many exchanges in the exhibition 
tours.
    Mr. Regula. Even probably internationally.
    Mr. Novacek. Oh, yes, absolutely.
    Mr. Regula. Are you a 501(c)(3)?
    Mr. Novacek. Yes.
    Mr. Regula. Does the State, I assume the city and the State 
give you financial support, as well as the private sector?
    Mr. Novacek. We do. We have especially city support and 
State support. And also private institutional support, and 
substantial Federal support for our research and educational 
efforts.
    Mr. Regula. Would you get any NIH funding?
    Mr. Novacek. We have just broken that barrier. We have 
recently, this year we're delighted to receive an NIH award for 
the study of the evolution of bacterial species that have great 
applications for understanding disease and the evolution of 
disease. So what's important here, from this evolutionary 
perspective, it's clear that many solutions to biomedical 
problems may be found, and NIH is more strongly recognizing 
that direction than they have in the past.
    Mr. Regula. Are we staying ahead of the bugs? [Laughter.]
    Mr. Novacek. Mr. Chairman, it's an arms race. It's one, I 
can't say we're ahead of them. We can be momentarily ahead of 
them and then they can be ahead of us. That's why it takes an 
astute study of the capacity of organisms to evolve and adopt a 
resistance to disease. The key to understanding that, we 
believe, is knowing what happens among organisms in their 
ecosystems and in their evolution.
    Mr. Regula. It is amazing, I just read an article the other 
day of how the disease carriers mutate and develop, overcome 
our medicines.
    Mr. Novacek. As incredible and sophisticated as we are, as 
scientists and medical researchers, organisms are equally, if 
not more incredible.
    Mr. Regula. Thank you very much.
    Mr. Novacek. Thank you.
                              ----------                              

                                             Tuesday, May 14, 2002.

         THE ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

JOHN E. MAUPIN, JR., PRESIDENT, THE ASSOCIATION OF MINORITY HEALTH 
    PROFESSIONS SCHOOLS
    Mr. Regula. Dr. John Maupin, President, Association of 
Minority Health Profession Schools. Dr. Maupin.
    Dr. Maupin. Good afternoon, Mr. Chairman, and thank you 
very much for this opportunity to present the views of the 
Association of Minority Health Professions Schools. I have the 
privilege of being President of Meharry Medical College in 
Nashville, Tennessee, and have begun my representation as 
President just over the last several months.
    Mr. Regula. Is this a 501(c)(3)?
    Dr. Maupin. Yes, it is.
    We have over the years had the opportunity to come before 
this Committee and we represent 12 historically black medical, 
dental, pharmacy and veterinary schools. Combined, our 
institutions have graduated over 50 percent of African American 
physicians and dentists, 60 percent of the Nation's African-
American pharmacists and 75 percent of the African-American 
veterinarians. As we say to many, we are very proud to carry 
the disproportionate responsibility of ensuring diversity in 
America's health professions work force.
    Mr. Chairman, there is compelling evidence that supports 
the fact that there is a health disparities crisis. I'm sure 
this Committee has seen that evidence, and in fact has received 
testimony in support of that. A recent Institute of Medicine 
report further amplifies this crisis by helping usto understand 
without question any more that racial and ethnic minorities tend to 
receive lower quality health care than whites, even when insurance 
status, income, age and severity of conditions are comparable.
    Historically black health professions institutions are 
addressing this national concern. Studies have demonstrated 
that when African-American and other minorities are trained in 
minority institutions, they are more likely to serve in 
medically under-served communities, they are more likely to 
care for minorities, they are more likely to accept patients 
who are under-insured and uninsured, and they are much more 
sensitive to the issues of ethnically competent, culturally 
sensitive evidence based, community based care.
    In spite of our proven success in training health 
professionals, our distinguished legacy of community based 
services to the poor, and long standing commitment to research 
that focuses on diseases that disproportionately affect 
minorities and African-Americans in particular, our 
institutions continue to face a financial struggle inherent to 
our mission.
    The result is that AMPHS institutions cannot rely on 
tuition, because we focus on keeping tuition low for the 
students we served, on patient care, because almost 70 to 80 
percent of our patients are either uninsured or in Medicaid, 
and we do not have the cross subsidy higher forms of insurance 
and we do not have large endowments. Because of those 
constituents we serve, our endowments are small, one-tenth of 
the average institutions in America.
    So we are unable to respond to discontinuation of Federal 
support, because our mission is in partnership with the public 
mission that is at hand, especially as we face this continuing 
crisis of health disparity.
    Mr. Chairman, we appreciate, sincerely appreciate, the 
Subcommittee's consistent support for such programs as the 
Health Resources Services Administration health professions 
programs, Centers of Excellence, health careers and 
opportunities programs, scholarships for disadvantaged students 
and the faculty loan repayment and faculty fellowship programs. 
We appreciate greatly the support that has been given to the 
Department of Education's Title III, Strengthening Historically 
Black Graduate Institutions program.
    And we sincerely and extremely are grateful for all that 
this Subcommittee did in support of doubling the NIH budget, 
but in particular the establishment of the new National Center 
for Minority Health and Health Disparities Research. These 
three programs have always been vital to our existence.
    We have always been very supportive of an understanding 
that there has to be a collection and a comprehensive approach 
and that's why our institutions do strategic partnerships with 
other major institutions. But while we struggled over the years 
and feel like we're just about on the edge of being able to 
make an even greater difference in the face of this national 
crisis, we are very disappointed in the Administration's budget 
that all but wipes out these programs I just mentioned.
    So for fiscal year 2003, AMPHS joins with Health 
Professions and Nursing Education Coalition in recommending a 
funding level of at least $550 million for health professions 
training. My written testimony as submitted to the Committee 
expounds on the purpose of many of the health professions 
programs and explains why they are so crucial.
    We thank you for this opportunity to present our views, and 
I will respond to any questions you may have.
    [The prepared statement of Dr. Maupin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Do most of your schools have teaching 
hospitals?
    Dr. Maupin. Yes, most all of our schools that are medical, 
dental in particular, are associated with teaching hospitals, 
all of which are associated with institutions like Meharry, 
that works with General Hospital. We actually relocated, closed 
our hospital down after having it for a long period of time, 
relocated it to the city's hospital, so there would be an 
economy of scale and a partnership in the same mission.
    Mr. Regula. Do you get State support?
    Dr. Maupin. We get State support, we get city support. But 
when you look at our institutions, and I'll use Meharry, there 
are three different sources of funds that have to be garnered. 
Patient care is one. And that's always distinct. We don't have 
the ability to cross subsidize. Educational funds come from 
major support from programs like the Title III programs, the 
Centers of Excellence programs, the HCOP programs, HRSA 
programs.
    In research, we finally have broken through to receive the 
kind of research infrastructure needed to be able to do the 
type of research necessary, cutting edge research. Research 
infrastructure is extremely expensive, as you well know.
    Mr. Regula. Do you get any NIH funding for research?
    Dr. Maupin. The money for NIH funding research has come 
through, the new center funding has put us on the cutting edge. 
What has happened by this budget, after having reached that 
point, it's like the rug being pulled out from under you.
    Quite frankly, Mr. Chairman, as the budget is currently 
structured, we will close several of our institutions.
    Mr. Regula. Well, the rug's not out until we file our bill.
    Dr. Maupin. I appreciate that.
                              ----------                              

                                             Tuesday, May 14, 2002.

                SPORTING GOODS MANUFACTURERS ASSOCIATION


                                WITNESS

THOMAS COVE, VICE PRESIDENT FOR GOVERNMENT AFFAIRS, SPORTING GOODS 
    MANUFACTURERS ASSOCIATION
    Mr. Regula. Mr. Thomas Cove, Vice President for Government 
Affairs, Sporting Goods Manufacturers Association. Mr. Cove.
    Mr. Cove. Thank you, Mr. Chairman. Thanks for the 
opportunity to testify today. I'm clearly in the minority, 
being on the business side, and we appreciate the Committee's 
giving us a space here.
    I'm here today to talk about the Physical Education for 
Progress program, the program commonly referred to as PEP. It 
is a competitive grants program that provides funds to local 
school districts to improve physical education programs. Funds 
can be used to train teachers and purchase equipment. Started 
two years ago in 2001, the program was authorized last year in 
the Elementary and Secondary Education Act, the No Child Left 
Behind Act.
    Congress funded the program last year at $50 million, and 
we thank you very much for that. We respectfully request that 
the Committee fund it at $70 million this year.
    I'd like to use my time to make two basic points. One is to 
talk about the alarming trends with regard to physical activity 
and obesity, and secondly, why physical education, we believe, 
is a very viable response to that. First, the statistics about 
youth obesity, most of us have heard them, they're on TV all 
the time, they're in the newspapers, widely quoted.
    The percentage of overweight young Americans has more than 
doubled in the last 30 years. Just last year, the Surgeon 
General confirmed that obesity is reaching epidemic 
proportions. In a report that he issued, he went on to say that 
this problem could cause as much preventable disease and death 
as tobacco, which is currently listed as the leading cause of 
death in this country. So as tobacco is being addressed, 
inactivity and poor diet is going to be the leading cause of 
death in this country, preventable death.
    We know that an obese adolescent is 75 percent more likely 
to become an obese adult. How does this show up in disease with 
children? Twenty years ago, only 2 percent of all cases of Type 
2 diabetes were found in kids and people 9 to 19 years old. Now 
it ranges all the way from 30 to 50 percent. They in fact have 
a new name for it, child onset diabetes. They never even had 
that before.
    Clearly the data are starting to come in that this is a 
result of diet, but more than anything inactivity. Fewer than 
one in four children get 20 minutes of vigorous activity each 
day, fewer that one in four, vigorous activity each day. When 
you look at the studies of how children spend their time, it's 
no surprise, we're losing out to the electronic media. A 1999 
survey showed kids aged 2 to 18 spend 4 hours a day watching 
video tapes, playing video games, using a computer. Most of 
this time, 2 hours 46 minutes, watching TV. We think that's a 
concern for a variety of reasons, but certainly with regard to 
health.
    At the same time the obesity is rising, physical education 
offerings are actually being reduced. In 1991, the Surgeon 
General called for 50 percent of all high school kids to be in 
physical education. At the time, it was 41 percent. In fact, we 
have not gone up but gone down. That number is now 27. So when 
he called 41 percent to go to 50, we've gone down to 27. 
Obesity rates have risen dramatically.
    We could go on and on about that, and this Committee knows 
as well as anyone of the threat posed by obesity and the trends 
in that area. Why physical education? First of all, it's clear 
that physical education builds the things we would think of, 
cardiovascular endurance, muscle strength, flexibility, weight 
regulation, all that.
    But more than anything, we really believe that teaching an 
active lifestyle to children will go a long way to helping them 
grow up to be active and healthy adults and particularly with 
regard to children. An active lifestyle leads to a constructive 
use of leisure time. The Committee has funded the Youth Media 
campaign with the CDC, and the CDC believes the same thing, 
that if kids are active, they're going to do a whole lot of 
other socially desirable things. We think that physical 
education really does influence behavior patterns in children.
    Just one quick point on the crisis before I leave that, as 
employers we're well aware, representing the business 
community, we're well aware of the economic impact of health 
care costs and as they rise. Obesity now being called a $100 
billion cost to the American people. And if you think about our 
trends going from where we are now with the obesity crisis with 
children to adults and the impact of health care at that level, 
that number is going to rise maybe $200 billion, maybe $300 
billion.
    Physical education, in summing up, we really believe it can 
be cost effective. It's universal. More than anything, it 
reaches the children who are not going to be playing sports, it 
reaches the child with a bad body image or uncoordinated or 
shy, who's not going to try out for sports. When you look at 
what this program does, it encourages use of equipment and 
newly trained teachers and innovative programs to get the very 
children who are not getting any exercise, not getting any 
activity, engage them. And if you look at how the products are 
being used, fly fishing, cross country equipment, in-line 
skates, mountain bikes, all the things that are kind of hip and 
ready and exciting for kids and could be attractive with the 
appropriate instruction if we deliver it to them through the 
mechanism of schools.
    [The prepared statement of Mr. Cove follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you very much. We've heard a lot on that 
problem.
                              ----------                              

                                             Tuesday, May 14, 2002.

               AMERICAN SOCIETY FOR NUTRITIONAL SCIENCES


                                WITNESS

JOHN W. SUTTIE, AMERICAN SOCIETY FOR NUTRITIONAL SCIENCES
    Mr. Regula. Dr. John Suttie, Member and former President, 
American Society for Nutritional Sciences.
    Dr. Suttie. Thank you, Mr. Chairman. I'm here this 
afternoon representing the American Society for Nutritional 
Sciences. This is the major professional society for 
researchers in this area of science. We have approximately 
3,000 members.
    I'm here today first to thank this Committee for their 
strong support of the NIH budget over the last few years. We 
are part, one of the constituent societies of FASEB, the 
Federation of American Society for Experimental Biology, and we 
would additionally here today support their request to continue 
by adding 15 percent to the budget of the NIH to reach the 
doubling in 5 years, to make an appropriation in 2003 of $27.3 
billion.
    It's a lot of money, we know that, as scientists. I'd like 
to just mention a couple of things about the role of nutrition 
research within NIH and the importance of it. One point is 
simply that if you look at the major debilitating diseases in 
this country, such as obesity, cancer, heart disease, diabetes, 
all of these have very strong nutritional components. Very 
recently, Secretary Thompson pointed out the very strong 
importance of prevention, pointing out very accurately that 
preventing disease is a lot cheaper than curing disease. When 
we look at this, nutrition research is very important. 
Nutritional researchers are effectively involved in defining 
the role of nutrition in these various diseases and indicating 
the variation within the population that might be present.
    The second major point we should take under consideration 
is the fact that again, with strong support from this Committee 
and through NIH, as well as the private sector, an 
understanding of the beginning of the human genome is currently 
at hand. So nutritional scientists are able now to look at what 
are those reasons that people have different nutritional needs 
for different nutrients. We're able to look specifically at 
disease patterns in different individuals and be able to 
eventually identify which individuals in our population are 
most susceptible to certain diseases, and to find out whether 
some nutritional intervention at a very low cost would help 
some of those individuals.
    So those are two areas where I think it's important that 
the various institutes within NIH continue to back a very 
strong nutrition research program. It can be a very effective 
tool in dealing with many of the problems in the country.
    With regard to the increase in the NIH budget, I would just 
like to bring one consideration to the forefront of the 
Committee. We have drastically increased the budget of NIH. I 
guess another way to look at it is, have we drastically 
increased the number of investigators that are receiving NIH 
grants. The majority of NIH money goes to individual researcher 
initiated grants. The data always lag a little bit behind, but 
over the first three years of the doubling process, the total 
NIH budget increased approximately 50 percent. The number of 
investigators funded by this increase increased about 16 
percent.
    Obviously, experimentation becomes more expensive every 
year. There may be some value in increasing the amount of 
individual grants. On the other hand, it seems that if we have 
more people working on more projects, we have a better chance 
of finding out something new and different.
    Science moves in a very jagged process. Things continue for 
a while and then somebody finds out something new. Then 
everybody else is able to take advantage of that and move 
things forward. So I guess I'd like the Committee to consider 
in their deliberations whether some more emphasis might be 
given to increasing the population of scientists that are 
funded by these grants.
    Again, thank you for the opportunity to appear here, and 
thank you for your help in the past.
    [The prepared statement of Dr. Suttie follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Do you think we need a clearinghouse to get 
this information shared? It seems to me sometimes different 
institutions are busy reinventing the wheel. If you could pool 
the research----
    Dr. Suttie. I think from the outside it's not easy to see 
how rapidly scientific information is passed around today. 
Publication of results are faster than they used to be. At the 
present time, a lot of journal articles are available three, 
four months before they're printed, electronically. So I think 
information is widely shared.
    Obviously, NIH ends up funding a number of people who are 
doing very similar things, because we don't know what's going 
to be successful. But I don't think, as somebody pointed out 
here 15, 20 minutes ago, I don't think that today we see except 
perhaps in areas which verge on proprietary types of research, 
we don't see a lack of individuals willing to share information 
with each other. Scientists in general like people to know what 
they're doing. That's what they get credit for. So they don't 
go and hide what they're doing.
    Mr. Regula. We're all that way.
    Well, the journals probably carry a lot of the information 
that's developed.
    Dr. Suttie. The journals carry a lot of it. I happen at the 
present time to be the editor of the Journal of Nutrition. We 
cover nutrition research in a lot of areas andwe get that 
material out rapidly.
    Mr. Regula. There's a cliche, you are what you eat, do you 
agree? [Laughter.]
    Dr. Suttie. We are what we eat until we modify it too much.
    Mr. Regula. Okay. Fair enough. That is a cliche.
    Dr. Suttie. Well, it is, yes.
    Mr. Regula. Thank you very much.
    Dr. Suttie. Thank you.
                              ----------                              

                                             Tuesday, May 14, 2002.

                        THE NEPHCURE FOUNDATION


                               WITNESSES

LOU ANTOSH, PRESIDENT, THE NEPHCURE FOUNDATION
MELANIE STEWART
CHRISTINE ANTOSH
    Mr. Regula. Lou Antosh, President, NephCure Foundation. 
He's accompanied by Melanie and Christine.
    Mr. Antosh. Thank you, Mr. Chairman.
    NephCure Foundation is a 501(c)(3). We're busy in our 
second year. And we work pretty hard for people like Melanie 
Stewart, your photo partner down there, and my daughter 
Christine. NephCure was formed by a group of parents of sick 
kids, who realize that while there are a lot of kidney groups 
out there, nothing was really specifically focused on the 
condition that was threatening Melanie and Chrissy and 
thousands like them.
    Our cause includes something called nephrotic syndrome, 
which causes the legs to swell and the face to distort. Some 
fortunate patients are treated with steroids and the syndrome 
disappears.
    But steroids and other drugs have been no help to Melanie 
or my daughter. And they have both progressed to something 
called FSGS. FSGS baffles scientists. We're very grateful that 
this fall, the NIDDK will begin clinical trials into drugs that 
treat FSGS. But those trials don't hold any hope for these two 
girls. They have failed to respond to the drugs that these 
trials will study.
    Right now, our only hope at this point is you. Here's why. 
We have top researchers on our board. They tell us that the 
planned clinical trials don't go far enough. The trials will 
collect kidney tissue and blood and urine samples. But there is 
no money set aside to do basic science to study the molecular 
mechanism that might cause this disease.
    Mr. Regula. It's set aside by NIH?
    Mr. Antosh. Correct. The trials will be basically for drug 
therapies, to see how they work.
    So on behalf of these kids and many others, we're urging 
you to ask NIDDK to expand this project to include a basic 
science component. We're going to put some money where our 
mouth is. We've negotiated with NIDDK, and we're offering to 
put some money up and match money from NIDDK to begin a basic 
science component connected with these trials. We've met with 
Dr. Allen Spiegel on that.
    But much more is needed. We're only doing a little bit, as 
much as we can, our foundation.
    Our experts worry also that the amount of money to be 
awarded for the administration of these trials won't be 
sufficient to handle the successful trials for 400 patients. 
They say additional funds are needed to form coalitions, 
attract the right number and mix of patients. We urge that the 
NIDDK increase the level of funding to satisfy the needs of the 
four centers that will be selected for this project, which is a 
very exciting project and very important to us.
    Because FSGS occurs in a disproportionate number of 
African-American people, and they have the worst prognosis, we 
urge you to request that the National Center for Minority 
Health and Health Disparities initiate studies into this 
phenomenon.
    We would also ask that these diseases, nephrotic syndrome 
and FSGS, have some kind of high profile in the new National 
Kidney Disease Education Project. Of course, we support the 16 
percent budget increase for NIDDK.
    My daughter has experienced the facial swelling and 
disfigurement that flares up from time to time with FSGS 
patients. She looks fine now. But the disease is scarring her 
kidneys. She's one of thousands of young people in a race 
against time.
    We're looking for hope and we're asking you today to give 
us some hope. With great respect for her courage and her 
indomitable spirit, I'd like to present another one of these 
young heroes to you, Melanie Stewart.
    Ms. Stewart. Hi, my name is Melanie Stewart. I'm 15 years 
old and I've been fighting FSGS since I was 7.
    Over the last eight years I've spent most of my time in the 
hospital or hooked up to a dialysis machine while trying to 
keep up my school work. Three years ago, FSGS destroyed both my 
kidneys. On April 21st, 1999, my dad gave me one of his. That 
year after the transplant was one of the hardest. Over that 
time I had apheresis procedures done three times aweek. PTLD, a 
form of cancer, was also found on my head. The PTLD was caused by the 
high doses of immune suppressant drugs that I was given. In November of 
2000, I almost died because of a blood infection and a blood clot in my 
heart caused by the apheresis catheter.
    In March of last year, the day I was to testify before you, 
I had my donated kidney removed. I am now on dialysis again and 
forced to start over. There are thousands of people like me, 
mostly young, who would like a chance at a normal life and a 
cure. For everyone, I am asking for your help, to help me meet 
my goal for a cure.
    Thank you for inviting me to speak before you today.
    [The prepared statement of Mr. Antosh and Ms. Stewart 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you girls use dialysis?
    Ms. Stewart. I do.
    Ms. Antosh. I still have both my kidneys.
    Mr. Regula. You have both of them?
    Ms. Antosh. Both of them, right now.
    Mr. Regula. Do they function well enough that you do not 
have to have dialysis?
    Ms. Antosh. Right.
    Mr. Regula. But you have a concern as to the future?
    Mr. Antosh. Biopsies show that they're starting to scar. 
The kidneys are beginning to scar.
    Mr. Regula. They're scarred by?
    Mr. Antosh. This disease deals with the filtration unit of 
the kidney, called the nephron. There are 1,000 nephrons in 
every kidney. Not very much has been known because they're so 
tiny and we've been unable to see what happens in there. 
Scientists are getting fairly excited about looking at the 
filtration unit and seeing what happens in that little 
filtration area.
    We know that in what they have, there is some disfigurement 
of the barrier. Protein leaks out, as does albumen. When the 
protein leaks out, somehow it causes the scarring of that 
structure, and once the kidney scars enough, they become 
dysfunctional.
    Mr. Regula. How often do you have to go?
    Ms. Stewart. I do it at home, it's peritoneal dialysis. The 
one that you go down to the hospital for is called 
hemodialysis, it's a blood transfusion kind of thing.
    Mr. Regula. Well, we hope we can find a cure.
    Mr. Antosh. Thank you, sir.
    Mr. Regula. I'm sure NIH is doing research on it and Dr. 
Spiegel is quite good. He was in my district this Saturday.
    Mr. Antosh. Some very good things are starting to happen. 
We're very grateful.
    Mr. Regula. I know that he's very intense in his efforts. 
We hope we find something. Thank you for coming and testifying.
                              ----------                              

                                             Tuesday, May 14, 2002.

                 NEW YORK UNIVERSITY DOWNTOWN HOSPITAL


                                WITNESS

RALPH MASTRANGELO, EXECUTIVE VICE PRESIDENT, BANK OF NEW YORK; CHAIRMAN 
    OF THE BOARD, NEW YORK UNIVERSITY DOWNTOWN HOSPITAL
    Mr. Regula. Ralph Mastrangelo, Vice President, Bank of New 
York. New York University Downtown Hospital, you're a board 
member and you're testifying on behalf of the Hospital.
    Mr. Mastrangelo. Yes, I am Chairman of the Board of 
Trustees.
    Mr. Regula. Is this a State, Federal?
    Mr. Mastrangelo. It's a non-profit hospital.
    Mr. Regula. City?
    Mr. Mastrangelo. No, private non-profit.
    Mr. Regula. Private non-profit.
    Mr. Mastrangelo. That's correct.
    Mr. Regula. And it's part of New York University.
    Mr. Mastrangelo. It's affiliated with, but a standalone 
institution responsible for its own finances and its own 
delivery of care.
    I have with me, Mr. Chairman, two colleagues from the 
hospital. We have Dr. Howard Beaton, who's Chief of Surgery, 
and Dr. Tony DeHara, who's Associate Medical Director for our 
Emergency Center.
    Mr. Regula. Do you have general coverage patients that come 
in the door?
    Mr. Mastrangelo. Yes. We are a community acute care 
hospital, in fact, and we provide a range of services to our 
communities downtown.
    Mr. Regula. Are you associated as a teaching hospitalwith 
New York University?
    Mr. Mastrangelo. Yes, we are. I'll begin and then I'll be 
glad to answer additional questions.
    NYU Downtown Hospital, as I mentioned, is a non-profit 
acute care community hospital in lower Manhattan. We are 
located just three blocks from the World Trade Center site. The 
population we serve includes some 260,000 residents downtown, 
some 375,000 daily commuters and more than 8 million tourists 
and visitors annually.
    I have worked myself 30 years in this community and know 
how vital this hospital is to the people, visitors and business 
people in lower Manhattan.
    It was never truer than it was on September 11th. For the 
past two years, we have come to you seeking critical funding 
for our emergency center reconstruction project, and you have 
generously responded. For that, we are very, very grateful. We 
are particularly appreciative of our Congressman, Jerry Nadler, 
for advocating on our behalf and for the ongoing leadership of 
New York Congresswoman Nita Lowey, who sits on this very 
important Committee.
    Once again, we are seeking your help in the fiscal year 
2003 budget. Three years ago, we launched a public-private 
partnership drive to secure the $25 million needed to rebuild 
our 30 year old emergency center. To date, we have raised close 
to $18 million. Nearly $13.8 million has been donated by 
downtown corporations, another half million by local community 
organizations, and the remainder has been awarded by city, 
State and Federal Government.
    The design of the new facility has been updated to reflect 
the best thinking on emergency preparedness for this new world 
in which we live. The design process will be finished shortly 
and in anticipation of additional Federal and private support 
we hope to begin construction later this year.
    Rebuilding our emergency center and retrofitting our 
facility to address needs stemming from what we learned on 
September 11th is both imperative and urgent. On an average 
day, we see approximately 100 patients. Some of our patients 
live in the local neighborhoods of Chinatown, the lower East 
Side and Battery Park City. Others come from the Wall Street 
business community and still others work in one of the Federal, 
State or local government offices nearby.
    September 11th, however, was no average day. Immediately 
after the terrorist attack, a team of 21 physicians and nurses 
was dispatched to ground zero to help treat survivors pulled 
from the wreckage. We treated more than 550 patients that day, 
many with very serious injuries. After the Twin Towers 
collapsed, NYU Downtown Hospital sheltered some 450 people and 
escorted another 200 or more on foot over the Brooklyn Bridge 
and uptown, out of the dust cloud enveloping Lower Manhattan.
    At the same time, and for several days thereafter, our 
telephone service was out. Additional emergency generators were 
hauled in because of the loss of electricity. Steam and gas 
service were cut. Water pressure was severely reduced and the 
air quality was extremely poor.
    While the events of September 11th were horrific, experts 
say that biological, chemical, even nuclear and conventional 
weapons could cause many more casualties, truly testing our 
medical readiness. Without a doubt, the bar for medical 
preparedness has been raised.
    NYU Downtown Hospital successfully juggled several crises, 
including a large influx of patients, multiple utility 
failures, communications breakdowns and pandemonium in the 
surrounding community. Yet circumstances could have been far 
worse.
    Our emergency center hallways are cramped and examination 
rooms are split in two to accommodate patients. In fact, on 
September 11th, we necessarily had to extend the emergency room 
into the cafeteria. We have no MRI machine, a critical piece of 
technology that we could have used that day on patients 
suffering severe crush injuries. And we have no permanent 
facilities for the management of bioterrorism exposure and 
detoxification from hazardous materials, a deficiency that will 
be corrected in the new emergency facility.
    I have no doubt Lower Manhattan remains a prime target for 
would-be terrorists. Our community is one of great national 
significance and general vulnerability. It is the nerve center 
of the American economy. It is home to virtually every major 
U.S. stock and commodity exchange, brokerage firm and 
international commercial bank. It is also where New York City 
Hall and the city, State and Federal court systems converge in 
a four square block area of Lower Manhattan.
    We need your continued support and help. Again, thank you 
for recognizing the importance of this project in the past two 
annual budget bills. We very much appreciate it. I respectfully 
request your thoughtful consideration for an additional 
appropriation in the amount of $2 million for this coming 
fiscal year, so we may begin construction of the renovated 
emergency center.
    Thank you so much for your time and your courteous 
attention.
    [The prepared statement of Mr. Mastrangelo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. You must have a heavy commuter 
population.
    Mr. Mastrangelo. We do, indeed, some 350,000 commuters come 
into the area every day.
    Mr. Regula. You also must have a large emergency room 
operation.
    Mr. Mastrangelo. We have a very important emergency room 
operation. It's not nearly large enough and needs to be 
upgraded desperately.
    Mr. Regula. I can imagine. Well, thank you very much.
    Mr. Mastrangelo. Thank you so much for your time.
                              ----------                              

                                             Tuesday, May 14, 2002.

                 SUDDEN INFANT DEATH SYNDROME ALLIANCE


                                WITNESS

ALLISON GLOVER, SIDS TRAINING COORDINATOR, GEORGIA SIDS/OTHER INFANT 
    DEATH INFORMATION AND COUNSELING PROGRAM, GEORGIA DEPARTMENT OF 
    HEALTH
    Mr. Regula. The next witness is Allison Glover, Training 
Coordinator, Georgia SIDS Death, Information and Counseling 
Program.
    Ms. Glover. Chairman Regula and members of the 
Subcommittee, thank you for the opportunity to present 
testimony on my experience with Sudden Infant Death Syndrome, 
which is otherwise known as SIDS. Although I am proud to share 
my family's story, I would rather not have a story to tell.
    In July of 2000, my husband and I found out that we were 
five weeks pregnant with twins. As the weeks and months passed, 
we prayed, we planned, we dreamed, and, most importantly, we 
tried to sleep. With all of the excitement and anticipation 
building up, we found ourselves up late at night talking and 
laughing about what our lives would be like with two toddlers 
running around.
    My pregnancy went well. I began my prenatal visits at seven 
weeks. I am a former two-time all-American in track and field, 
so, of course, I exercised, I ate well, I took my prenatal 
vitamins, and I slept as often as I needed to. I did everything 
within my power to be healthy for the sake of my boys.
    Our five-year-old daughter, Victoria, was excited about the 
thought of having two new brothers and she did not even mind 
sharing her toys with them.
    On Wednesday, February 23, 2000, Garrett and Gordon Glover 
bounced into the world. Although I delivered the boys at 33 
weeks, both boys were healthy, they were just underweight, just 
like their mom. They simply needed growing time. Garrett stayed 
in the hospital for one week, and Gordon stayed in for three 
weeks.
    Things were great having the boys at home. The boys had 
distinctively different personalities and Victoria was crazy 
about her baby brothers. She sang and read to them often. As a 
family, we felt complete.
    On Wednesday, May 10, 2000, the boys had their two month 
check-up and shots. They were eleven weeks old and perfectly 
healthy. That evening they were just fine, they were not cranky 
and they did not run fevers. My husband fed them at 11:00 p.m. 
and rocked them both to sleep. I placed the boys in their 
cradle which was one foot away from my bed. I laid Garrett down 
and went to sleep at midnight. At exactly 3:16 a.m., Gordon 
awoke crying to be nursed. I lifted him out of the cradle and 
began tapping Garrett to wake him up. Garrett would not wake 
up. I lifted him out of the cradle and realized that he was not 
breathing.
    I screamed for my husband, who is a police sergeant, to 
wake up and do CPR while I called 911. The police and 
firefighters and an ambulance were at our home within minutes. 
The ambulance took Garrett and my husband to the hospital as I 
dressed Victoria and Gordon for the ride. I was in complete 
shock. I prayed for a miracle. I could not believe what was 
happening to us. I thought I was having a nightmare. When I 
reached the local hospital my husband met me outside in the 
driveway to tell me the bad news. I screamed so loudly that I 
sometimes feel as though I am still screaming today.
    We stayed with Garrett in the hospital for three hours. 
Fifteen of our family members came to the hospital at 4:30 that 
morning to say good-bye to Garrett and to support us. They held 
him, kissed him, and sang all of his favorite songs to him. 
These were the greatest things that they could have done for us 
at that time. The longest ten minutes of my life were the last 
ten minutes that I spent holding my Garrett. You cannot imagine 
that awful pain that we felt and the grief that I still feel 
today.
    Garrett's funeral was on Tuesday, May 16, 2000, just two 
days after Mother's Day. Mother's Day will never be the same 
for me. May the 11th was a day that dramatically changed my 
family's lives forever. More than 400 family members and 
friends attended my son's funeral.
    Three days ago we marked the second anniversary of 
Garrett's passing and we are still grieving his death daily. 
Whenever we remember how Garrett tried to out-sing Gordon and 
play footsies with him, we cannot help but laugh. His pictures 
are still all over our home and we talk about him as though he 
can hear us. I am grateful that we found peace with Garrett's 
death and I am thankful that I was able to love him for eleven 
weeks.
    Mr. Chairman, I ask that this Subcommittee continue the 
effort to double the National Institutes of Health's budget by 
providing a 16 percent funding increase for fiscal year 2003 
and that this increase be spread equally among the various 
Institutes and Centers. For the sake of my Garrett and the 
3,000 babies who die mysteriously every year from SIDS, I ask 
that you provide a 16 percent increase to the National 
Institute for Child Health and Human Development which conducts 
research and funds educational activities on SIDS. 
Additionally, I encourage you to adequately fund the Health 
Resources and Services Administration's Maternal and Child 
Health block grant which funds outreach and support services 
for SIDS bereavement to every State in America. Finally, I ask 
that the Centers for Disease Control and Prevention fund at 
least three death scene protocol demonstration grants.
    I urge you to take a stand and to continue to support the 
fight against SIDS. With your efforts, hopefully we can help 
other families avoid suffering the loss of their innocent 
infants. Some people can only speak of angels, but I had a 
chance to hold one. And this is my son Garrett.
    [The prepared statement of Mrs. Glover follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. And we have no idea what causes it?
    Ms. Glover. No one knows. It is believed that possibly some 
infants are more susceptible to SIDS than other due to having 
an immature arcuate nucleus, which is a portion of the brain 
stem. If an infant between the ages of two to four months is 
placed at some type of environmental risk, like if they are 
exposed to smoke or if they were born prematurely or born 
underweight, it is possible that that arcuate nucleus would not 
be mature enough to wake them if they rolled into a crib bumper 
or some type of blanket in their bedding that would cause them 
to rebreathe their own carbon dioxide. So while there is a lot 
of research that is being done at this time, we still do not 
know exactly what causes that infant to die from SIDS.
    Mr. Regula. And his brother is okay?
    Ms. Glover. His brother is perfectly fine. He is a 
powerhouse. You would think he drinks high octane gasoline the 
way he runs all around the house.
    Mr. Regula. He keeps his sister busy, huh?
    Ms. Glover. Absolutely. And we have a new baby who is six 
months old and we do not let her out of our sight. My husband 
is taking care of them at home right now.
    Mr. Regula. Well, I hope we can find a cure so someone else 
does not have to suffer it.
    Ms. Glover. Absolutely.
    Mr. Regula. I have a grandson named Garrett.
    Ms. Glover. Oh, wow.
    Mr. Regula. Thank you for coming.
    Ms. Glover. Thank you, sir.
                              ----------                              

                                             Tuesday, May 14, 2002.

                          BROWN MEDICAL SCHOOL


                                WITNESS

DONALD J. MARSH, DEAN OF MEDICINE AND BIOLOGICAL SCIENCES, BROWN 
    MEDICAL SCHOOL, PROVIDENCE, RHODE ISLAND
    Mr. Regula. Mr. Kennedy, would you like to introduce your 
witness?
    Mr. Kennedy. Thank you, Mr. Chairman, I would. I appreciate 
the opportunity today to introduce Dean Marsh, the Dean of 
Medicine and Biological Sciences at Brown University Medical 
School. There are few persons who are as well versed as Dean 
Marsh in the issues of today's medical schools and the 
challenges they face.
    Dr. Marsh received his appointment as Dean of Medicine and 
Biological Sciences at Brown University in 1992. He also serves 
as a professor of the Department of Physiology and professor of 
biology. His research is in renal physiology and blood pressure 
regulation and mathematical biology. He received his A.B. from 
the University of California at Berkeley, and his M.D. from the 
University of California, San Francisco, and taught in the 
department of physiology and biophysics at NYU University and 
also at the University of Southern California. In 1991, he 
received a Merit Award from the NIH for his research into the 
regulation of renal body flow.
    I would like to say it is an honor for us to have him here, 
Mr. Chairman, because of his broad depth of understanding and 
knowledge not only of medicine but also of the whole system of 
educating our physicians in this country. Of course, we are in 
a very precarious time in this country with respect to how we 
are preparing the next generation of providers, and he has a 
lot to comment on how we can do a better job of preparing the 
next generation of providers.
    Welcome, Dean Marsh.
    Dr. Marsh. Thank you, Congressman Kennedy, thank you very 
much. It is a great honor to be introduced by you. I would like 
to comment that the Congressman has been a vigorous and 
thoughtful supporter of the Brown Medical School and its 
affiliated teaching hospitals, and his leadership and support 
on critical health care issues have helped to make health care 
more accessible and affordable for all Rhode Islanders and 
people throughout Southeastern New England. I also want to 
thank you, Chairman Regula, and the members of this Committee 
for the support that has been provided by this Committee over 
the years to the NIH. The funds have had a greater impact than 
all other sources of funding combined on finding the causes, 
preventions, and treatments of the major health problems that 
afflict the citizens of our Nation and the world.
    I am here today to talk about three issues of concern to 
all medical schools and academic health centers in the United 
States. The first is the National Institutes of Health and its 
budget, the second is health professions education funding 
through the Bureau of Health Professions, and the third is the 
Agency for Healthcare Research and Quality.
    As we look ahead to fiscal year 2003, I want to express the 
support of medical schools throughout the United States, 
teaching hospitals, and the extramural research community for 
the President's budget request for the National Institutes of 
Health, $27.3 billion. The increase is necessary to complete 
the national campaign to double the NIH budget by fiscal year 
2003. You have already expressed support this afternoon for 
that goal and I thank you very, very much for that.
    NIH-supported research continues to improve the health and 
quality of life of all Americans. Indeed, because of increased 
NIH support, Brown and its affiliated teaching hospitals have 
experienced dramatic growth in research and discovery in the 
life sciences, work that will shape the character of tomorrow's 
healthcare for the Nation and the world.
    As one example, a team of NIH-funded researchers in Brown's 
Brain Science Program reported recently that thoughts alone can 
move a cursor across a computer screen to hit a target. They 
demonstrated that signals from the brain that normally 
controlled hand movement can be decoded and used as the sole 
input to control a robot arm. This exciting research is a 
tremendous step forward in enabling paralyzed humans to regain 
the use of their limbs.
    In fiscal year 2002, Congress appropriated $110 million in 
extramural construction funding through NIH's National Center 
for Research Resources. This was an increase from the previous 
year, but remains insufficient given the growing need for 
resources. Outmoded laboratories provide a major obstacle to 
continuing the rapid advances in research that are possible. 
Increasing funding for construction will therefore leverage the 
investment in research grants.
    Again returning to an example at Brown, the Life Sciences 
Building, which is our highest capital construction priority, 
will allow us to remain competitive in a research arena that 
promises to build significant knowledge. We have been awarded a 
$2 million NCRR grant and we are competing for another NCRR 
grant to support the development of this $100 million facility. 
We are grateful for the support and believe that these grants 
are an extension of the Federal/university partnership in the 
area of research.
    The research community commends the Subcommittee for 
increasing extramural facility construction to $110 million 
last year. However, this year the President has called for only 
$77 million and there is a clear and documented need for 
several billion dollars to rectify the construction need. We 
appreciate the Federal support we have received to date and we 
urge the Subcommittee to appropriate $300 million for NIH's 
extramural facilities improvement grants.
    I would also like to thank the Subcommittee for providing 
increased funding for Titles VII and VIII of the Public Health 
Service Act in fiscal year 2002. The health professions and 
nursing education programs work to improve the quality, the 
geographic distribution, and ethnic diversity of the public 
health and healthcare workforce, particularly in underserved 
areas. Unfortunately, Title VII and VIII programs have been 
slated for a 75 percent cut under the President's budget. I 
hope you will support fully funding these programs during the 
appropriations process.
    The President's fiscal year 2003 budget also proposes a 16 
percent cut in the Agency for Healthcare Research and Quality, 
a cut that would curtail essential research on improving 
healthcare quality, measurement, disease management, access, 
and financing of healthcare. I urge you to support funding for 
AHRQ to ensure that the agency can continue its critical health 
mission and further fulfill its role in improving the quality 
of healthcare and the quality of life for all Americans.
    I would like to thank you for the consistent support that 
the Committee has shown to the healthcare and medical education 
in the United States. I would like especially to acknowledge 
the efforts of Congressman Kennedy, as well as other members of 
the Rhode Island delegation. And I am happy to answer any 
questions.
    [The prepared statement of Dr. Marsh follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you very much. I am sure you have many 
challenges.
    Dr. Marsh. This is a challenging time in medical education.
    Mr. Regula. That is true. We appreciate your coming.
    Dr. Marsh. Thank you.
    Mr. Kennedy. Mr. Chairman, if I could just ask one question 
of the witness.
    Mr. Regula. Oh, I am sorry. Yes.
    Mr. Kennedy. Could you comment on how the advances in 
science now really outdate the current research facilities?
    Dr. Marsh. I would be glad to do that. Modern research 
involves the introduction of ever more complex technologies. 
Old research facilities are simply incapable of providing an 
environment in which these newer technologies can be used to 
full effectiveness. New buildings, new facilities, new designs 
are really needed in order to take full advantage. It is just a 
question of leveraging what we have got so far to move as 
forcefully into the future as we can.
    Mr. Kennedy. Is the NIH itself moving in this direction 
with their own campus?
    Dr. Marsh. The NIH is certainly enjoying vigorous growth on 
their own campus, that is true.
    Mr. Kennedy. Right. And to have this out in the university 
partnership is crucial to their advancement. Sothey need to 
make sure that this is going out in the field.
    Dr. Marsh. That is right.
    Mr. Kennedy. Thank you.
    Dr. Marsh. Thank you.
    Mr. Regula. Thank you.
    Mr. Regula. Mr. Jack Stibbs, the Vice President for 
Advocacy, Pulmonary Hypertension Association. Mr. Stibbs.
                              ----------                              

                                             Tuesday, May 14, 2002.

                   PULMONARY HYPERTENSION ASSOCIATION


                                WITNESS

JACK STIBBS, ADMINISTRATIVE VICE PRESIDENT FOR ADVOCACY, PULMONARY 
    HYPERTENSION ASSOCIATION
    Mr. Stibbs. Good afternoon, Mr. Chairman. My name is Jack 
Stibbs. As the first item on the agenda, I would like to 
publicly thank Congressman Kevin Brady of the 8th District of 
Texas and his staff, David Malleck, for all of the continued 
work and drive and focus they have put into helping us find a 
cure for pulmonary hypertension. Thank you, Kevin.
    Sir, I am the Vice President of Advocacy for the PHA, the 
Pulmonary Hypertension Association. But probably more 
importantly, I am the very proud father of a ten-year-old 
daughter, Emily, who was stricken with this disease back some 
five years ago. I appreciate the opportunity, on her behalf and 
on behalf of all of the patients with PH, to present testimony 
relative to the appropriations for the CDC, the NIH, and the 
HRSA.
    Mr. Chairman, pulmonary hypertension is an incurable 
disease. For some inexplicable reason there is an aggregation 
or uncontrolled growth of smooth muscle cells in the lungs 
which eventually chokes off the body's ability to oxygenate the 
blood. The heart, being a muscle that it is, grows larger and 
larger trying to pump blood into those damaged lungs and 
eventually the patients die with right heart failure.
    The survival rate, frankly, is not good. It has now been 
increased publicly, as the NIH has released, from three years 
to five years. But, fortunately, we are finding that many 
patients have been able to cope with the disease for up to 
twenty years with the better treatments that are on the market 
today.
    The Pulmonary Hypertension Association had very humble 
beginnings. Some ten years ago, some three families got 
together in a kitchen in someone's home in Florida and 
literally emptied their pocketbooks and wallets on the table to 
come up with enough money to try to find other patients and 
share information about the disease. Today, ten years later, we 
have over 4,000 members of the Pulmonary Hypertension 
Association. We are doing good things in that we have a very 
sophisticated scientific advisory board, we have produced our 
own CD-ROM for the dissemination of information on pulmonary 
hypertension, and last month we came out with our first medical 
journal.
    We have been very busy fundraising on our own. As a matter 
of fact, in our area in Houston we have raised over $500,000. 
Part of that goes into a young researcher's grant program which 
we are excited about because it gets young researchers 
interested in the disease from an early age. Another program 
that we are very proud of is a joint venture that we have 
entered into with the National Heart, Lung, Blood Institute, 
the NHLBI, in which we are able to leverage their public 
dollars with our private dollars.
    The PHA applauds this Subcommittee for its leadership 
inencouraging the CDC to initiate a professional and public awareness 
campaign focused on PH. Currently, we are working with CDC to establish 
this important program that will inform healthcare professionals and 
the general public about PH, its symptoms, and treatment options. We 
feel that increasing awareness and understanding of PH among primary 
care physicians is critically important because these practitioners are 
usually the first point of contact with PH patients. If the primary 
care doctor misses the symptoms, then the chance for early diagnosis 
depends on the intuition and persistence of the patients.
    Early diagnosis is the key to survival of this disease. And 
to increase awareness among primary care physicians, we hope to 
collaborate with the CDC in developing postcard mailings to be 
sent to all primary care physicians, medical schools and 
medical centers in the U.S. by advertising in publications 
primary care physicians are likely to read, and by 
disseminating the CD-ROM that I referred to that the PHA has 
developed. PHA is committed to increasing public awareness for 
the disease through the development of a series of public 
service announcements and also through expansion of the PHA's 
website, with a link to the CDC website, which features 
information about PH, including the importance of early 
diagnosis and available treatments.
    Mr. Chairman, PHA commends the leadership of the NHLBI for 
its support of PH research. Two years ago, two separate groups 
funded by the NHLBI simultaneously identified a genetic 
mutation associated with primary pulmonary hypertension. The 
two groups independently reported defects in the BMPR2 gene, 
which regulates growth and development in the lung, are 
associated with PPH. The defects in the gene lead to abnormal 
proliferation of cells in the lung characteristic of PH.
    Mr. Chairman, the only other point that I would like to 
make is relative to the organ transplantation and the text of 
that has been submitted to you.
    I thank you for your time today.
    [The prepared statement of Mr. Stribbs follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Are we making progress on PH?
    Mr. Stibbs. Yes, sir. As a matter of fact, I am very proud 
to say that as of last February we had our first new drug in 
ten years and we have two others in clinical trials. The 
disease has gotten some notoriety with the diet drug Phen-Phen. 
They found out that that was one of the triggers. But many of 
the triggers, including whatever caused PH in my daughter 
Emily, are unknown. But we are making some progress.
    Mr. Regula. Thank you.
    Mr. Stibbs. Thank you, sir.
    Mr. Regula. All right. We are going to move to Donna 
Nichols, Director of the Public Health Promotion Program, Texas 
Department of Health. We will try to get you expedited so you 
can get to your airplane.
    Ms. Nichols. Thank you very much, Mr. Chairman.
                              ----------                              

                                             Tuesday, May 14, 2002.

ASSOCIATION OF STATE AND TERRITORIAL DIRECTORS OF HEALTH PROMOTION AND 
                        PUBLIC HEALTH EDUCATION


                                WITNESS

DONNA NICHOLS, DIRECTOR OF THE PUBLIC HEALTH PROMOTION PROGRAM, TEXAS 
    DEPARTMENT OF HEALTH, AUSTIN, TEXAS
    Ms. Nichols. Good afternoon, and thank you for allowing me 
the opportunity to appear before you today. I am Donna Nichols, 
Director of Public Health Promotion at the Texas Department of 
Health in Austin, Texas. I am here representing the Association 
of State and Territorial Directors of Health Promotion and 
Public Health Education. Our Association's primary mission is 
to promote health education and health promotion as core 
disciplines in the practice of public health, and to advocate 
for quality health education and health promotion programs 
which address the Nation's leading health problems.
    Our members manage a variety of health promotion and 
disease prevention programs at the State health departments, 
including community health promotion, physical activity, 
cardiovascular disease, diabetes, cancer, injury prevention, 
obesity prevention and control, school and worksite health 
promotion programs, just to name a few. Members are also 
responsible for public health workforce development and 
continuing education for practicing health educators.
    As you know, Mr. Chairman, over 90 million Americans live 
with chronic diseases, such as heart disease, cancer, and 
diabetes. These chronic illnesses account for 75 percent of our 
Nation's $1 trillion annual expenditure on health care. While 
they are the most common health problems that cause 7 out of 10 
deaths in the United States, they are also some of the most 
preventable.
    Our Association strongly supports many of the important 
public health programs at the Department of Health and Human 
Services, and especially within the National Center for Chronic 
Disease Prevention and Health Promotion at the Centers for 
Disease Control and Prevention. Our advocacy efforts today 
focus on one single program which we believe has the potential 
to simultaneously produce three very significant outcomes, 
which are, to prevent the leading causes of death, to reduce 
health care costs, and to produce a healthier population.
    Specifically, our Association and its many public health 
partners strongly recommend that you include $60 million in the 
fiscal year 2003 appropriation bill for the Division of 
Nutrition and Physical Activity at CDC. The current funding 
level of $27 million proposed by the President will support 
only 12 States with small planning or core grants. Ideally, all 
50 States and territories should have what is known as a 
comprehensive grant which supports a full range of activities 
and community level programs. Presently, no State has a 
comprehensive grant. At the $60 million funding level, CDC 
could support approximately 20 States with core grants and 
about 4 States with a larger comprehensive grant. We believe 
these investments are critical and would produce a great return 
for our Nation.
    I know the members of this Subcommittee are aware of some 
of the data documenting the obesity epidemic in this country. 
However, for the record, I would like to take a moment to 
highlight the dimensions of this public health crisis.
    So what is the Nation's fastest rising public health 
problem? Well, it is obesity. It has increased by more than 60 
percent in the past 10 years among adults, and rates have more 
than doubled in children and adolescents during the last 20 
years. Approximately 45 million adults in the United States are 
obese, which is about 25 percent of the adult population. That 
is one in four of us today in this room. The rate among the 
Hispanic population has doubled in just the past 10 years from 
12 percent to 24 percent. And yet the rate among African 
American adults is even higher, it is closer to 30 percent.
    Obesity increases the risk of many chronic and disabling 
diseases such as cancer, diabetes, cardiovascular disease, and 
arthritis. And, yes, obesity has roughly the same association 
with chronic health conditions as does 20 years of aging. And 
to top it off, at least 300,000 preventable deaths occur each 
year with the leading cause resulting from physical inactivity 
and unhealthy eating.
    There is good news, and that is the science is in. We now 
understand the relationships linking diet, exercise, and 
chronic diseases. Last year, for example, a major diabetes 
trial was ended a year early because the findings were so 
dramatic that they could not be delayed in their announcement. 
Last August, the researchers of the Diabetes Prevention Program 
announced their findings that diet and exercise, which achieved 
a 5 to 7 percent weight loss, resulted in a stunning 58 percent 
decrease in the incidence of diabetes--a far greater 
improvement than the pharmaceutical approach used in the 
comparison group.
    Along with our nationwide obesity epidemic, we are also 
experiencing an epidemic of diabetes in the country. Type 2 
diabetes is on the rise among children and accounts for almost 
half of the new cases in teenagers in some areas of the 
country. We know millions of overweight Americans are at high 
risk for Type 2 diabetes, and we know that we can prevent the 
eventuality of this disease by changing our diet and exercise 
habits.
    So, why are so many people in this country overweight or 
obese? The answer is very, very simple. All we have to do is 
look at our everyday lives and the influence of our social 
behaviors. We are surrounded by poor nutritional choices. Can 
you say, ``Super size it''? Time in front of the television and 
the computer rather than in the playground or in the park.
    And what I would like to end on, Mr. Chairman, is that we 
believe prevention efforts aimed at healthy eating and adequate 
physical activity can help turn the tide of obesity which is 
washing over this Nation at an alarming rate. If we prevent 
obesity, we also prevent Type 2 diabetes, cardiovascular 
disease, and some cancers. The bottom line: prevention efforts 
aimed at healthy eating and adequate physical activity are a 
great investment. While the challenge is daunting, we at the 
State level are ready to mobilize our communities and our many 
partners to avert this public health crisis.
    We appreciate the generous support you have provided us in 
the past, and we look forward to working with you in the 
future. Thank you again for the opportunity to appear before 
you.
    [The prepared statement of Ms. Nichols follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you for coming.
    Ileana, I believe you are going to introduce Sister Jeanne 
O'Laughlin.
    Ms. Ros-Lehtinen. Thank you. I am going to ask 
Congresswoman Carrie Meek to join me as well as we introduce 
Tom Rozek and Sister Jeanne O'Laughlin.
    Mr. Regula. Our colleague Clay Shaw also extended his good 
wishes to all of you.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. I am honored, 
along with my colleague Congresswoman Carrie Meek, to present 
the two distinguished constituents for you today. Mr. Tom 
Rozek, the President and CEO of Miami Children's Hospital, and 
Sister Jeanne O'Laughlin, President of Barry University. Let me 
begin with Tom, who has always demonstrated a never-ending 
commitment to children.
    Tom Rozek is a leader and a visionary and under his 
guidance Miami Children's Hospital is, indeed, ``building on a 
dream,'' and that is the name that has labeled many of its new 
projects that will help better serve the children of South 
Florida.
    Since 1950, Miami Children's Hospital has been a leader in 
pediatric care. It is the only free-standing, independent 
children's hospital in South Florida, serving not only children 
from throughout this region, which is the second largest 
population in the area, but serving children throughout the 
world.
    With this being said, it is easy to see why the hospital is 
often faced with waiting lists as long as six weeks. Miami 
Children's Hospital has grown and provided community-based 
children's services without Federal funding. But now it desires 
to develop and construct an Ambulatory Care Center that will 
inevitably reduce the waiting period for many families and 
children, it will serve an increased number of families, and it 
will enable them to keep their doors open to all of our 
children.
    Mr. Chairman and members of the Subcommittee, we urge you 
to please give favorable consideration to allocating $4 million 
to help Miami Children's Hospital complete a critically needed 
Ambulatory Care Center through the HHS/HRSA health facilities 
account.
    In addition, I ask that the Subcommittee consider an 
additional $4 million for the hospital's Pediatric Brain Tumor 
and Neurological Disease Institute which uses the most cutting-
edge technology in pediatric tumor surgery. Brain tumors are on 
the rise and, indeed, they are the number one cause of 
childhood cancer deaths in our country. In fact, the son of my 
District Director is presently recovering from a brain tumor 
that was diagnosed and cared for by the superb staff at Miami 
Children's Hospital. With $4 million Miami Children's Hospital 
would implement a powerful new tool for treating brain cancer--
the intraoperative MRI which will enable surgeons to perform 
otherwise impossible tasks to achieve brain scanning during 
surgery on a real-time basis. And when not in use during 
surgery, the equipment can easily be relocated from the 
operating room to be utilized as a traditional MRI unit, 
thereby reducing the wait for patients to receive MRIs.
    So you can see, Mr. Chairman, how important it is for our 
community and for the whole region, the State of Florida, the 
Nation, and indeed the whole Caribbean area for these programs 
to be funded. And we thank Tom for his leadership.
    Mr. Regula. You mentioned that they get no Federal money. 
Are you not under the General Medical Education Program for 
your training?
    Mr. Rozek. I was just going to thank you for the medical 
education funding that was appropriated two years ago that 
increased it to $285 million. We are asking for $293 million 
this year. That is all the children's hospitals around the 
country.
    Mr. Regula. I visited Columbus yesterday.
    Mr. Rozek. Absolutely wonderful place.
    Mr. Regula. How many beds do you have?
    Mr. Rozek. 265 beds. And we serve about 78,000 children who 
come through our emergency department. We are trending at 
85,000 now in addition to 4 ambulatory care sites that we have.
    Mr. Regula. Do you have a number of general hospitals that 
feed in to your facility?
    Mr. Rozek. All our children are referred to the hospital by 
pediatricians, pediatric specialists, and by other facilities 
who do not have the skill levels to take care of the children 
we serve.
    Ms. Ros-Lehtinen. Thank you. I would like to introduce 
Sister Jeanne O'Laughlin now and then I will have Carrie, Tom, 
and Sister Jeanne speak as well.
    Serving her 21st year as President, this is an incredible 
record, Sister Jeanne has one of the longest college presidency 
tenures in the United States. When Sister Jeanne assumed the 
presidency in 1981, Barry University was a struggling, mostly 
women's college of only 2,000 students. Since then, Sister 
Jeanne has raised $170 million and has transformed Barry into a 
thriving university serving more than 8,500 students.
    Helping others has been a theme in her life, as has been a 
commitment to educating and providing for the underserved. 
Under her guidance, Barry University has made tremendous 
strides in advancing minorities in health sciences as well as 
in providing health services to minority and disadvantaged 
populations. Sister Jeanne's philosophy, in her own words, is 
this: ``This is the time I believe to reflect on the legacy 
that we as individuals and collective groups hope to leave for 
this world.''
    Sister Jeanne is dedicated to providing basic primary care 
services to all Americans and, as a result, the Barry 
University School of Graduate Medical Science, currently the 
only type of program serving the Southern region of the United 
States in this kind of medicine, has provided services to more 
than 450,000 medically disadvantaged persons in Miami-Dade 
County in the field of podiatry.
    Sister Jeanne helped initiate Project Healthcare, that is 
the collaborative area resource effort to train people in this 
field and primary care residents throughout the United States 
in development of free community health programs in underserved 
communities. And under Sister Jeanne's leadership, Barry 
University has also initiated Project LEAP, Lower Extremity 
Amputation Prevention, which focuses on reducing diabetic 
amputations through regular examinations for diabetes patients.
    And to continue to build upon this legacy, Congresswoman 
Carrie Meek and I, along with our entire Florida delegation, 
ask you to seriously consider Barry University's request of 
$2.5 million for facilities through the HRSA account, and an 
additional $1 million to build upon the training and 
advancements for minority health professionals.
    Barry University also requests $1.5 million for its 
Academyfor Better Communities to expand programs that serve the elder 
at-risk population that we have in our South Florida region. In 1998, 
the Academy established ``Just Checking'' to divert older persons from 
acute hospitalization and nursing home placement. To date, the Academy 
has served over 1,200 older persons, their families, their caregivers. 
And with $1.5 million, Barry University hopes to expand services into 
Palm Beach, Broward, and Miami-Dade County.
    And lastly, Sister Jeanne will testify on the need for $1 
million for Barry's Educational Technology Project which will 
be used to renovate 20 classrooms and equip them with 
computers, multimedia technology, the Internet, as well as 
personnel and technical assistance resources for each 
classroom. Barry's Adrian Dominican School of Education already 
has a reputation for excellence, but with the Committee's 
approval of $1 million for this project Sister Jeanne can 
ensure that her teachers, many of whom have a long history of 
serving low-income and minority populations, can be fully 
prepared to train our Nation's future.
    And here is the Congresswoman of Barry University, 
Congresswoman Carrie Meek, and I get to represent Miami 
Children's Hospital, but we represent them together. Carrie.
    Ms. Meek. Thank you very much. My colleague has very well 
explained the need here and she also described the programs. I 
would just like to say that if there is one university in South 
Florida that truly represents the need of the people, it is 
Barry University. Sister Jeanne has been at the head of that 
university and she has really done what is called outreach. She 
has outreached into minority communities and, guess what, she 
has established a capacity there to do this. All universities 
are not trained to do what Sister Jeanne and Barry University 
do. They have a track record of being able to go out and be the 
lead person to establish it. My colleague mentioned the program 
she has there and how Barry has taught people how to deal with 
foot problems. All kinds of things that most universities do 
not reach out for at the beginning, she goes out and she tries 
them and she gets them so that other universities can build 
those capacities.
    I think, Mr. Chairman, what she is asking for is a 
reasonable amount in each of the programs that my colleague has 
mentioned here. I want to say to this Committee that it will be 
well-utilized dollar for dollar. Barry is that kind of 
university and Sister Jeanne is that kind of leader. I hope the 
Committee does well by Sister Jeanne. Thank you.
    Mr. Regula. We will hear your testimony. I would appreciate 
it if you would abbreviate a little bit. We have a full 
Committee meeting at 5:00 and I have a number of witnesses here 
yet, so we have to keep moving. But you do not have to sell me 
on the Children's Hospital, I know all about it.
                              ----------                              

                                             Tuesday, May 14, 2002.

                       MIAMI CHILDREN'S HOSPITAL


                                WITNESS

THOMAS ROZEK, PRESIDENT AND CEO, MIAMI CHILDREN'S HOSPITAL, MIAMI, 
    FLORIDA
    Mr. Rozek. Thank you, Mr. Chairman. Like you, Mr. Chairman, 
our two Federal legislators and all the South Florida 
delegation are very well known to everyone on the staff at 
Miami Children's Hospital.
    Mr. Regula. You trotted in the heavy artillery today.
    Mr. Rozek. If it so pleases the Chair, a copy of my oral 
testimony and also our larger written testimony is available 
and I will just highlight a couple of things.
    Mr. Regula. Okay.
    Mr. Rozek. First of all, we are the largest free-standing 
children's hospital in the State of Florida. We have the 
largest population of children with neurodevelopmental disease 
and epilepsy in the Southeastern United States and we have the 
staff to care for them. We also, as I pointed out when you 
asked me the question, we are caring for about 85,000 children 
in our emergency department. And one of our commitments is to 
reach out in the community to provide services at a time and 
place when the children need it, and that is why we need the 
Ambulatory Care Center.
    We also are one of the hospitals in the State of Florida 
that really cares for low-income, disadvantaged children, and 
over 50 percent of our revenues come from the State of Florida 
and the Federal Government through the Medicaid program, as do 
a lot of the children's hospitals that you are familiar with in 
the State of Ohio. We, in fact, areconfronted with major growth 
in pediatric services and the Hospital has faced long waiting lists, as 
has been identified. And the way the hospital has dealt with this over 
the last 50 years has been through non-State, non-Federal resources. 
They have gone to the parents and they have gone to philanthropic 
resources, both private and large foundations, to get support. And 
without that support we would have significant difficulty.
    Mr. Regula. You are saying you get pretty good community 
support?
    Mr. Rozek. We have about $5 million a year supported 
through our foundation. Our bottom line is a positive one only 
because of the Graduate Medical Education dollars that were 
appropriated by Congress through the leadership of this 
Committee and also because of the $5 million that our 
foundation gives us. If we did not have that, we would have an 
operating loss on an ongoing basis. And you cannot run any 
reasonable business with that kind of operating loss.
    We are very pleased with the support we received from our 
Chairman, Chairman Young, for the support he has given to the 
Graduate Medical Education Program. He has helped All 
Children's in St. Petersburg and Miami Children's Hospital have 
resources that other hospitals have had for years, and we do 
really appreciate it.
    We have talked about the ambulatory care facility. So I 
think I would just like to focus in on the issues of a hospital 
that really needs resources to deal with the significant number 
of children who have brain tumors, which is a growing 
population of children in Florida. It is the leading cause of 
death in children with cancer in Florida. We are working with 
the Florida universities, Florida International University, 
Barry University, and the University of Miami, and others to 
develop a Center of Excellence where our pediatric 
neurosurgeons can provide the services through an 
interoperative MRI that can help them deal with these services, 
known as a virtual navigation.
    With me today is our Chief of Staff and Senior Vice 
President for Medical Affairs, Dr. Christian Patrick. He has 
been with us now for a year. He joined us from St. Jude 
Children's Hospital. We believe that these two programs dealing 
with the Pediatric Brain Tumor Center and also dealing with our 
Ambulatory Care Center will provide services not only for the 
children of South Florida, but also for a growing population of 
children who are referred to us internationally and nationally.
    I would be willing to answer any questions that you may 
have.
    [The prepared statement of Dr. Rozek follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Sister Jeanne.
                              ----------                              

                                             Tuesday, May 14, 2002.

                            BARRY UNIVERSITY


                                WITNESS

SISTER JEANNE O'LAUGHLIN, PRESIDENT, BARRY UNIVERSITY, MIAMI SHORES, 
    FLORIDA
    Sister Jeanne. In order to respect your request to keep it 
brief, I will just tell you briefly that Barry University is a 
minority-majority institution. We have over 67 percent minority 
and in that we have been very successful in terms of the 
medical professions and the sciences. For instances, we were 
one of the first HHS Minority Access to Research Careers 
programs in the country. And I have to say with the dire needs 
of the community health professionals among the minorities, 
that has been part of our commitment. For instance, the School 
of Podiatric Medicine, when we initiated that it had about 9 
minorities in the profession of 9,000 and about 18 women. We 
have changed that to 450-plus women and over 300 minorities. So 
our commitment in terms of the objectives of this Institute for 
minority and community health is really much in tune I believe 
with what is happening here in the Nation.
    Our goals would be to provide community health services to 
address the mounting primary health care needs in Miami's 
increasing underserved minority population. We are in the midst 
of a neighborhood of immigrants. We are educating a new 
generation of health care professionals with special emphasis 
on minority outreach and we hope that they will be competent in 
all aspects of primary healthcare, especially in serving the--
--
    Mr. Regula. Do you provide an M.D.? You are educating 
M.D.s?
    Sister Jeanne. We are providing podiatric physicians and 
surgeons. But we are also providing the physician assistant, 
which minorities had not been part of. For instance, part of 
that course is taught in Creole in order to raise up 
professions in the Haitian community. We also have cardiac 
profusion, anesthesiologists, and occupational therapists, all 
of the students are minority majority but are succeeding. For 
instance, 100 percent of our podiatric students passed the 
national boards, highest of all the seven institutions in the 
country; our physician assistants passed 100 percent; our 
anesthesiologists passed 100 percent; our cardiac profusion was 
98.3 percent; and our occupational therapist passed nationally 
96 percent, I believe.
    What I think I am trying to say is that we are a majority 
minority institution but we are committed to raising up 
professionals in the medical professions that will serve the 
minorities, and we are doing a good job.
    [The prepared statement of Sister Jeanne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Do you have a School of Nursing?
    Sister Jeanne. Yes. We passed the highest in the State of 
Florida. We out-do FSU, we out-do University of Florida. And 
people say you cannot do that. But we are good teachers and we 
are rooted in teaching. I think that you would be proud of what 
is happening there.
    Mr. Regula. What is your enrollment?
    Sister Jeanne. Our enrollment is 8,600 students. In the 
School of Nursing, we have the largest school right now of 
nursing; it is over 800. This past Saturday we graduated 1,100 
students, and of that group there were about 120 nurses. Our 
teachers, by the way, passed 100 percent in the State.
    Mr. Regula. Do you have a School of Education also?
    Sister Jeanne. Yes. Excellent. They pass 100 percent. That 
is not in the script at all and I am afraid Marilyn is going to 
be upset with me, but I am so excited----
    Mr. Regula. Well, that is what we want to hear.
    Sister Jeanne. You know, we are so blessed and we are so in 
tune I think with the vision of this country and we want to 
further that and raise up those that could not be raised up if 
we were not there. This institute for minority and community 
health will help us do that, and the access for more students 
to get into the medical, the sciences. I think we can do it. As 
a matter of fact, we have put more Hispanic women into graduate 
medical programs than any institution in the United States.
    Mr. Regula. It sounds like you have a great track record. 
Are you a 501(c)(3)?
    Sister Jeanne. Yes, we are. We are an independent.
    Mr. Regula. Do you get support from foundations such as 
your colleague does?
    Sister Jeanne. Yes.
    Mr. Regula. And private donations.
    Sister Jeanne. Every cent that I get from the Government I 
make a commitment to match it. I owe that to the people. And 
the people have been very good to us. God has blessed us and I 
am hoping the country will do the same this year. [Laughter.]
    Mr. Regula. When you have got the Lord on your side----
    [Laughter.]
    Sister Jeanne. Mr. Chairman, forgive my boldness, but I 
heard that they call you a tree-hugger. I want you to know that 
I am a tree-hugger. I have planted in the inner-city of Miami 
almost 2,000 trees and the beauty of it is that people come in 
and hug them.
    Mr. Regula. I want to know if Carrie helps you. [Laughter.]
    Next time you plant trees, call Carrie.
    Sister Jeanne. I will. But I thank you and the Committeefor 
hearing us and for this opportunity to appear before you is a great 
privilege for me. I want you to know I am out there serving this 
country through your poor.
    Mr. Regula. It sounds like both of you have great 
institutions.
    Mr. Rozek. Thank you, Mr. Chairman.
    Sister Jeanne. Thank you.
    Mr. Regula. We are blessed in this country to have medical 
facilities. Thank you for coming.
    Mr. Miller. Mr. Chairman.
    Mr. Regula. Yes?
    Mr. Miller. Sister, my sister graduated from Barry College 
in 1969.
    Sister Jeanne. I could see the aura. [Laughter.]
    Mr. Miller. It was a college then, so it has come a long 
way.
    Ms. Meek. She has the best social work school in the 
Nation.
    Sister Jeanne. We do. We right now are working with the 
Governor and the Department of Children and Families and trying 
to solve that problem. The basic thing for this institution is 
to be prepared to serve the people and we start with the poor. 
Our endowment is zero practically. Our endowment walks in the 
feet of the poor in Miami and in Central and South America, but 
it will walk back some day in the shoes of professionals who 
will change the world.
    Mr. Regula. What a wonderful legacy for both of you. Thank 
you for coming.
    Mr. Miller [presiding]. I am Congressman Dan Miller, a 
member of this Committee. Mr. Regula has had to step out right 
now and I will continue the hearing.
    We now have Thelma King Thiel. Welcome.
                              ----------                              

                                             Tuesday, May 14, 2002.

                   HEPATITIS FOUNDATION INTERNATIONAL


                                WITNESS

THELMA KING THIEL, CHAIRWOMAN AND CEO, HEPATITIS FOUNDATION 
    INTERNATIONAL
    Ms. Thiel. Thank you. I appreciate the opportunity to come 
today, and I will be brief. I have presented written testimony 
for the record but I would like to make a few comments.
    When I lost a precious son, a four-year-old, thirty-one 
years ago to a very rare and fatal liver disease there were no 
treatments for liver disease, no vaccines. Little was known and 
little was taught about liver in medical schools and only a 
handful of physicians were specializing in liver disease. 
Transplants were really experimental and more lives were lost 
than were saved.
    We have come a long way. However, today we still have no 
treatments for many of the 100 known liver diseases, most of 
which are preventable. Currently, treatment is available for 
hepatitis B and C, two most common liver diseases. Millions are 
being spent on research to find new treatments and cures for 
hepatitis B and C. Many more millions are being spent by 
patients on minimally effective treatments for hepatitis C. 
Yet, all viral hepatitis is preventable. Hepatitis A and B 
through vaccination, and both through education.
    CDC is working feverishly to bring diseases under control. 
They have given us major grants to develop wonderful 
educational videos that we have distributed broadly across the 
country. They are running immunization programs to protect our 
young people, our most valuable commodity inthis country. Those 
at high risk, attending STD clinics, in detention centers and prisons, 
we really need some more funding to do that.
    However, negative publicity and anti-vaccine initiatives 
are undermining public health programs. Parents are being 
frightened. They are ignorant about the importance of vaccines 
and the liver. They are refusing vaccines that can save lives 
and the terrible disabilities caused by these preventable 
diseases.
    But when we look at the bigger picture, the missing link in 
all our preventative initiatives is early education. For years, 
the liver and hepatitis were absent from curricula. Parents, 
teachers, and even some physicians are not informed about the 
miraculous liver and about hepatitis. The tragic result is that 
young children are not prepared to know how to protect 
themselves, how to take responsibility to avoid liver-damaging 
activities. In essence, what we are saying is go play in the 
traffic. Kids who are in detention centers, they went to 
school. Those men who are having sex with men, they were boys 
and went to school. Binge drinking college students also went 
to school. Drug addicts went to school, to early education, 
elementary school. But did we fail them? I think we did.
    The tragedy is that we have neglected to teach our children 
about their health and how to protect themselves at a time when 
they are impressionable and interested in their bodies. We have 
not prepared them to avoid drugs, alcohol, and hepatitis. They 
need facts that they can remember to help them make healthful, 
informed lifestyle choices.
    There is a major gap in our efforts to attack drug abuse, 
hepatitis, binge drinking and alcohol. It is health education. 
Health education must begin in Head Start programs, in 
elementary schools and carried on through high schools and even 
in colleges. We must stop putting a band-aid on the hemorrhage 
of substance abuse, hepatitis, and alcohol and related 
violence, robberies, and pregnancies. We have an epidemic of 
ignorance that is costing us millions of dollars, not to 
mention the terrible loss in lives. Our kids do not know how to 
stay healthy. I think we have heard previous testimony about 
substance abuse and about obesity, et cetera. I think that we 
really have missed the boat by not starting early enough to 
educate our kids. They are bright, they are receptive, and they 
are our future. I think we need to look at health education as 
something that is missing in all our efforts.
    Thank you for giving me this opportunity.
    [The prepared statement of Ms. Thiel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Miller. Thank you very much for being here. I will 
certainly do everything I can. As you may know, my daughter 
donated half her liver to our son October 11th.
    Ms. Thiel. I think that is wonderful.
    Mr. Miller. I am very aware of the problems of liver 
disease.
    Ms. Thiel. Thirty-one years ago when my son had biliatary 
atresia and liver transplants were not an option for us at that 
point. And yet, the longest living survivor of a transplant is 
still alive today, and that is thirty-one years, and she has 
had a couple of kids I believe. So we have come a long way. But 
I think we really have to look at what is missing in our total 
substance abuse efforts, and hepatitis of course is one of the 
results of substance abuse. But I am glad your son is doing 
okay. That is wonderful. It is a miracle, it really is.
    Mr. Miller. Not the solution, but it certainly buys time 
for our son.
    Ms. Thiel. No, it is not. But people just do not know how 
important the liver is. It is a miracle worker and it is a 
silent miracle worker and that has been the problem. I 
organized and ran the American Liver Foundation, retired, and 
then started this organization seven years ago to continue my 
preventative education efforts. But I think that if people know 
how important the liver is, what it does for them, and how they 
can protect it, then we have a chance at stopping them from 
getting involved in risk activities. The people who have 
hepatitis C, we hear daily, ``If only I knew then what I know 
now, I wouldn't be infected with this disease and going through 
this miserable treatment.'' And I say, ``Do you want your 
children to go through the same thing? How are we going to 
protect them?''
    CDC, bless their hearts, have given us some wonderful 
grants to develop some great videos for schools, for kids, for 
professionals, for high risk people, and we are distributing 
them widely. But we really need to get more of that prevention 
going. Thank you very much.
    Mr. Miller. Thank you for being here to advocate the need. 
I am especially interested. So, thank you.
    Mr. Miller. Next we have Dr. Richard Barr, Chairman of the 
Board of Trustees of the Immune Deficiency Foundation. Dr. 
Barr, welcome.Tuesday, May 14, 2002
                              ----------                              

                                             Tuesday, May 14, 2002.

                      IMMUNE DEFICIENCY FOUNDATION


                                WITNESS

RICHARD BARR, CHAIRMAN, BOARD OF TRUSTEES, IMMUNE DEFICIENCY FOUNDATION
    Dr. Barr. Mr. Chairman, thank you for the opportunity to 
testify today on behalf of the Immune Deficiency Foundation, or 
IDF. IDF is the national non-profit organization that is 
dedicated to improving the treatment of primary immune 
deficiency diseases through research and education.
    Primary immune deficiency diseases are inherited disorders 
in which parts of the body's immune system are missing or do 
not function properly. The World Health Organization has 
identified more than 100 different primary immunodeficiency 
diseases that affect an estimated 50,000 Americans, regardless 
of race, age, or gender.
    Most primary immune deficient patients are able to maintain 
their health through regular infusions of intravenous 
immunoglobulin, or IGIV. IGIV is a pooled plasma derivative 
that replaces deficient antibodies and is administered every 
three to four weeks for the lifetime of the patient. However, 
if primary immunodeficiency diseases are not properly diagnosed 
and treated, they can lead to serious illness and early death.
    I am a physician by training, but I am here today to speak 
as a patient. My case is quite representative of the typical 
immune deficient patient. I was diagnosed with Common Variable 
Immunodeficiency fifteen years ago, following years of repeated 
infections that were unresponsive to antibiotics and 
undiagnosed by numerous physicians. This led to several 
unsuccessful surgeries and resulted in permanent lung and sinus 
damage. Following appropriate diagnosis and treatment, however, 
I was able to lead a productive professional and personal life.
    In my testimony today, I would like to highlight the 
following issues of importance to our community: (1) The 
Primary Immune Deficiency Consortium of NIAID; (2) smallpox 
research; (3) primary immune deficiency surveillance and 
education programs at the Centers for Disease Control and 
Prevention.
    Mr. Chairman, I would like to take this opportunity to 
thank the Subcommittee for its longstanding support of 
biomedical research at the National Institutes of Health. IDF 
urges the Subcommittee to continue its support of primary 
immune deficiency research at the National Institute of Allergy 
and Infectious Diseases, the National Institute of Child Health 
and Human Development, and the National Cancer Institute.
    Mr. Chairman, NIAID is currently in the process of 
developing a Primary Immunodeficiency Disease Consortium. IDF 
welcomes this exciting new initiative, which will establish a 
group of leading immunologists to aggressively attack these 
diseases in a multifaceted approach to include basic research, 
improved treatment modalities including gene therapy, and 
genetic testing of patients and families. The Consortium will 
utilize the current registry of primary immune deficiency 
patients, which IDF administers on behalf of NIAID. These 
registries provide a comprehensive clinical picture of eight of 
the most common disorders.
    IDF looks forward to working closely with NIAID in the 
development and management of this consortium. We believe that 
the Foundation is uniquely positioned to serve as NIAID's 
primary partner on this important new initiative. We encourage 
the Subcommittee to support this collaboration in fiscal year 
2003.
    Mr. Chairman, unfortunately, the primary immune deficiency 
population would be at a significant risk if the United States 
were to initiate a large scale smallpox vaccination program. 
Because the smallpox vaccine contains a live virus, primary 
immune deficient patients could become infected simply by 
coming in contact with a vaccinated individual.
    However, the IDF scientific leadership believes that the 
IGIV that many patients take to maintain their health may 
contain antibodies against the vaccinia virus which provides 
the protection for smallpox. This could potentially provide all 
immune deficient patients with passive immunity as well as 
serve as a potential treatment for healthy individuals who have 
adverse reactions to the vaccine.
    IDF is in the process of developing a research proposalfor 
submission to NIAID for the investigation of IGIV as a potential ally 
in the fight against smallpox. We encourage NIAID and the Subcommittee 
to give priority consideration to this relatively low cost, short-term 
investigation under NIAID's new bioterrorism initiative.
    Finally, Mr. Chairman, the IDF community is the only 
patient population that requires life-long infusions of IGIV to 
maintain their health. IDF has been working with the plasma 
fractionation industry, CDC, and NIAID to establish a national 
surveillance study of this group to evaluate the short and long 
term effects of IGIV usage.
    We are grateful for the Subcommittee's support of this 
project during the planning stage, and we ask that the 
Subcommittee continue its support by encouraging the CDC and 
NIAID to formally enter into a partnership with IDF for the 
establishment of this important initiative.
    A major component of IDF's mission is to increase public 
and professional awareness of immune deficiencies. We encourage 
the Committee to continue to support CDC's mission to extend 
the information regarding diagnosis to both patient groups and 
health care professionals.
    I thank you for the opportunity to testify, and I would be 
happy to answer any questions you might have.
    [The prepared statement of Dr. Barr follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Miller. Thank you very much. When you think of immune 
deficiency you always think of AIDS. But, obviously, it is a 
lot more than that.
    Dr. Barr. Our most famous patient was David, the boy in the 
bubble, who really everybody can relate to. And the interesting 
thing to note at this juncture is that David passed away after 
spending his lifetime virtually in a bubble because of no 
treatment for his disease and currently there are four children 
in France who have had gene therapy who are now as infants 
cured of the disease and, by all reports, will be able to lead 
perfectly normal lives.
    Mr. Miller. Thank you very much for being here.
    Dr. Barr. Thank you.
    Mr. Miller. Next we have Dr. Suzanne Jenkins, a member of 
the Executive Committee of the Council of State and Territorial 
Epidemiologists. Dr. Jenkins, welcome. Thank you for waiting 
this long.
                              ----------                              

                                             Tuesday, May 14, 2002.

            COUNCIL OF STATE AND TERRITORIAL EPIDEMIOLOGISTS


                                WITNESS

SUZANNE R. JENKINS, MEMBER, EXECUTIVE COMMITTEE, COUNCIL OF STATE AND 
    TERRITORIAL EPIDEMIOLOGISTS
    Dr. Jenkins. Thank you. I am taking a later train, thank 
you. My paying job is Assistant State Epidemiologist and Public 
Health Veterinarian for the Virginia Department of Health. I am 
here representing the Council of State and Territorial 
Epidemiologists (CSTE) as a member of the Executive Committee.
    CSTE is a professional association of over 400 public 
health epidemiologists working in States, territorial, local 
and Federal health agencies. CSTE is pleased to provide the 
Subcommittee with its recommendations for the fiscal year 2003 
funding.
    Before I do that, I want to thank the members of the 
Subcommittee for providing $918 million in fiscal year 2002 to 
strengthen State and local public health capacity to prepare 
for and respond to bioterrorist attacks, major infectious 
disease outbreaks, and other public health threats and 
emergencies. CSTE members are working hard to assure that this 
unprecedented level of Federal support for bioterrorism 
preparedness and public health infrastructure enhancement is 
used efficiently and responsibly and to produce measurable 
improvements.
    CSTE is also gratified that President Bush has maintained 
this commitment by proposing $940 million for upgrading State 
and local public health capacities in his fiscal year 2003 
budget. CSTE supports this request and urges the Subcommittee 
to provide at least this amount in 2003.
    The President's request recognizes that public health 
infrastructure improvement and bioterrorism preparedness 
require sustained multi-year support. It is going to take time 
to train epidemiologists and other public health professionals 
in the numbers that we need.
    CSTE has three comments concerning the Department of Health 
and Human Services guidance for future bioterrorism funding. 
The current guidelines call for assessment of epidemiologic 
capacity and at least one epidemiologist for each metropolitan 
statistical area with a population greater than 500,000. CSTE 
believes that this benchmark is too low. We really need more 
than one epidemiologist per 500,000 metropolitan statistical 
area, both now and in the future.
    We would also like to see the addition of a critical 
benchmark requiring coordination between State public health 
authorities and agricultural and animal health agencies. We 
know from our experience with West Nile Virus how important 
animal surveillance is for detecting threats to human health. 
There are many bioterrorist agents that affect both animals and 
humans.
    And third, CSTE would like to see future funding applied to 
chemical and radiological terrorism preparedness as well as the 
infectious disease agents. Current HHS guidelines omit funding 
for State and local environmental health capacity. This may 
require additional new funding.
    In the interest of time, I will only, and briefly, address 
two new initiatives that CSTE would like the Subcommittee to 
fund. You will see in the written testimony some of the things 
that we are asking for increases in that are not necessarily 
new initiatives.
    Currently, there are only a handful of environmental 
epidemiology experts working in State and local health 
departments. To be prepared for chemical or radiological 
terrorist attacks, the Nation needs to invest in training to 
provide these experts.
    CSTE urges the Subcommittee to provide a modest $5 million 
to CDC to establish five Centers of Excellence at accredited 
Schools of Public Health. The centers should focus on research 
and training in environmental health with emphasis on applied 
environmental epidemiology and require field placements in 
State and local health departments to help ensure that capacity 
will be enhanced in those settings.
    The second initiative addresses chronic disease capacity in 
States. The leading causes of death and disability are chronic 
diseases and associated risk factors. Many States have poorly 
developed surveillance systems and lack essential epidemiologic 
capacity to support chronic disease programs. Fully 22 States 
do not have a chronic disease epidemiologist.
    CSTE urges the Subcommittee to provide a modest $5 million 
for CDC's National Center for Chronic Disease Prevention and 
Health Promotion to build support for chronic disease 
epidemiology in States.
    This concludes my oral statement. As I said, there is more 
complete information in the written testimony. I really 
appreciate the opportunity to be here.
    [The prepared statement of Dr. Jenkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Miller. Thank you. There are huge sums of money, as we 
know, going into bioterrorism. But you bring up an important 
point, where are the people to do this. It takes a while to get 
trained.
    Dr. Jenkins. Right. And it takes a while to learn how to 
say it, let alone having to graduate from one of the schools.
    Mr. Miller. That is right.
    Dr. Jenkins. And this is doing more than just prepare for 
bioterrorism. This really is rebuilding public health 
infrastructure and allowing us to do a better job of detecting 
all kinds of diseases and in the future preventing them.
    Mr. Miller. Thank you very much.
    Mr. Miller. Dr. Anna Graham, President of the American 
Society for Clinical Pathology, and Professor of Pathology at 
the University of Arizona College of Medicine in Tucson, 
Arizona. Dr. Graham, welcome and sorry for the delay. Thank you 
for being here.
                              ----------                              

                                             Tuesday, May 14, 2002.

                AMERICAN SOCIETY FOR CLINICAL PATHOLOGY


                                WITNESS

ANNA R. GRAHAM, PRESIDENT, AMERICAN SOCIETY FOR CLINICAL PATHOLOGY AND 
    PROFESSOR OF PATHOLOGY, UNIVERSITY OF ARIZONA COLLEGE OF MEDICINE, 
    TUCSON, ARIZONA
    Dr. Graham. Thank you, Congressman Miller. Members of the 
Subcommittee, my name is Anna Graham. I am President of the 
American Society for Clinical Pathology, and Professor of 
Pathology at the University of Arizona College of Medicine in 
Tucson. I come to speak to you this afternoon about a serious 
shortage of medical laboratory personnel in the United States 
and offer a proven solution--the Allied Health Project Grants 
program. We respectfully request $21 million to fund the Allied 
Health Project Grants program for fiscal year 2003.
    You may ask why a pathologist is here to discuss non-
physician medical laboratory personnel shortages. ASCP is a 
unique organization. We represent 151,000 certified 
pathologists, PhD scientists, medical technologists, and 
technicians. We bring together all the elements that solve 
problems as a team in a laboratory and also would like to work 
toward common solution for this critical shortage problem.
    The United States has a serious shortage of laboratory 
medical personnel. Vacancy rates for seven of the ten key 
laboratory medicine positions are at an all time high. The 
vacancy rate for cytotechnologists, who are the professionals 
who interpret the Pap smear and other cellular preparations, is 
at 20 percent. Similarly, the histotechnologist vacancy rate, 
those people who prepare slides for diagnosis of cancer 
biopsies, is also at 20 percent. The medical technologist 
shortage across the United States is about 11 percent; however, 
in rural areas it is as high as 21 percent.
    One of the logical solutions to this problem would be to 
train more students; however, at this critical time the number 
of programs available for technologist training are actually 
decreasing. In fact, between 1994 and 1999, we saw a decrease 
of one-third in the available training programs, from 383 to 
273 in just five years.
    There are several reasons why the vacancy rate is 
increasing and the number of programs decreasing. Instead of 
going into clinical practice, a number of talented students 
have gone in the direction of laboratory management information 
companies, to dot.coms, and to corporations that manufacture 
diagnostic supplies and equipment. Hospitals have merged and 
this is decreasing the number of available training sites for 
medical laboratory personnel. Some programs have come up with 
innovative solutions to this; however, this is at a time that 
the demand for laboratory services is very real and it is 
expected to grow.
    In Florida, for example, the population is projected to 
grow by 29 percent by the year 2020, and the population over 
the age of 65 by 66 percent. Recognizing this aging of the 
American population, the likelihood is very high that the 
complexity and nature of biopsy specimens and the use of new 
sophisticated molecular diagnostic techniques is going to 
increase over the next decade. This is happening at precisely 
the time when most of our medical technologists are about age 
45 and approaching retirement. As has been mentioned before 
this afternoon, the threat of bioterrorism calls for trained 
laboratory personnel and the laboratory workforce will have to 
be able to react nimbly to these challenges with appropriate 
numbers of trained and educated personnel.
    There are solutions to this problem. There are grants 
available to help attract laboratory professionals to the 
field, especially minorities and individuals in rural and 
underserved communities. The Allied Health Project Grants 
program has been successful in effectively attracting new 
allied health professionals into the laboratory field. Let me 
just give you a few examples.
    The University of Nebraska Medical Center established a 
medical technology program in four communities in rural 
Nebraska, and that included a student laboratory in the central 
portion of the State. As of 2001, of 89 rural program 
graduates, 97 percent took their job in a rural area, and 74 
percent took their first job in rural Nebraska. And this was 
made possible through an Allied Health Project Grant.
    The University of Maryland at Baltimore created asuccessful 
minority recruiting and retention program for medical technologists 
with an Allied Health Project Grant, with an average 89 percent student 
retention rate. As a direct result of this Federal support, the medical 
technology program has, as of fall 2000, reached a 64 percent minority 
student enrollment at a majority institution. This is one of the 
highest in the country.
    While allied health professionals comprise more than 60 
percent of the entire health care workforce, and number more 
than 3 million individuals, the attention paid to these health 
professions is rather small. The Allied Health Project Grants 
program is a relatively small step in assuring that funding is 
available to attract allied health professionals to the field 
and to the underserved communities. We respectfully request 
funding for the Allied Health Project Grants in the amount of 
$21 million.
    Thank you, Chairman Miller, for the opportunity to testify.
    [The prepared statement of Dr. Graham follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Miller. And I believe these are also available through 
the community college system. Your examples were all four year 
colleges.
    Dr. Graham. For medical technologists certification through 
our organization, for example, it is recommended that a 
baccalaureate program be completed. Certainly, there are 
positions, like medical laboratory technicians, which can 
successfully function as associate degree graduates.
    Mr. Miller. I spoke at a community college graduation 
Friday night and there were a lot of students in the allied 
health area receiving their degrees there and look toward 
entering the field.
    Thank you very much for being here.
    Dr. Graham. Thank you.
    Mr. Miller. Next we will have David Moore, President of the 
Coalition for Health Funding. Mr. Moore, hello.
                              ----------                              

                                             Tuesday, May 14, 2002.

                      COALITION FOR HEALTH FUNDING


                                WITNESS

DAVID B. MOORE, PRESIDENT, COALITION FOR HEALTH FUNDING
    Mr. Moore. Thank you, Mr. Miller. It is a pleasure to see 
you again.
    Mr. Miller. Good to see you here.
    Mr. Moore. I am here this afternoon as the President of the 
Coalition for Health Funding. The Coalition thanks you for this 
opportunity to present to you our 2003 recommendations for the 
agencies and programs of the U.S. Public Health Service. We 
also want to thank you and the members of the Subcommittee for 
your continued commitment to these programs that are so 
critical to the health and well-being of the American people. 
You have the Coalition's written statement. I would like to 
make the following points.
    We believe that health is a continuum. The health needs of 
the American people must be addressed by strong, sustained 
support of a continuum of activities that includes biomedical, 
behavioral, and health sciences research; disease prevention 
and health promotion; health care services for vulnerable and 
medically underserved populations; ensuring a safe and 
effective food and drug supply; and educating a health 
professions workforce that will meet the health care challenges 
that will confront us.
    Since the terrorist attacks of 9/11 and the subsequent 
anthrax incidents, we have all become acutely aware of the role 
that public health plays in protecting us from 
terrorismincidents involving biological, chemical, and nuclear agents. 
Unfortunately, these events have also dramatically demonstrated the 
extent to which the Nation's public health infrastructure has been 
allowed to deteriorate. The Coalition applauds the extraordinary 
congressional response to this serious deficit and we support the 
President's fiscal year 2003 request for continued enhancement of the 
public health infrastructure.
    While there has been intense focus at the local, State, and 
Federal levels of Government in preparing for potential 
terrorist challenges, we believe that all aspects of our public 
health systems are critical to the success of this effort. In 
the words of last spring's CDC report on public health's 
infrastructure, ``We are a Nation at risk. We face a world of 
new threats and ancient foes.'' It is easy to understand the 
importance of strengthening the ability of local, State, and 
Federal public health agencies to detect and respond rapidly to 
a deliberately released infectious agent such as anthrax or 
smallpox. However, the link between the threat of bioterrorism 
and the importance of addressing racial and ethnic health 
disparities or access to essential health care services may 
seem less clear. But populations at high risk for both chronic 
diseases and naturally occurring infectious diseases and groups 
with less access to health care services are both more 
vulnerable to deliberately introduced diseases and less visible 
to the health care system at a time when hours count.
    Similarly, it is easy to understand the need to train more 
health professionals, such as epidemiologists and public health 
lab technicians, to prepare and respond to terrorism. But who 
will take care of those who fall ill, or who need emergency 
vaccinations or preventive medicines when we are facing serious 
shortages in the numbers of nurses, pharmacists, allied health, 
and other critical health professionals? These and many other 
activities supported by PHS agencies and programs, such as 
vaccine research at the NIH, medical errors research at the 
Agency for Healthcare Research and Quality, and food and drug 
safety review by the FDA, are clearly related to bioterrorism 
preparedness and response and need strong support.
    But even activities that cannot be related directly to 
bioterrorism, such as preventing birth defects, heart disease, 
or HIV/AIDS, are essential in our preparedness efforts because 
we believe a healthy America is a strong America. The complete 
continuum of public health activity must be sustained if we are 
to achieve both optimal terrorism preparedness and optimal 
health care outcomes for the American people.
    For 2003, the Coalition recommends $51.7 billion for the 
major programs and agencies of the U.S. Public Health Service. 
This recommendation includes the Indian Health Service and FDA, 
both which are not under this Subcommittee's jurisdiction. We 
appreciate that these funding levels, which are almost 16 
percent over last year and $4.5 billion over the President's 
request, may seem excessive, but they reflect both the 
professional judgment of the various agencies as well as our 
own members' assessment of community and national needs. In 
short, this recommendation reflects the enormous challenges 
still facing us as we strive to protect the Nation's health.
    The Coalition and its members look forward to working with 
you in the weeks ahead towards our mutual goal of improving the 
health and quality of life for all Americans. Thank you very 
much.
    [The prepared statement of Mr. Moore follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Miller. Thank you. It is nice to see you here. I am 
glad to see there is someone else out there advocating this 
need. I think it is important to be publicly advocating in 
support of all of these agencies. People do not even realize 
they exist back home in my district, a lot of them.
    Mr. Moore. Well, as you have heard this afternoon, we 
really encompass all of the programs that people have been 
talking about this afternoon.
    Mr. Miller. And it is a whole continuum of issues; 
research, the delivery of care. Thank you.
    Mr. Moore. Thank you for your support.
    Mr. Miller. We have Dr. Richard Sweigard. Thank you for 
waiting till the end, Doctor.
                              ----------                              

                                             Tuesday, May 14, 2002.

   NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND-GRANT COLLEGES


                                WITNESS

RICHARD J. SWEIGARD, CHAIR, DEPARTMENT OF MINING ENGINEERING, 
    UNIVERSITY OF KENTUCKY, CHAIR, SECTION ON MINERAL AND ENERGY 
    RESOURCES FOR THE NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND 
    LAND-GRANT COLLEGES
    Dr. Sweigard. I feel like the Super Bowl champion on NFL 
draft day. [Laughter.]
    Mr. Chairman, thank you for this opportunity to present 
testimony on the fiscal year 2003 budget request for the Mine 
Safety and Health Administration (MSHA) and the National 
Institute for Occupational Safety and Health (NIOSH). I am the 
Chair of the Department of Mining Engineering at the University 
of Kentucky. I also represent that National Association of 
State Universities and Land-Grant Colleges, or NASULGC for 
short, where I currently serve as Chair of its Section on 
Mineral and Energy Resources. NASULGC is the Nation's oldest 
higher education association. It currently has 213 member 
institutions, including 17 historically black institutions, 
located in all 50 States.
    The ultimate goal of all miner health and safety 
initiatives, whether they are carried out by a Federal agency, 
a State agency, or an educational institution, is to ensure 
that no miner has his or her life shortened or health 
compromised in pursuit of a livelihood. Our progress in meeting 
this goal depends upon three factors--engineering, education, 
and enforcement. Colleges and universities currently play a 
direct role in two of those factors, those being engineering 
and education, and an indirect role in enforcement by 
developing technology that makes it easier for companies and 
workers to comply with health and safety regulations. Although 
MSHA's State Grants program and NIOSH's National Occupational 
Research Agenda for extramural grants are relatively modest, 
they are essential in our pursuit of safety and health and a 
healthy workplace for miners. I will address each of those 
programs briefly.
    NASULGC supports the fiscal year 2003 budget request of 
$264.3 million for MSHA. Further, we strongly urge that for 
fiscal year 2003 your Committee would provide the authorized 
level of $10 million for State grants. The State Grants program 
has participants from 44 States and the Navajo Nation. Often 
the money is spent on training program development and 
delivery. Universities have cooperated on much of this course 
development and a number of States have contracted directly 
with colleges and universities to provide training or training 
materials.
    Now turning our attention to NIOSH. When the Bureau of 
Mines was closed the responsibility for research into problems 
of miner health and safety was transferred to NIOSH. NIOSH also 
oversees two national laboratories, in Pittsburgh and Spokane. 
NASULGC encourages greater participation between the 
laboratories and the universities. NIOSH's extramural research 
program is guided by NORA, the National Occupational Research 
Agenda. This agenda focuses on 21 high-priority research areas 
which is inclusive of persistent problems plaguing miners. 
These problems include such things as roof falls, slope 
failures, powered haulage accidents, dusty work environments, 
exposure to diesel particulate matter, excessive noise levels, 
and the presence of explosive gas. NASULGC is concerned that 
the Administration's budget request would cut NIOSH's budget by 
10 percent. Specifically, the proposed cut would strongly 
reduce NIOSH's extramural research program.
    We applaud NIOSH's expansion of its extramural program this 
year that included grant solicitations which were specific to 
mining research needs. I can attest personally to the quality 
of the proposals and the impact they will have on miner health 
and safety because I served on the panel that reviewed those 
proposals last month in New Orleans. We encourage NIOSH to 
continue the grant solicitations for mining research in future 
years. NASULGC believes the extramural research program is 
vital to workers health and safety and should not only be 
restored to current levels, but should be increased by an 
additional $25 million.
    We also support NIOSH's new research laboratory, the 
National Personal Protective Technology Lab in Pittsburgh. We 
are particularly interested in its respirator certification 
program and encourage an additional $10 million of funds within 
the laboratory for specific mining research needs.
    In conclusion, mines are much safer today than ever before. 
However, we still have problems which have immediate safety 
impacts and long term health implications. Fortunately, these 
problems are amenable to research that may, given the right 
combinations of talent, unlock secrets leading to important 
solutions.
    Thank you again for this opportunity to be here today, and 
I would be pleased to answer any questions if you have any.
    [The prepared statement of Dr. Sweigard follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Miller. The Mine Safety and Health Administration has a 
proposed $264 million budget.
    Dr. Sweigard. Yes.
    Mr. Miller. How much of that is for research?
    Dr. Sweigard. Actually, they do not have a dedicated 
research line. The $10 million for States Grants goes primarily 
for health and safety training issues. The actual miner health 
and safety research is funded out of NIOSH. So MSHA does not 
have a research line.
    Mr. Miller. Thank you very much. Thank you for being here 
this late.
    Thank you all for being here today and participating.
    This hearing is adjourned.
                                            Thursday, May 16, 2002.

                    AUTISM AND SPINA BIFIDA FUNDING

                                WITNESS

HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW JERSEY
    Mr. Regula. I see we have our first witness here and 
because we do have a long day, I am going to go ahead and get 
started. So, Chris, you are up.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. Chairman, 
thank you for the opportunity to be here to testify before the 
Committee. I am here this morning to talk to the Committee 
about spina bifida. It is our Nation's most common permanently 
disabling birth defect, which is caused when a baby's spine 
does not properly close during prenatal development. Spina 
bifida affects about 70,000 Americans. About 4,000 unborn 
babies develop spina bifida each year, but sadly only about 
2,500 of these children are ever born. The others are 
tragically aborted by parents who do not know that spina bifida 
is not a death sentence and that people with spina bifida are 
living longer, fuller lives than ever before, thanks to recent 
scientific and medical advances.
    Mr. Chairman, people who suffer from spina bifida often 
have paralysis of some muscle groups, difficulty with bowel and 
bladder control, learning disabilities, and other challenges. 
Between 70 to 90 percent of children diagnosed with spina 
bifida are at risk of becoming mentally retarded, yet our 
Nation has no national program to direct the battle against 
this disease, and I find that to be absolutely amazing.
    Mr. Regula. Are you saying that NIH does nothing in this?
    Mr. Smith. It is not that it does nothing, but it has no 
coordinated program. It does very little, in all candor.
    I am here today to request a $3 million appropriation from 
your committee to fund a national spina bifida program at the 
Centers for Disease Control and Prevention and the National 
Center for Birth Defects and Developmental Disabilities. This 
money will be invested in efforts to prevent spina bifida and 
help those children born with spina bifida to have access to 
therapies and programs that they need to help their lives and 
live their lives to the fullest.
    It should be noted that we have made some progress over the 
years in preventing the development of spina bifida through an 
existing folic acid education program. If all women of 
childbearing age were to consume .4 milligrams of folic acid 
every day before becoming pregnant, the amount of folic acid 
often found in a multivitamin, the incidence of folic acid-
preventable spina bifida would be reduced between 50 and 75 
percent. This message has been penetrating our society, but it 
has been slow, and we do see that there has been a downturn in 
the disease by about 20 percent.
    However, there is still much work to be done, and it should 
be done. We believe there needs to be additional outreach to 
the minority community. Under a national spina bifida program, 
the CDC would have increased and better coordinated resources 
to launch an all-out information and public awareness campaign 
that only CDC can wage. With a greater outreach, more babies we 
believe can be protected. But even if outreach were 100 
percent, Mr. Chairman, regular folic acid consumption helps 
prevent approximately 3 out of 4 cases. Therefore, we will 
still have some babies born with spina bifida.
    The second component of a national spina bifida program 
would be to focus on the many successful therapies that are out 
there, which begin in utero and run throughout life, that help 
make life better for people with spina bifida. A national 
program will focus on these therapies and treatments and make 
sure that they are widely known and available to the patient 
and their families. Major medical advances have permitted 
babies born with spina bifida to have a normal life expectancy 
and live independent and fulfilling lives.
    However, living with the disease can be very expensive, 
both emotionally, physically, and financially. The lifetime 
costs associated with a typical case of spina bifida, including 
medical care, special ed, therapy services, and loss of 
earnings, exceed $500,000. The total cost of spina bifida 
exceeds $750 million per year, and the Social Security 
Administration payments to individuals with spina bifida exceed 
$82 million per year. Tens of millions of dollars are spent on 
medical care covered by Medicaid and Medicare. Clearly, we need 
to do more to help families pay for this expensive yet vital 
health care.
    The third goal of the national program would be 
ameliorating the lives of those with spina bifida by teaching 
patients and their families how to prevent and treat health 
complications that affect people with spina bifida. These 
secondary health problems range from learning disabilities and 
depression to severe allergies and skin problems. A national 
program will help develop prevention and treatment options and 
educate people about them.
    Mr. Chairman, I also want to note that as Chairman of the 
House Committee on Veterans' Affairs, I am in contact with 
Secretary Principi, and I have urged greater cooperation within 
the VA and the CDC with regard to compiling and maintaining a 
registry of veterans exposed to Agent Orange while serving in 
Vietnam. As you know, there is a positive association between 
spina bifida births and veterans exposed to Agent Orange, and I 
hope that this resource sharing will strengthen our efforts as 
well.
    Finally, it is time, I believe, the $3 million is a very 
modest amount and would really make a major difference. Let me 
just very briefly mention one other disease that I would ask 
the Committee focus on, and it was brought to light to meby our 
chaplain, our House chaplain, Father Coughlin. His sister, her 
daughter, has a disease known as Batten's Disease. It is a very rare 
disease. Regrettably, it is always terminal. The incidence is suggested 
to be about 2 to 4 of every 100,000 births. There is very, very little 
that is known. Nobody knows the cause. The costs, the regimen of 
treatment is still in the experimental stage, and again, we are asking 
for some help there, perhaps some report language that would help with 
regards to that very rare disease, because there is just very little 
being done. I have met with Dr. Giovanna Spinella who runs the program 
for rare diseases. She admits she is doing what she can, but there are 
just not enough resources.
    Mr. Regula. She is at NIH?
    Mr. Smith. Yes. She is at NIH. So I raise these two issues 
to the Committee. Again, I think the spina bifida one is very, 
very doable in terms of the amount of money we are asking for. 
We have 38 Members who have signed the letter to the Committee 
asking for this. It is a bipartisan letter, and I do hope we 
can move in this direction.
    [The prepared statement of Congressman Smith follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Well, it is not a lot of money. But the one 
problem with NIH, we don't earmark for specific research. They 
get a lump sum, and in turn they decide which programs to 
pursue. And I assume you have been in contact with NIH?
    Mr. Smith. We have.
    Mr. Regula. And the CDC----
    Mr. Smith. CDC--you know, part of this is getting the 
message out, like I said, to the minority community, to other 
communities on the folic acid; but also, you know, there needs 
to be much more coordination, and CDC, it seems to me, could do 
a lot more.
    Mr. Regula. How are they getting the message out on folic 
acid?
    Mr. Smith. There are individual organizations that are 
doing the work. There is one group, and many of the people are 
here today, the Spina Bifida Association of America, SBAA. They 
have done yeoman's work, but there needs to be much more of a 
focus that only a national intervention, I think, can bring to 
this disease.
    Mr. Regula. Folic acid needs to be taken prior to getting 
pregnant?
    Mr. Smith. Yes.
    Mr. Regula. In order to prevent----
    Mr. Smith. To prevent at least some of these, yes.
    Mr. Regula. Some of them.
    Mr. Smith. It is not a fool-proof magic bullet, but it is 
certainly one of those things that----
    Mr. Regula. There is a national organization you mentioned?
    Mr. Smith. Yes. They are here.
    Mr. Regula. Okay. Are you making any effort to get a 
message out?
    Mr. Pote. Mr. Chairman, my name is Hal Pote. I am President 
of the National Spina Bifida Foundation. We are working with 
the March of Dimes. The difficulty is it is a mass market 
message. So it is expensive, requires advertising, and as 
Congressman Smith said, the most acute problem right now is 
reaching the minority communities, because, as we have 
increased the level of awareness of folic acid and its 
importance, we can see in the higher socioeconomic strata of 
society, we can see some incidence of reduction of spina 
bifida.
    Mr. Regula. Is there a natural source, in the food or----
    Mr. Pote. Yes. It is found in leafy green vegetables like 
spinach and broccoli, and then in smaller quantities in orange 
juice, and bread and grain are fortified but only to a level 
that is less than half of what is recommended. The problem is 
that most Americans, especially younger women and folks in 
minority communities, often don't have a diet--and I would have 
to say my diet does not include enough leafy green vegetables 
to get 400 micrograms of folic acid.
    Mr. Regula. I was going to ask you if an ordinary balanced 
diet would give you sufficient quantity.
    Mr. Pote. No. Unlikely. And certainly unlikely among 
teenage girls.
    Mr. Regula. But you can get it in a multivitamin?
    Mr. Pote. If you go to a drugstore and select almost any 
one-a-day multivitamin, you will find today 400 micrograms of 
folic acid.
    Mr. Regula. Well, schools ought to get that kind of 
information out, because they are dealing with young people. 
They are making diet decisions and so on. It is interesting. It 
is a never-ending challenge, isn't it?
    Mr. Pote. It is unbelievable.
    Mr. Smith. A major difference could be made in a lot of 
lives for very modest expenditure.
    Mr. Regula. I understand. If you have been with me here for 
the last 5 months, you find this true in a lot of different 
things that afflict people. We hear from a lot of groups. In 
fact, we are going to hear from a lot today.
    So thank you very much for coming.
    Mr. Smith. Thank you for your time.
    Mr. Regula. At the present time, you are saying the 
research by NIH is pretty limited?
    Mr. Pote. It is. Limited and somewhat fragmented.
    Mr. Regula. I wonder if they have this kind of information 
on their Web site on the folic acid.
    Mr. Pote. Yes. CDC does.
    Mr. Smith. But again, how many young teenagers and young 
adults go to that Web site?
    Mr. Regula. I understand, exactly. Well, thank you for 
coming.
                              ----------                              

                                            Thursday, May 16, 2002.

             CONGRESSIONAL DIABETES CAUCUS DIABETES FUNDING


                               WITNESSES

HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
HON. GEORGE R. NETHERCUTT, JR., A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF WASHINGTON
    Mr. Regula. Okay. Mr. Nethercutt and Diana.
    Okay. We welcome you. We have heard a lot about diabetes, 
starting in January. So we hope----
    Ms. DeGette. We are not going to let up on you, Mr. 
Chairman.
    Mr. Regula. I know that. I understand, and you shouldn't.
    Mr. Nethercutt. Mr. Chairman, thanks for welcoming us. We 
appreciate having the chance to testify before this 
subcommittee, and you especially. Diana and I--Congresswoman 
DeGette and I are cochairs of the House Diabetes Caucus. I 
think it is the largest Caucus in the House, roughly 300 
members. We are closing in on 300. This disease affects my 
daughter, diabetes. She is 21, just graduated from college on 
Friday, and has had it for 15 years. It has been a passion of 
mine, and I know Diana's and others who are part of the caucus, 
for the time that we have been faced with diabetes, and this 
disease is one that affects 16 million people.
    It consumes 25 percent of the Medicare dollars that are 
spent, 800,000 new cases every year. It is a tough disease, and 
it has consequences on the productivity of the Nation. It costs 
the country around $100 billion a year, is the estimate that I 
have seen. So it is a profound disease that needs, I think, 
profound solutions, and we believe money is certainly a part of 
that solution.
    We have been strong advocates of doubling the NIH budget. I 
know this committee and our Appropriations Committee has done a 
good job in----
    Mr. Regula. Well, we are in the fifth year of that, which 
is theoretically the last year, and we will probably complete 
the doubling as of this 2003 budget.
    Mr. Nethercutt. Sure.
    Mr. Regula. That doesn't mean that the efforts stop.
    Mr. Nethercutt. Sure. I just want to make a couple of 
points. I have testimony submitted for the record, and then 
Diana has comments as well.
    My sense is that this is one that affects 
disproportionately--and the statistical evidence is clear--it 
affects disproportionately our minority populations, Hispanic 
populations, black populations, Native Americans, and we are 
pushing especially hard on Native American diabetes.
    Mr. Regula. I thought you were doing that on the Interior 
Committee.
    Mr. Nethercutt. I still do, sir.
    But anyway, we know you have a challenge, and there are 
lots of diseases that affect people very seriously, and we are 
very sensitive to that. Our approach on this issue as it 
relates to trying to get more resources for diabetes is that we 
think we can solve more problems if we can eliminate this 
diabetes, the scourge of diabetes. We can solve a lot of other 
collateral problems in the country as it relates to health 
care. We are pushing hard on the obesity issue----
    Mr. Regula. Yeah.
    Mr. Nethercutt. In the Native American population. So I am 
here--you know how I feel. We are very strongly supportive of 
more research.
    [The prepared statement of Congressman Nethercutt follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Have you talked with Dr. Spiegel at NIH?
    Mr. Nethercutt. Yes.
    Mr. Regula. I would think you probably have.
    Mr. Nethercutt. We have repeatedly, and we would like his 
energy and his commitment and his forward thinking.
    Mr. Regula. Congressman Obey and I exchanged visits when 
Dr. Spiegel came to Wisconsin, and he was in Ohio this past 
Saturday, and we had quite a large delegation that came to the 
hearing on this subject.
    Mr. Nethercutt. Sure.
    Mr. Regula. And I heard from a lot of people. We are close, 
I think.
    Mr. Nethercutt. Well, we feel that way. This transplant 
technology has been marvelous. You know, 80 percent of the 
people who have had a transplant are insulin-free for--you 
know, diabetes-free for at least a year. So it is very 
promising.
    Mr. Regula. I think NIH is putting quite a bit of resources 
into that one, because they feel that it is one that has a real 
potential for a breakthrough.
    Ms. DeGette. Mr. Chairman, let me add that George and I, we 
have been cochairs now together for 3 years. So we are like a 
standup comedy act. We can fill in for each other.
    Mr. Regula. That is a good role for George.
    Ms. DeGette. Yeah. I try to help him along, yeah.
    The first thing I would like to do is welcome a lot of 
diabetes advocates from around the country who are here in the 
room with us today, and just to add in to some of the things 
that George said. And of course, Mr. Chairman, as you 
recognize, diabetes, surprisingly to many people, is the sixth 
leading cause of death in this country and affects 17 million 
Americans, both type 1 and type 2 diabetes. And we have been 
working in conjunction with this committee to do the doubling 
of the NIH budget, which is great, and it has happened.
    But while the NIH budget has doubled, sadly the percentage 
of the NIH budget devoted to diabetes has fallen more than 20 
percent, and diabetes has grown over 50 percent in the last 
number of years, particularly type 2 diabetes. And so while we 
are pleased at the doubling of the NIH budget, we also believe 
that diabetes research funding should be growing at a much 
faster rate.
    Now, I know that this Committee does not earmark funds. 
However, I think there are productive ways that George and I 
and the Caucus can work with the Committee to make sure that we 
send a strong message to the NIH that because diabetes is such 
a serious disease which kills so many Americans, we need to 
increase the commitment.
    And I spent a lot of time talking to your predecessor, Mr. 
Chairman, about this frustration sometimes you might feel about 
just throwing money into research without results. The good 
news, as George said, is we are seeing dramatic and stunning 
breakthroughs in diabetes research. So let me just talk about 
that.
    As George said, the clinical trials relating to 
transplantation of the islet cells, the insulin-producing 
cells, is showing tremendous promise. But there are two 
obstacles to the research that we have to break through on. The 
first one is the recipients need immunosuppressive therapy to 
prevent rejection of the cells, and the progress of this 
research, which is spearheaded by the NIH-funded Immune 
Tolerance Network would not only help diabetes but also people 
who suffer from other autoimmune diseases, like lupus, 
rheumatoid arthritis and multiple sclerosis. And this reason is 
the primary reason people like George's daughter and my 8-year-
old daughter, who have type 1 diabetes, really aren't going to 
be candidates for this type of cell replacement therapy right 
now, because the drugs they have to take to prevent rejection 
are worse than the effects of diabetes on their bodies right 
now.
    The second problem that we have and one that is of greater 
concern for researchers in the long run is the fact that we 
don't have enough pancreas from donors to actually make enough 
islet cells to give replacements to everybody. Less than 2,000 
pancreas are available every year, and so if and when the 
transplants are ready to be applied to everybody who suffers 
from type 1 diabetes, only a small fraction will benefit. So 
researchers are looking for alternative sources of insulin-
producing cells.
    One of the most promising areas is embryonic stem cells, 
and researchers in Canada and in the United States have had 
progress in showing that embryonic stem cells can be turned 
into insulin-producing cells, and that would give a virtually 
unlimited supply for transplantation.
    And by the way, Mr. Chairman, this is why some of us 
believe we have probably support from over 230, maybe 240 
Members of Congress to continue this important research.
    I know we have got a vote on, and so I will be brief. With 
respect to type 2 diabetes, funding for the CDC is critically 
important for education, for obesity programs like George 
mentioned, and a lot of other programs.
    And, finally, one more thing I would like to mention. As 
George said, diabetes disproportionately affects communities of 
color. There is a tribe--an Indian tribe in Arizona, the Pima 
Tribe. Fifty percent of the tribe between the ages of 30 and 64 
has diabetes. And many Members of Congress, not just George, 
but many of the rest of us have worked hard to increase funding 
for the Indian Health Service. We need to continue this type of 
funding, because if we look at demographics with respect to 
Latino and Native American populations as well as African-
American populations, these are the highest growing populations 
in the country. So with that, thank you for your good work. 
Thank the Committee for its good work, but we still have many 
miles to walk on this issue.
    [The prepared statement of Congresswoman DeGette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Well, I know that Dr. Spiegel is aggressively 
working at it, and he met with our folks out in Ohio this 
Saturday. They had quite a delegation there. And I have had a 
number of constituents who have children like your 8-year-old, 
and I assume it is a girl. Right?
    Ms. DeGette. Yes, little girl.
    Mr. Regula. Does she have to take a kit with her to school?
    Ms. DeGette. Right. She has four finger pricks every day, 
at a minimum, and three shots of insulin, at a minimum. As does 
your daughter.
    Mr. Nethercutt. Yeah. Our daughter is on----
    Ms. DeGette. She is on a pump now.
    Mr. Nethercutt. I might just mention one other thing, Mr. 
Chairman. This subcommittee put $1 million in at our request a 
few years ago to do the Diabetes Research Working Group study, 
that pathway to a cure. It is a document that exists. We are 
trying to reach it. It was all the experts in diabetes research 
around----
    Mr. Regula. It wasn't published?
    Mr. Nethercutt. It was published; yes, sir.
    Ms. DeGette. We can give you a copy.
    Mr. Nethercutt. And it charts this pathway to a cure, and 
says if we have this much money in these years, we will make 
it. I think Diana put in a resolution a couple of yearsago or a 
year ago that Congress--the House passed 415 to 0, saying we support 
the goals of the Diabetes Research Working Group report. So there is 
ample evidence supported by the House that more resources are needed.
    Mr. Regula. Well, I guess sometimes cures just take a 
certain amount of time to make the necessary steps. As I 
understand it, you can now wear a patch that would----
    Ms. DeGette. Mr. Chairman, there is some research going on 
right now involving an insulin patch, involving inhalable 
insulin, but of course those courses of action are not a cure, 
and those haven't been approved for use. When they are approved 
for use, again----
    Mr. Regula. Still, it is just a remedy.
    Ms. DeGette. They will just be a--and all of the life-
threatening side effects from diabetes will continue, and of 
course type 2 diabetes we need to continue to work. That is the 
fastest growing component of diabetes.
    Let me just say there will be a cure. What the working 
group showed is clear pathways to a cure, and the fact that 
what you really need is funding for that research. If you can 
expedite funding for the research, you will have the cure that 
much faster.
    Mr. Regula. We will get a copy of that report. I haven't 
seen it.
    Ms. DeGette. We will get you one. It is an excellent--it 
shows the research pathways.
    Mr. Nethercutt. It does. Very accomplished.
    Mr. Regula. Put out by NIH?
    Mr. Nethercutt. Yes. It was a scientific panel, interest 
groups as well as medical doctors and endocrinologists. 
Everybody, people from Stanford, Harvard, looked at this for a 
year and came up with a report and said we support this. This 
can work.
    Mr. Regula. Okay. Well, thanks for your time.
    Ms. DeGette. Thank you, Mr. Chairman.
    [The information provided was too lengthy to be printed and 
is available in Committee files.]
                              ----------                              

                                            Thursday, May 16, 2002.

    CONGRESSIONAL ALZHEIMER'S TASK FORCE ALZHEIMER'S DISEASE FUNDING


                               WITNESSES

HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW JERSEY
HON. EDWARD J. MARKEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Regula. Chris and Ed.
    The Committee will be in recess for whatever time it takes 
to go vote.
    [Recess.]
    Mr. Regula. Okay. We will reconvene. I am pleased to 
welcome our colleagues, and tell us about Alzheimer's.
    Mr. Markey. Thank you, Mr. Chairman. I speak with great 
respect for the Subcommittee, and Chris Smith and I are the 
cochairs of the Alzheimer's Congressional Task Force. We have 
161 members. The great work which this subcommittee has done 
over the last 10 years has helped to really solve many of the 
problems which many American families have been confronted 
with. Over the last 100 years, we are seeing an increase in 
life expectancy, from 48 years of age which it was for the 
average American in 1900, to 78 years of age.
    Mr. Regula. I might interrupt. Excuse me. One of the NIH 
people made the comment the other day that every 5 years, life 
expectancy goes up 1 year.
    Mr. Markey. One year. And now it is 78. And one in three 
babies born today here in Washington, D.C. or anywhere in the 
United States, has a life expectancy of 100 years, which is 
quite a thing. That is quite a thing. One in three babies will 
live to 100 years of age. So you have this interesting dilemma 
now, where the work which is done by the funding of NIH by this 
Committee has now basically taken just about every disease, and 
it is pushed by the life expectancy for every one of them.
    But now every one of those diseases, as it is being 
conquered or pushed back, creates a problem for every one of 
the individuals, every one of the families, because 1 in 10 
people who live over the age of 65 contract Alzheimer's, and 
one in two people over the age of 87 contract Alzheimer's.
    Mr. Regula. One in two?
    Mr. Markey. So as we push it back, every one of these 
groups now confronts this disease. So they all become common 
targets of the disease as they have this other disease fought. 
So last year, nearly $600 million was appropriated by this 
committee for Alzheimer's. We are asking that it go up to $800 
million. In truth, we would want it to be much higher, because 
this is the common threat that every American family is 
unfortunately going to have to deal with as life expectancy 
expands. And hopefully that can happen.
    There is a matching grant program that we would hope would 
be increased from $11.5 million to $25 million. There is a 
State program that helps with caregiving. Seven in 10 people 
with Alzheimer's are at home. Mostly it is spouses. In a family 
who has an Alzheimer's victim, the spouse has it as well for 
all intents and purposes. They are tied to the spouse. So at a 
certain level these people are heroes, butthey need some help. 
They need a little bit of additional help at home or respite care or 
whatever.
    And, finally, there is a clinical awards program and a 
training program that is going to designate the National 
Institutes of Aging. They are going to pick the best programs 
in the United States at the best institutions to develop the 
best clinical programs.
    There is a lot of mythology about Alzheimer's, you know, 
just grandpa is a little--or maybe a little senility is setting 
in, and they really don't put together the state-of-the-art 
programs to help the families as well, in terms of the clinical 
awards, clinical programs. And we would like to see for this 
coming year $2.5 million set aside so that the best programs in 
the United States can be given the research money so that they 
can do the best clinical programs as well.
    This is just a nightmare that is going to hit as each year 
goes by, as the success in every other program that you have 
takes hold. I thank the chairman.
    [The prepared statement of Congressman Markey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I had a 71-year-old engineer from the Hoover 
Company, which is in my district, testify this year. And he 
could just read. He was a little more verbal. And he was one of 
their top engineers. And it is so frustrating to him, because 
he knows what is happening to him. Today we are going to give a 
gold medal, but President Reagan won't be there, and it is 
debilitating. And the family impact--the wife of the gentleman 
that testified last week said, I love to ski. I can't go skiing 
anymore. I can't--I am just home bound.
    Chris, do you want to add----
    Mr. Smith. That is just about everything that is in my 
testimony as well; but, you know, as he pointed out, we do have 
161 Members who are now much more informed, as are we, as to 
just how debilitating and how the incidence of this disease is 
rising almost exponentially. The estimates are it will go from 
4 to 14 million--currently it is at 4 million--over the next 50 
years. So we are looking at a bubble that not only will 
devastate the individuals and their families if we do not try 
to find a tourniquet to try to fix this, we also have the 
unbelievable impact it will have on resources, Medicare and the 
like, because of the care that is required.
    So we do think this is a significant increase, but very 
much of a justified increase. And I laid out in my testimony, 
Ed has in his written testimony I am sure as well, but the 
money will be well spent. One out of every four laudable 
programs or research projects is funded by NIH. So three-
fourths are not funded because of lack of resources. So the 75 
percent of those that don't get the money might have the cure, 
or at least point the way towards a cure.
    [The prepared statement of Congressman Smith follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Well, as you both know, as a national policy, 
we have committed to double the research that is----
    Mr. Smith. Oh, I know. You have done so much. We appreciate 
it.
    Mr. Regula. The fifth year of it coming in 2003. They are 
working at it, obviously. Does the genome project have some 
potential, the various things that we are doing in genetics and 
cellular research?
    Mr. Markey. They hope so, but there is no big Alzheimer's 
breakthrough at this point at all, and really time--as Chris 
was saying, when we go from 4 million people with it today, 
that is an amazing number of people. That is 4 million, plus 
the spouse. That is 8 million people who are tied to one 
disease, to 14 million by the time all the baby boomers are 
retired. That is 14 times 2. That is 28 million Americans who 
would just--basically with a spouse, with a victim, you know, 
with what one does, you know, because the spouse has it for all 
intents and purposes as well.
    So I know that you have a lot of pressure on you, but I 
think President Reagan, Cyrus Vance, people like this who have 
the disease--Cyrus Vance just recently died--you see them, they 
still look physically healthy because of the success of every 
other program, you know.
    Mr. Regula. That is true.
    Mr. Markey. This disease, then, as they get older robs 
them, or else--you know, let us be honest. President Reagan 
looks like he is a guy that would go to 105, you know. He would 
still be around because of the success of every other program. 
Cyrus Vance would still be able to walk around. So unless we 
really throw the resources at this thing to get it done, 
unfortunately we will have a kind of O'Henry ending to the 
story, where we cured the other diseases, where we only have 
this thing waiting for a high percentage of people.
    Mr. Regula. That is true. A Catch-22.
    Mr. Smith. Mr. Chairman, the only other thing we are trying 
to emphasize--and again, you have been very generous. This 
committee has stepped up to the plate. Those requests for 
research that go unfunded, three out of four is not 
insignificant. That is a lot of people, a lot of researchers 
who may go off and do something else, where they could be 
finding a cure or at least stopping this disease, arresting it 
in its tracks. We have had some very informative explanations 
given to us by some of the top researchers, including one from 
Boston, and maybe they are not right there close, but this is 
doable, and we need a Manhattan Project-type mentality to say 
we are going to whip this, and I think money does make a 
difference.
    Mr. Regula. Well, as you can see, you have been heretwice 
this morning, and as I look down the list here, there are another dozen 
diseases that will be testified to by Members. So it is a matter for 
NIH to sort of balance out the resources, because we give them 
essentially a lump sum and they make the choices as to where to do the 
research. And I am sure you have talked to the folks out there.
    Well, thanks for coming.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Chairman.
                              ----------                              

                                            Thursday, May 16, 2002.

                              HEALTH PANEL


                               WITNESSES

HON. DONNA CHRISTENSEN, A REPRESENTATIVE IN CONGRESS FROM THE VIRGIN 
    ISLANDS, CONGRESSIONAL BLACK CAUCUS
HON. CIRO RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS, CONGRESSIONAL HISPANIC CAUCUS
HON. ROBERT UNDERWOOD, A REPRESENTATIVE IN CONGRESS FROM GUAM, 
    CONGRESSIONAL ASIAN PACIFIC CAUCUS
HON. DENNIS KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO, CONGRESSIONAL PROGRESSIVE CAUCUS
    Mr. Regula. The next panel, Mr. Rodriguez, you are here, 
and also Mr. Underwood.
    We are going to go ahead with you, because I don't want to 
hold you up while we are waiting on the rest, and you probably 
have different topics, so we will be happy to hear from you.
    Mr. Rodriguez. First of all, let me thank you, Mr. 
Chairman, for allowing us this opportunity to go before you as 
a Hispanic Caucus. You well understand some of the conditions 
that Hispanics throughout the country are suffering, and I want 
to take this opportunity first of all to thank you not only for 
listening, but there is no doubt that you are genuine about 
your concern also and the seriousness of the situations that we 
feel, especially in the area of health care.
    Let me quickly just get to some of the specific points. One 
of the major points that we are very concerned about from the 
Hispanic population perspective is the fact that we represent 
12.5 percent of the U.S. population, and over 11 million 
Hispanics still lack access to health care. And so we have the 
largest number of uninsured in this country. And a lot of them 
are working Americans that have just to work in those small-
company types of jobs that don't have access to insurance, and 
find themselves unable to qualify for Medicaid and not able to 
be able to purchase the insurance for them to take care of 
their kids and families. So I just wanted to lay that out, 
because it is a critical issue that confronts all Americans.
    Secondly, because of that, we feel very strongly about the 
Community Health Centers that are a valuable part of the local 
communities, and we fully support their efforts. In that 
specific area, we are asking that you seriously consider 
additional funding of over $250 million for those Community 
Health Centers.
    Mr. Regula. I like the Community Health Centers, and we are 
going to give that a lot of attention.
    Mr. Rodriguez. Thank you very much, because those really go 
out there and fit in that gap, especially for those persons 
that are kind of low- and middle-income that don't qualify for 
that Medicaid. So thank you very much.
    In addition to that, we are also very supportive of the 
expansion of SCHIP and Medicaid to legal immigrant citizens, 
and we are talking about not undocumented ones, not illegal; we 
are talking about legal immigrant citizens. And we ask that you 
seriously look at funding those resources. By giving the States 
and the SCHIP/Medicaid--by giving the States the option to 
expand the services, also we would provide health care coverage 
to more than 144,000 children and 33,000 expectant mothers or 
pregnant mothers. And so in that area the CBO cost estimates 
that the initiative would be about $565 million over a 5-year 
period. And that is also a critical area.
    One other aspect that I want to share with you, especially 
for Hispanic Americans, is both the cultural competencies and 
language proficiency requirements. On March 14th of 2002, the 
Office of Management and Budget released a report to Congress 
on the assessment of the total benefits and cost of 
implementation of Executive Order 13166, and that is the order 
that allows--to make sure that people have the opportunity to 
have access to service for limited English proficiency 
population. In that specific area, we are looking--the Hispanic 
Caucus requests an increase of $3 million for activities for 
the Center for Linguistics and Cultural Competence and Health 
Care at the Office of Minority Health in the Department of 
Health and Human Services. And so we ask that you really kind 
of look at that. And this area is even more critical when we 
look at the area of mental health services. When the person has 
a mental health difficulty, if they don't have competent staff 
that can communicate, we find some real serious problems.
    In the area of chronic and communicable diseases, in that 
specific area, the area of diabetes hits Hispanics 
disproportionately. In the last decade, diabetes increased by 
33 percent, and it continues to be a major problem in the 
Hispanic community. And according to the CDC, 10.2 percentof 
all Hispanics have diabetes, and so in that specific area we ask you to 
continue to put an emphasis on that. We ask that an increased funding 
level of 100 million for Hispanic-focused diabetes prevention and 
treatment programs be looked at and considered.
    On the HIV and AIDS project, the Caucus supports the full 
funding of $540 million for the Minority AIDS Initiative to 
promote capacity building for minority community-based 
organizations. One of the difficulties we encounter is that we 
don't in our community, the Hispanic community, we don't have 
the CBOs, the community-based organizations, and there is a 
real need for us to outreach to those populations. While the 
Hispanics are 12.5 percent of the population, the AIDS numbers 
now, 19 percent of them are the ones that are catching HIV/
AIDS, is Hispanic. So the numbers are increasing 
disproportionately to our population.
    I had mentioned to you earlier the area of mental health 
and substance abuse. That is an area where the culturally 
competent situation is real critical, real important, and in 
the area of substance abuse and mental health, we are not 
providing enough resources in that specific area. And there is 
a direct correlation. A lot of people when they are mentally 
ill go directly and sometimes try to medicate themselves, and 
so a lot of our substance abusers have mental health problems. 
And so I ask that you seriously look at that area that we all 
have a tendency to forget and neglect.
    From the health professional programs, the Hispanic 
medically underserved population, show that we have 5 percent 
of the total physicians and less than 2 percent of the 
registered nurses. And because of that, we ask support for a 
funding level of $40 million for the HRSA Health Careers 
Opportunity program and $40 million for the HRSA Centers of 
Excellence program. These programs allow for training, as you 
well know, the difficulty we have now with--the need not only 
in nursing but in every health profession. There is a real 
disparity there. There is a need for a larger number of people 
out there in the field, and in all honesty, we used to bring 
them in with H1B visas, large numbers of people. Now because of 
9-11, we really need to look at training our own and providing 
those resources for them. So I ask for your serious 
consideration in that area.
    In the area of research and data collection, the Caucus 
requests a $225 million funding level for the Center for 
Minority Health and $5 million earmarked for the National 
Hispanic Health Foundation. And, finally, the Caucus supports a 
funding level of $325,000 for the National Hispanic Leadership 
Fellowship program. And this is a specific fellowship program 
that we think very highly of, and as a caucus have decided to 
support. And I know we have given you written testimony on 
these areas, a little more extensive and once again----
    Mr. Regula. Yes. Your statement will be in the record.
    Is this a new program, this last one you mentioned?
    Mr. Rodriguez. This last one, my understanding is it 
started last year, although I might have to get a correction on 
that, because I know it is a program that we have been working 
on, and it is called the National Hispanic Leadership 
Fellowship program, and I would ask my staff real quickly--is 
it a new program?
    Ms. Marquez. Actually it was established last year, but it 
hasn't----
    Mr. Rodriguez. It hasn't been funded.
    Mr. Regula. It is authorized but not funded?
    Mr. Rodriguez. Yeah. So we ask you for $325,000, and this 
is one of the first--it would be a fellowship program that 
would call for 60 mid-career Hispanic physicians. On the 
border, most of our people--and we always complain about 
Mexicans coming over, but in all honesty, it is a brain drain 
to Mexico because we bring--half of the physicians that are 
Hispanic in San Antonio got their education in Mexico. And so 
there is a real need for us to educate our own.
    Mr. Regula. Is that a new program or is it----
    Ms. Marquez. It is a new program, but we have support at 
the Office of Minority Health.
    Mr. Rodriguez. And let me just stress one other thing just 
across the board, and this is known data, but my understanding 
is--and it goes back to the early 1990s--that we were producing 
12- to 13,000 doctors per year and bringing in 3- to 5,000 from 
abroad. And in this country we really need to beef up in that 
area, and we are really lacking, and we are bringing--and now 
that we have to be extra cautious as to who comes into this 
country, so I want to thank you once again.
    Mr. Regula. Thank you, and your full statement will be in 
the record.
    [The prepared statement of Congressman Rodriguez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mr. Underwood.
    Mr. Underwood. Good morning, Mr. Chairman, and thank you 
for the opportunity to testify before your appropriations 
subcommittee. I am here to speak to you about the Congressional 
Asian Pacific American Caucus's concern regarding the health 
care of our minority communities. Several weeks ago, I had the 
opportunity to participate in a hearing chaired by 
Congresswoman Christensen on the status and progress of the 
U.S. Department of Health and Human Services initiatives to 
eliminate racial and ethnic disparities in health. The National 
Institutes of Health, National Center for Minority Health and 
Health Disparities, Institute of Medicine, Office of Minority 
Health, the HIV/AIDS Bureau, they all confirm that racial and 
ethnic minorities continue to experience a lower quality of 
health care. And for 20 years, study upon study have supported 
these facts.
    And I think as members of minority caucuses, we are here to 
help continue to cement the case and ask for some consideration 
of that. We have, as outlined by the previous speaker, we have 
in place many of the mechanisms and programs which prove that 
health disparities exist, and offer solutions to bridge the 
gaps in our health system. With this knowledge, I urge that we 
press forward and adequately fund many of these programs.
    But before I mention some specific programs, I would just 
like the opportunity to address some of the barriers in health 
care that are experienced by the communities represented in the 
Asian Pacific American Caucus. Lack of good data has always 
been an issue with APIAs, particularly for Native Hawaiians and 
other Pacific Islanders, which are not disaggregated from that 
data. Our communities that are represented under the Asian 
Pacific American community are very diverse and come from a 
wide range of backgrounds. We share in common having the Asian 
and Pacific Ocean as our homeland, but certainly the diversity 
is great.
    Language access is a barrier for many APIAs. The majority 
of APIAs face greater difficulties in communicating with health 
providers because of language barriers and cultural 
competencies. The high cost of health care is a barrier to 
receiving medical services. APIAs, particularly those of lower 
levels of education and higher rates of poverty and those 
ineligible for Medicaid, find it especially difficult to secure 
insurance.
    In particular, I want to draw attention to an issue that I 
know you are familiar with, particularly in terms of Interior 
appropriations, and that is the territories continue to remain 
ineligible for--or their Medicaid services are capped, and as a 
consequence, they don't receive equitable access to health 
care, and then the local governments are very financially 
strapped.
    In addition to these tremendous challenges in the health 
conditions that are particularly problematic for APIA 
subpopulations, studies also reveal that our communities 
experience dramatic disparities in their health care and health 
outcomes. Diabetes is a growing concern among Asian Americans 
and Pacific Islanders. For the people of Guam, they suffer 
diabetes five times the national average, and it is something 
that has just developed over the past couple of generations.
    Mr. Regula. Is obesity a problem or do they go together?
    Mr. Underwood. Obesity and diet are a big part of it but a 
lot of changes have occurred since----
    Mr. Regula. Is CDC working out there, because they are 
focused on----
    Mr. Underwood. They are focused on it, but we are trying to 
get them to focus particularly in Guam and American Samoa, and 
they have been a little resistant on that. Perhaps with a 
little prodding from you, Mr. Chairman, it will go a long way.
    Mr. Regula. I will make a note of that.
    Mr. Underwood. Cancer affects APIAs in varying degrees. For 
example, the prevalence of cervical cancer incidences are five 
times higher for Vietnamese women. Liver cancer amongst 
Vietnamese Americans is 11 times higher. Chinese Americans 
experience the highest incident of nasopharyngeal cancer in the 
region. And, additionally, Native Hawaiians continue to 
experience the second highest mortality due to lung cancer.
    Given all of these things, we certainly hope that the 
Committee will see fit to continue a full funding of the 
National Center of Minority Health and Health Disparities. We 
also hope that the Committee will continue to monitor the 
progress of the National Cancer Institute, and we request $5.69 
billion for fiscal year 2003. The Center for Disease Control 
and Prevention programs provide vital cancer education, 
outreach, prevention and screening efforts. Therefore, we 
request an appropriation of $348 million, and this will go a 
long way towards resolving some of the issues in our 
communities.
    Racial and ethnic approaches to community health, more 
commonly labeled as REACH 2010, are intended to help 
communities mobilize and organize their resources in support of 
effective and sustainable programs which will eliminate health 
disparities amongst racial and ethnic minorities. And we 
certainly support full funding for REACH 2010 of $120 million.
    Minority AIDS Initiative is a comprehensive package of 
programs aimed at reducing HIV/AIDS, and as we did last year, 
we are requesting an appropriation of $540 million for the 
Minority AIDS Initiative.
    And Community Health Centers--and I know in the previous 
discussion, you indicated strong support for that--this is 
something that is very vital in many of our communities, and it 
provides comprehensive primary care to more than 11 million 
children and adults in 3,200 communities across the Nation, and 
particularly help for the uninsured Americans and one of ever 
eight low-income Americans, and for territories where not 
everyone is eligible for Medicaid.
    Mr. Regula. I understand.
    Mr. Underwood. And in closing, I would also ask this 
committee to consider, again, appropriating some resources for 
Americans living in the territories who are living with a 
gaping hole in Medicaid and other safety net resources. Thank 
you for your attention.
    [The prepared statement of Congressman Underwood follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. How are you getting along with the tree snakes 
out there?
    Mr. Underwood. Well, you know, the tree snakes are not 
having problems with their health, as much as we would like. 
So, you know, I would----
    Mr. Regula. They are too healthy, huh?
    Mr. Underwood. They are too healthy. So I hope that we can 
focus on people's health.
    Mr. Regula. By the way, we checked, and the National 
Hispanic Leadership program is at HRSA, so it is an ongoing 
program. It was funded at $325,000 last year, and that is of 
course what your request is, so we are aware of it.
    Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I appreciate the 
opportunity once again to join my colleagues on this very 
important panel. You already have my written testimony. It 
contains the details, specific funding, and language requests 
as well as African American health data. And I also wanted to 
say at the outset that although I will be speaking specifically 
to the issues in African American communities, my remarks 
generally are applicable to all communities of color, and those 
in our rural communities as well.
    And what I am here to try to do today is to leave you and 
the other members of the Committee with one indelible message, 
and that message is that there are gross inequitiesin health 
care which cause hundreds of preventable deaths in the African American 
community every day which tear at families, drain the lifeblood of our 
communities, and breed an escalating cycle of despair which this 
subcommittee and the overall Committee has the power and the 
opportunity to end. The choice of it can be considered that as either 
to write off human beings, our brothers and sisters who make up this 
segment of the population, or to make the requisite investment in 
fixing what is an inadequate, a discriminating--as we have recently 
heard through the IOM report--and a dysfunctional health care system.
    So, yes, there are funding requests outlined in my written 
testimony, and I consider them the bare minimum to ensure that, 
one, our children have the opportunity for good health; two, 
that there are health care professionals who can bridge the 
race, ethnicity, and language gaps to bring wellness within the 
reach of our now sick and dying communities; three, that States 
and communities will receive the help to fill the gaps and 
repair the deficiencies of access and services; and, four, 
which will enable the affected communities themselves to take 
ownership of the problems and the solutions to their increasing 
health care crisis, which is a crisis that not only threatens 
our communities but threatens the health and the security of 
all Americans.
    If we have learned nothing in the last 10 years, we should 
have learned that cost containment strategies in our unequal 
system of care can never bring down health care costs. We can 
only ensure that quality health care will be within the reach 
of future generations if we make a major investment in 
prevention and in increasing access to health care today.
    And so I urge the Committee to give serious and favorable 
consideration to all of our funding requests, those that you 
have heard and those included in my testimony, some of which 
are the same. Some would bring the 2003 budget up to the 2002 
level, while others request increases. Based on recent 
information, I have also slightly revised my written request, 
added in a few other things, some of which are just language, 
and we will submit them to the Committee.
    Because of the time limitations, I would like to focus on 
just a few areas which are contained in my request. One is the 
Office of Civil Rights of the Department of Health and Human 
Services, which was highlighted in the IOM report which 
Congress paid for. They have not been able to fully live up to 
their mandate on the current funding constraints, and to ensure 
that no one is denied necessary health care because of race, 
ethnicity, or language, they have to have the tools to do their 
job. So bringing equity into our health care system demands a 
funding increase for that office.
    Mrs. Christensen. On another issue, as Congressman 
Underwood pointed out, years of Medicaid caps have created a 
crisis in the health care system in the offshore territories of 
the United States. To address and resolve this, we would 
request that a sum of $50 million be made available to the 
Secretary for territorial hospitals and health departments to 
close some of those critical health care gaps and to repair 
infrastructure deficiencies.
    The third issue is the Minority AIDS Initiative, the 
flagstaff of the CBC health care agenda. It is that not only 
because it targets a disease that is devastating our 
communities with disproportionate impact, but also, and more 
importantly, because it can be the seed that changes the 
culture in our neighborhoods from one of illness to one of 
wellness, not just for HIV/AIDS but for all diseases. So we 
also ask for the same figure that we asked for last year, $540 
million.
    But there is another critically important part of our 
request in this Initiative with respect to language. Last year, 
in response to the Department, the Committee diluted the 
language, targeting the dollars to the heavily impacted 
communities of color, and thwarted the original intent of the 
initiative, which was to change the failed programs of the last 
20 years and replace them with community-based initiatives.
    To begin correcting this, we respectfully request that the 
Subcommittee return to the original 1999 language. It is our 
strong and studied opinion that since, despite previous 
attempted interventions, communities of color now make up two-
thirds of new HIV infections and AIDS cases and also because of 
the overwhelming body of evidence most recently outlined in the 
congressionally-commissioned IOM report which demonstrates 
long-term and clear discrimination against these population 
groups, that there presents a clear and compelling government 
interest for this funding to be targeted to these 
disproportionately impacted communities specifically through 
their indigenous organizations. There is a strong body of 
evidence also that community-based strategies are the most 
effective.
    If this recommendation is not accepted by the Committee, we 
ask that we continue to work together to reach a mutually 
agreeable alternative, perhaps similar to the one that I 
included in my written testimony.
    Just a few other requests for language, very briefly:
    One, that in all funding for health care programs attention 
be called to areas where there are high disparities;
    Two, that the high disparity areas also be included under 
the title of medically underserved areas for National Health 
Service Corps and Community Health Center placement;
    Also, that the Secretary be directed that all programs 
funded by the Department collect data by race, ethnicity and 
language, and that the discretion provided to the Secretary to 
fund the Offices of Minority Health within those agencies be 
made a directive, rather than left to the Secretary's 
discretion;
    Within the $2.8 billion increase to NIH, we ask that the 
Director be directed to utilize an appropriate portion of that 
funding for community-based research or for programs that take 
what they find in research and put into practice, because we 
are doing this increase at NIH at the expense of services and 
prevention, and we can perhaps bridge that by directing that 
they do community-based research and that they focus on 
programs that translate research into practice;
    That the Center for Minority and Disparity Research get 
increases, as well, for all of their programs but particularly 
for those that focus on expanding the research infrastructure 
of minority health profession schools who cannot now compete 
with the other schools and, therefore, cannot respond to the 
needs of our communities.
    In summary, I join my colleagues here this morning to call 
on this esteemed and distinguished committee to make a 
commitment to eliminate the disparities that have existed 
forcenturies and are increasing today for African-Americans and to help 
us ensure equality in health care for us and everyone else in this 
country.
    The cost will be significant, but the cost in lives and to 
our economy in the future are risks that we ought not to take, 
we should not take, we must not take.
    Once again, this subcommittee and the larger Committee has 
the power to eliminate the disparities in health care. On 
behalf of the Congressional Black Caucus and personally, thank 
you again for the opportunity to testify.
    Mr. Regula. Let me paraphrase your testimony by using an 
education phrase, only change it to health care: ``leave no 
American behind.''
    Mrs. Christensen. Absolutely. Absolutely. Because we have 
been behind for too long, and when we think that hundreds of 
people are dying every day just from preventable causes because 
they just cannot get the kind of health care they need or they 
get there and the language barriers do not provide for adequate 
communication between the provider and the patient, that is 
unacceptable in a country that has the resources to do better.
    Mr. Regula. I can understand your feeling.
    [The prepared statement of Congresswoman Christensen 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mr. Kucinich.
    Mr. Kucinich. I thank my good friend and fellow Ohioan for 
giving me the opportunity to come to speak in front of your 
subcommittee.
    I am testifying today on behalf of the Progressive Caucus 
to ask for the Subcommittee's leadership on an important goal: 
helping Americans access basic health care services. Nearly 43 
million Americans lack basic health care and lack health 
insurance. Three-fourths of uninsured people live in families 
where at least one person works full time, and 20 percent of 
the uninsured are in families where two people work full time. 
Most uninsured adults say the main reason they don't have 
insurance is because they can't afford the premium.
    I personally believe, Mr. Chairman, that our Nation should 
have universal health care. In the meantime, I believe we need 
to provide strong support for other programs to ensure that 
families can access needed health care.
    Health centers are frequently the only source of health 
care for the uninsured and the underinsured. They provide an 
effective and an efficient means of providing care, with 
medical costs averaging at $1 per patient per day. More than 
3,400 health care delivery sites are located in the country, 
and they provide primary health care services to more than 12 
million people every year.
    However, compared to the number of uninsured families, this 
is far from meeting the need. Considering that an estimated 12 
million Americans lost health insurance just last year, the 
demand is growing for services. In order to help families 
access basic primary health care services, the Progressive 
Caucus asks for a $200 million increase in funding to the 
Consolidated Health Centers Program.
    Mr. Regula. How many do you have in Cleveland?
    Mr. Kucinich. We have about six centers in Cleveland.
    Mr. Regula. Do they get some Federal funding via----
    Mr. Kucinich. Yes, they do.
    Mr. Regula. All of them?
    Mr. Kucinich. Yes, each one gets some funds.
    Mr. Regula. They certainly relieve the emergency rooms in 
the hospital.
    Mr. Kucinich. Absolutely, Mr. Chairman. Our emergency rooms 
are already overloaded. Any emergency room you go into, it is a 
long way. They are understaffed, they are overutilized. These 
health centers provide a valuable means of protecting the rest 
of the health infrastructure from overload.
    Mr. Regula. Does the city contribute to these?
    Mr. Kucinich. They do. In some cases, the city will 
contribute a building, paying the lease costs on it. They may 
contribute funds for personnel, for security. You know, the 
city does involve itself in helping to maintain the centers, 
and they are actually operated under the auspices of the City 
of Cleveland.
    Mr. Regula. Do they get some volunteers, professionals, 
retired doctors, nurses, that type of thing?
    Mr. Kucinich. Not that much. They really rely more on paid 
staff. While there are professionals who do give help, and I 
think the State of Ohio has provided some samaritan legal 
liability coverage----
    Mr. Regula. Liability freedom.
    Mr. Kucinich. I was in the Senate when we addressed that, 
but it really does not go anywhere to addressing the urgent 
needs of people who live in the inner city for health care. 
Really, when we look at it, these centers provide health care 
maintenance. Because if people do not have the centers, then 
they are always going to be in the emergency rooms, because the 
emergency room ends up being the next choice.
    Mr. Regula. That is correct.
    Mr. Kucinich. So there are about 2 million Americans, as I 
mentioned, who lost health insurance last year, so we are going 
to end up with greater and greater pressure.
    These community access programs have served a variety of 
projects to improve access for all levels of health care; and 
they help to fill the gaps, as you mentioned, in this 
healthcare safety net by having an infrastructure and improving it.
    So we are encouraging the Committee to fund the cap at as 
much as $250 million and this is the amount that the Institute 
of Medicine has recommended.
    We are also asking the support of the Committee for 
extending Transitional Medicaid Assistance. TMA provides health 
care for up to 12 months to former Medicaid health care 
recipients who are entering the workforce. This is significant 
because they enter the workforce and their income goes up and 
it makes them ineligible for Medicaid and their earnings are 
not enough to afford employer-sponsored coverage, so they are 
kind of caught.
    Mr. Regula. It is a catch-22.
    Mr. Kucinich. Exactly. So in families experiencing a no-win 
system, having a way to access health care is a critical work 
support.
    Mr. Regula. I think we should maintain that coverage for at 
least a substantial period of time while they transition to 
work.
    Mr. Kucinich. If you could do that, Mr. Chairman, that 
would be most appreciated.
    Just to conclude, we are also here to support increased 
funding for addressing the AIDS crisis. The Minority AIDS 
Initiative is a critical component of our Nation's response to 
the HIV/AIDS epidemic, and an appropriation of $540 million for 
this initiative would enable organizations and providers in 
minority communities to address life-threatening and unmet 
health needs by strengthening and expanding HIV/AIDS 
prevention. We are urging $540 million for the Minority AIDS 
Initiative.
    I want to say that your committee and you, Mr. Chairman, 
have been a leader in funding initiatives to make health 
advancements accessible to all Americans. I appreciate very 
much whatever consideration you might provide for the people of 
this country.
    Mr. Regula. We are sensitive to that. Of course, we are 
very much involved in the research and prevention. I would like 
to see more done in prevention. We always work toward the cure, 
but if you can prevent it, that is a more efficient way.
    Mr. Kucinich. I am in full agreement, Mr. Chairman. As a 
matter of fact, I think that, as medicine advances, more and 
more people are looking for something else, so our support of 
allopathic medicine and holistic medical practitioners--they 
are becoming more and more sought after, in line with trying to 
prevent the consequences of unfortunate health consequences.
    Mr. Regula. Thank you for coming.
    Mr. Kucinich. Thank you.
    When it is appropriate, Mr. Chairman, I have been asked by 
the Caucus to testify on behalf of the Progressive Caucus about 
education funding, whenever that is appropriate.
    Mr. Regula. You can just stay right there. That is our next 
panel.
    Your statement on this will be in the record.
    [The prepared statement of Congressman Kucinich follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, May 16, 2002.

                            EDUCATION PANEL


                               WITNESSES

HON. DENNIS KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO, CONGRESSIONAL PROGRESSIVE CAUCUS
HON. MAJOR OWENS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK, CONGRESSIONAL BLACK CAUCUS
HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS, CONGRESSIONAL HISPANIC CAUCUS
HON. MICHAEL HONDA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA, CONGRESSIONAL ASIAN PACIFIC CAUCUS
    Mr. Regula. We have on the education panel Mr. Kucinich, 
Mr. Owens is here, Mr. Hinojosa, and Mr. Honda.
    As I understand, you have another time problem, sir.
    Mr. Honda. I have a markup to go to.
    Mr. Regula. We will lead off with your testimony.
    Mr. Honda. Thank you, Mr. Chairman. I appreciate your 
thoughtful and considerate hearing on these matters.
    Before I begin, may I ask that my prepared written 
statement be included in the record?
    Mr. Regula. Without objection, it will be included in the 
record and read by the staff.
    Mr. Honda. I'm sure they will be. I have been watching 
them, and they are very attentive. And it is true. That is my 
observation.
    As Vice-Chair of the Asian and Pacific Islander American 
Caucus, Mr. Chairman, I am here to share with you our concerns 
regarding education as it applies to our communities.
    In order to effectively address the serious educational 
needs of the Asian and Pacific Islander American communities, 
we in Congress must educate ourselves as to the realities that 
these communities face. The current educational support system 
fails to meet many of the substantial needs of the APIA 
communities.
    One of the misperceptions is that our population 
appearsthat we do not require educational support. One of the reasons 
that occurs is that there is a failure to disaggregate the statistics 
concerning the performance of APIA students.
    General misconceptions about Asian and Pacific Islander 
Americans ignore the diversity that exists within the 
community. Misrepresentations can have serious consequences for 
APIAs. For example, they are often excluded as an 
underrepresented minority in higher education or not recognized 
as a group encompassing many subpopulations that each have 
specific needs.
    I have heard you have had a dialogue with other Members 
just prior to this committee. I am certain that you understand 
that the APIA population needs to be disaggregated in order to 
be considered properly. Groups such as Pacific Islanders and 
East Asian Americans have not achieved the level of academic 
success as other groups within the Asian Pacific Islander 
community have.
    The lack of good data has always been an issue with APIAs. 
The practice of aggregating data for this large and diverse 
population, which was historically classified as ``other'', has 
made it an enormous challenge to discern the unique problems 
faced by the APIA populations.
    Even when considered as an undifferentiated groups, APIAs 
tend to achieve less educational success than commonly assumed. 
In 1999, the U.S. Census Bureau reported that APIAs were more 
likely than non Hispanic Caucasians to have less than a ninth 
grade education.
    APIAs are unique among American racial minority groups in 
several aspects. Notably, they have neither a college fund nor 
a Federal mechanism for channelling higher educational 
resources to them. Consequently, they lack important 
institutions that could focus policy efforts on educational 
research and reform and, at the same time, direct resources to 
worthy low-income students. That is why it is essential that 
you make an extra effort to examine the needs of this 
overlooked population.
    One of the most critical educational needs of the APIA 
communities is second language acquisition. The White House 
Initiative on Asian Americans and Pacific Islanders identified 
linguistic access as one of the keys to improving the quality 
of life of APIAs. The Commission asserts that support for both 
ESL and bilingual education and training programs are needed.
    Title III of the No Child Left Behind Act changes the 
structure of Federal bilingual education funding from a 
competitive grant to a proportionate formula to the States 
based on the number of limited-English-proficient students, 
presenting an opportunity to help Southeast Asian communities. 
However, the $650 million appropriation level would cause 
funding to be spread too thinly among the States.
    I would urge, Mr. Chairman, that appropriations for this 
important program be increased to $1.2 billion. This amount 
will ensure that all school districts will have enough funds to 
provide bilingual education for the limited-English-proficient 
students.
    The No Child Left Behind Act also establishes Local Family 
Information Centers, which provide parent information and 
training through Community-Based Organizations to parents of 
Title I students. Through the CBOs and the Parent Information 
Resource Centers, families are provided with important 
information on who to contact with their concerns, ways they 
can assist their schools, and what resources their school 
districts have.
    Southeast Asian parents, for example, often find it 
difficult to guide their children through the American 
educational process, partly because many of them do not 
understand that process and are not able to communicate with 
teachers because of cultural and language barriers. Local 
Family Information Centers would be valuable tools in involving 
these families in the schools.
    Currently, there is only enough funding for one Center per 
State. These Local Family Information Centers would be both 
culturally and linguistically appropriate. Increasing 
appropriations for these centers to $100 million from $60 
million would lead to a significant improvement in the 
effectiveness of this initiative. I would urge the Committee to 
do so.
    At the same time, higher education needs must not be 
neglected. I urge that TRIO and Pell Grant programs be 
appropriated full funding.
    One other major programming that impacts APIAs 
substantially is the Native Hawaiian Education Act. In fiscal 
year 2002, it was funded at $30.5 million. For fiscal year 
2003, the budget proposal would only fund it at $18.3 million. 
I would urge a restoration of funding for this important 
program to the fiscal year 2002 funding levels.
    As APIAs are the fastest-growing population in the United 
States, it is incumbent upon us at the Federal level to 
recognize the needs of our communities and take action to 
address them.
    Once again, Mr. Chairman, I appreciate your attention and 
your dialogue that I have observed here in this committee.
    Mr. Regula. Does the State of California--is it 
participating in these programs? We are doing some at the 
Federal level, but is the State involved?
    Mr. Honda. The State of California is involved at a very 
good level. Having been in the California State Assembly for 4 
years and on the educational committee----
    Mr. Regula. You made sure it happened?
    Mr. Honda. We had many partners that helped together on 
both sides of the aisle that understood and recognized the 
problems. Having the partners at the Federal level greatly 
enhanced the programs and helped these youngsters. Especially, 
again, as we said, when we disaggregate the population, we see 
that they are very, very unique and have specific and deep 
needs for these populations.
    Mr. Regula. Thank you for coming.
    Mr. Honda. Thank you, Mr. Chairman.
    [The prepared statement of Congressman Honda follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to say thank 
you for allowing me to come before the Subcommittee to discuss 
the educational needs of Hispanic children, as well as to 
express the position of the Congressional Hispanic Caucus.
    You have before you my written testimony, and I do not 
intend to take the time to read through it.
    Mr. Regula. It will be made part of the record.
    Mr. Hinojosa. I appreciate that, Mr. Chairman.
    Hispanic children will represent 25 percent of the total 
student population by the year 2030.
    Mr. Regula. Nationally?
    Mr. Hinojosa. Nationally, yes. The growth in my area, for 
example, in the 15th Congressional District, the elementary 
children K through 12 grew from 92 percent Hispanic to 96 
percent Hispanic in the decade of 1990 to 2000.
    Mr. Regula. Are you on the Mexican border?
    Mr. Hinojosa. Right on the Texas-Mexico border.
    Mr. Regula. You see an influx?
    Mr. Hinojosa. Yes, we do. I can tell you that the children 
born of Mexican immigrant parents or Hispanic parents--the 
group is very large, like myself. I am first-generation 
American, born of Mexican immigrant parents, 11 children, and 
all I can tell you is that, throughout the Southwest, the 
percentage of Hispanic children has grown dramatically. My 
district grew 48 percent from 1990 to 2000.
    Mr. Regula. Are most of those born here or do they get here 
through migration?
    Mr. Hinojosa. The largest majority are born here.
    Mr. Regula. What kind of system does Mexico have in 
education? Do they have----
    Mr. Hinojosa. They have public schools. They have two 
groups, one that goes in the morning and another one that goes 
in the afternoon, because they do not have enough classroom 
facilities. So they are doing the best they can, but, of 
course, it is a country with low means and not enough financial 
resources.
    Mr. Regula. Would you consider your school district poor or 
moderate? I am talking about the tax base.
    Mr. Hinojosa. The area that I represent has three school 
districts that are considered to be in the lowest 10 school 
districts in the State of Texas. There are 1,050 school 
districts, and I have several that are in the lowest 10, 
poorest taxable wealth per child. So, yes, there is a lot of 
poverty. We are getting better because we are moving from 
agriculture jobs to non-farm jobs, and we are seeing a 
tremendous improvement in the Federal investment in public 
schools and community colleges and universities in south Texas 
in the last 5 years.
    Mr. Regula. Does the Hispanic community produce teachers? 
Are the young people going into education there in the 
classrooms?
    Mr. Hinojosa. Yes, we do. The University of Texas Pan 
American has the largest number of Hispanic education 
graduates, education majors, in the State of Texas.
    Mr. Regula. It seems to me they could be role models.
    Mr. Hinojosa. Absolutely. What we need is to continue the 
Pell Grants. We need to have additional student financial aid 
because--take the South Texas Community College in my district, 
with 13,000 students. Ninety-two percent are on financial 
assistance. If it were not for those loans, they could not go 
to community college.
    In the University of Texas Pan American, 80 percent are on 
student financial assistance, so all of that is part of my 
testimony that it is something that is greatly needed and 
supported by the Congressional Hispanic Caucus.
    Also, I would like to say that specifically programs like 
Title I are of great help to us throughout the country for many 
of the Hispanic children. Bilingual education is one that we 
are very strongly supporting, both the bilingual and the dual 
language program, and we are suggesting a funding level of $1.2 
billion for Title III of ESEA to serve over 4 million students.
    Adult education is another one that is extremely important, 
because we have so many adults who want to be able to master 
English enough to get their citizenship. Specifically, we are 
requesting $250 million for adult English as a second language.
    Migrant education is another one that is very, very 
important. We have about 4 million students of farm workers and 
family members who travel throughout the country and do farm 
work annually, and there are 17,000 schools, largely in rural 
areas, in all 50 States that have migrant students. We are 
asking that you give funding--a funding level of $27 million 
for the High School Equivalency Program and $23 million for the 
College Assistance Migrant Program.
    The other programs that have been considered by the 
Congressional Hispanic Caucus to be very helpful and exemplary 
are the Dropout Prevention Program, the TRIO program, and the 
GEAR-UP program. Those are helping us reduce the dropout rate 
of 30 percent among Latino students, as compared to only 10 
percent for non-Hispanic white students.
    We are requesting through the Caucus $1 billion for the 
TRIO program, and we are requesting $425 million for the GEAR-
UP program.
    The HSIs is another group that you have been very 
supportive of helping because they do a good job of recruitment 
and retention and helping students graduate. We are asking and 
requesting $125 million for the Title V developing institutions 
program known as the HSIs.
    Finally, I want to reemphasize the importance of the Pell 
Grants, because that is how so many of our students----
    Mr. Regula. As you know, we jacked those up quite a bit.
    Mr. Hinojosa. They have gone up in the last 5 years, but I 
am just concerned at what I see in the proposed budget for 
2003, where the cuts of almost $1 billion have such a big 
impact on regions like mine.
    Mr. Regula. On Pell, you mean?
    Mr. Hinojosa. Yes.
    Mr. Regula. I think we will maintain Pell at its present 
level.
    Mr. Hinojosa. All I can tell you is that we were so 
neglected that it is going to take quite an investment over the 
next 5 years to catch up. I am here to speak up and be a loud 
voice and to work with friends like Major Owens and others to 
really focus and be loud in saying that there has been neglect 
to the minorities and this is something that we just cannot 
allow to happen.
    Mr. Regula. I can understand that. Well, we appreciate your 
comments.
    Mr. Hinojosa. I appreciate very much the opportunity to 
have this chat with you.
    Mr. Regula. Is the State in Texas doing their share?
    Mr. Hinojosa. Not enough. In my opinion, they need to up 
the ante. The growth of the State of Texas was so much that we 
have two new Congressmen, and they simply need to increase the 
amount that they budget for education.
    Mr. Regula. Thank you.
    [The prepared statement of Congressman Hinojosa follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Congressman Owens.
    Mr. Owens. Mr. Chairman, I would like to make a few brief 
statements to reinforce my written submission.
    As you know, the Congressional Black Caucus has 
consistently not hesitated to call for large increases in the 
education budget, not merely for the African American community 
but for education overall. We think the Nation suffers greatly 
from the misguided philosophy that education is not a Federal 
responsibility and that the Federal Government should assume 
much more responsibility than it has traditionally.
    Right now I guess we are up to about between 7 and 8 
percent of the total education expenditure for the whole 
country is Federal. We could go from 7 or 8 percent to 25 
percent easily without jeopardizing control of education at the 
State and local level, which is what most people said they fear 
if education is financed by the Federal Government. We need 
more Federal funding and Federal involvement at this pivotal 
point in the Nation's history.
    Of course, I must congratulate this subcommittee and the 
Committee, because in the past 7 years you have done a great 
job in moving beyond the requests of the Administrations and 
sometimes the request of our own Committee on the Budget. In 
the past 7 years, education increases have averaged 13 percent 
and reached as high as 18 percent in 2001. That was done mostly 
at this committee level. We applaud your wisdom and hope you 
will continue to show that kind of wisdom and boldness.
    However, this administration, despite the September 11 
warning, has offered only a 3.7 percent increase. The 
Congressional Black Caucus is already on record warning that 
H.R. 1, the No Child Left Behind Presidential initiative, is 
only a small and inadequate beginning. However, even in H.R. 1, 
the increases proposed are greater than the increase actually 
proposed in the President's budget.
    The President's proposal in H.R. 1, I would emphasize, this 
goes far beyond the Congressional Black Caucus, it is for 
everybody--H.R. 1 proposes to increase Title I over a 5-year 
period, to double the amount over a 5-year period, and we are 
only asking that this budget this year take the first 
increment, one-fifth. What the President has proposed is not 
one-fifth in 5 years if we are going to reach the goal of 
doubling Title I in 5 years.
    H.R. 1 also recognizes the fact that the programs for 
special education need special attention. That has been put off 
in terms of additional funding at a level which we really 
deserve for another year's consideration.
    However, to fund special education, greatly increase the 
funding there, we are proposing $11 billion, which would do a 
great deal for all education, local education agencies across 
the country, because it would free up money that is presently 
being spent for special education.
    The Federal Government took on the responsibility years ago 
of pledging or authorizing up to 40 percent of the cost of 
special education. We are somewhere around 10 percent or 11 
percent now. An increase there would give relief to very hard-
pressed local education agencies and States at this point.
    On the issue of school construction, which the Federal 
Government or the Administration--this administration and the 
previous one, I must say--insists that the Federal Government 
has no role in, schools are still suffering greatly. There is 
no hope that States and local governments are ever going to be 
able to catch up and really create the kind of schools that we 
need.
    Just to modernize the schools is one issue. The other is to 
keep up on the enrollment. The galloping enrollment leaves a 
lot of children with no place left to sit. Rather than no child 
left behind, we have some children in large city systems that 
have no place to sit. Construction must be taken on.
    We finally got, with the help of this committee, $1.2 
billion into the last budget of the Clinton administration, and 
that was spent. Eager applications came in, it was a very 
popular program, but the present administration has chosen not 
to put a penny in for school construction for the public 
schools. However, there is an amount, I think $125 million or 
$175 million, for charter schools. If construction is important 
for charter schools, then certainly it is important for schools 
across the board.
    In addition to those considerations, I would like to point 
out the fact that there is a misguided notion that small is 
bad, and a lot of small programs have been cut just because 
they are small.
    The Community Technology Centers Program, a program of less 
than $300 million, is a very good program which meets a need in 
the direction of closing the digital divide in communities 
where people do not own computers and for a long time will not 
have the incomes or the inclination, because of the competing--
with the small incomes, you do not go out and buy computers. 
Only after you have the utilization of computers demonstrated 
do you understand how important they might be for your child.
    Those small community technology programs have been zeroed 
out. We have zeroed out some other programs related to 
technology, and there is a large complaint out there. The 
public understands how important those programs are. We have a 
great groundswell to try to get those programs back. It would 
take relatively small amounts of money to do what probably 
will, once it takes hold, will be taken over byprivate 
industry. I can see community technology being funded 5 years from now 
by private sources which have come to understand the importance of it.
    There are little programs like We the People Civic 
Education, costing almost no money, has been zeroed out, at a 
time when we are very concerned about the preoccupation of our 
terrorist enemies with nationalistic and ideological education. 
They are educating their children not only to read and write 
and to learn how to shoot guns but also with a philosophy of 
life.
    Mr. Regula. We have to look at all these priorities when we 
put the bill together.
    Mr. Owens. These are small amounts of money. Small has been 
understood to be bad.
    Mr. Regula. A lot of small ones add up to a big one.
    Mr. Owens. They don't really add up to much. I think the 
basic hypothesis to begin with was "small is bad," and there is 
no logic there.
    Mr. Regula. Small is good when it is money we have to put 
in. It is easier to get more programs.
    Mr. Owens. Take a look at the target for the smallness and 
understand where we are. In the whole battle against terrorism, 
education is our primary weapon against terrorism across the 
board--
    Mr. Regula. I agree with that.
    Mr. Owens [continuing]. Including at one very practical 
level: More of our soldiers have been killed in Afghanistan 
through human error and friendly fire than have been killed by 
the enemy, which means that our own high-tech weapons systems 
could use some better-trained personnel. We need a larger pool 
of people to draw from for that purpose.
    So we consider education in a state of emergency in 
America. If we are not recognizing that, we are at a pivotal 
point where what we do with our education system will determine 
where the Nation is going. All of our advantages in other areas 
could be swept away if we do not have people who are really 
educated to run the system and make good decisions.
    Mr. Regula. You are absolutely right.
    Mr. Owens. Thank you.
    Mr. Regula. Thank you.
    [The prepared statement of Congressman Owens follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mr. Kucinich.
    Mr. Kucinich. Thanks again to the Chairman for his 
indulgence. If I might submit my testimony for the record.
    Mr. Regula. Without objection, it will be included.
    Mr. Kucinich. I thank the Chair.
    I will just say that I am here on behalf of the Progressive 
Congressional Caucus, testifying about education funding for 
fiscal year 2003.
    Earlier this year, the No Child Left Behind Act was signed 
into law. Congress made the commitment to improving educational 
opportunities for all students, so I am asking the Committee to 
increase funding for early childhood education programs, 
including Head Start. Our Caucus is requesting a $1 billion 
increase in funding for Head Start to remove children from 
waiting lists and to help prepare them to meet the challenges 
of school.
    We are asking the Committee to provide necessary resources 
for school construction and modernization. We are asking the 
Committee to raise its level of funding support for Title I to 
$16 billion, the amount authorized in the No Child Left Behind 
Act, which is crucial in improving the quality of education for 
students in high poverty schools.
    Additional funding is needed for the Individuals With 
Disabilities Act in order to ensure that all students, 
including students with a disability, receive a quality 
education.
    We also must provide substantial increases to ensure a 
highly qualified teacher in every classroom.
    Additionally, the Progressive Caucus strongly supports 
increasing funds to assist low-income students in their efforts 
to achieve a higher education. As the Chair, of course, knows, 
the cost of college tuition is rising faster than inflation.
    In closing, our Caucus is asking the Committee to provide 
the necessary resources so that children are not left behind 
but, rather, have access to quality education regardless of 
their income level, from early childhood education through 
higher education.
    I thank the Chair.
    Mr. Regula. There is not any question that these are good 
programs and we would like to put more in them, but we have a 
limited amount of resources. That competes with medical 
research, job training, all of those things. There are so many 
good things competing for the available dollars.
    Mr. Kucinich. I know the Chair has great sensitivity to 
these things and looks kindly on anything that can lift up the 
possibilities of each American.
    I want to say for the record, I would just share with you 
my concerns that I have serious reservations about the policies 
of a nation that on one hand can find a way to increase defense 
spending $50 billion but somehow cannot find a way to help 
improve Head Start and give the poor a chance to pull 
themselves up by their bootstraps.
    Thank you, Mr. Chairman.
    Mr. Regula. Well, I am pushing for as much of an allocation 
as we can get.
    Mr. Kucinich. I know that.
    Mr. Regula. We have to compete with the other subcommittees 
for resources.
    Mr. Kucinich. I am so grateful that you are there to 
advocate on our behalf.
    Thank you, Mr. Chairman.
    Mr. Regula. We are working at it.
    [The prepared statement of Congressman Kucinich follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, May 16, 2002.

                CONGRESSIONAL CAUCUS FOR WOMEN'S ISSUES


                               WITNESSES

HON. JUDY BIGGERT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
HON. CONNIE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
HON. KAREN THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. HEATHER WILSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    MEXICO
HON. MARCY KAPTUR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. Mr. Meeks, he is not here yet. I think we will 
do the panel. Most of you are here.
    This is the Congressional Caucus for Women's Issues. I will 
go down the list as I have them in front of me.
    Judy, you are number one.
    Mrs. Biggert. Thank you. Good morning, Chairman Regula.
    As the Republican co-chair of the Congressional Caucus for 
Women's Issues, I want to thank you for allowing the members of 
our Caucus to testify before you today.
    Each year your subcommittee has provided the Caucus an 
opportunity to come together as a bipartisan group to discuss 
issues affecting women and children across our great Nation. We 
look forward to working with you throughout this year's 
appropriation process.
    Today I want to focus on two critical issues that I have 
focused on for many years, homeless education and women's 
health.
    First I would like to express my support for the McKinney 
Education for Homeless Children and Youth Program, and I 
respectfully request that the subcommittee appropriate $70 
million for this program in fiscal year 2003. This is the 
amount that was authorized in the No Child Left Behind Act, and 
full funding would significantly help the most at-risk children 
and families in America.
    There are an estimated 1 million homeless children in our 
Nation. Being without a home should not mean being without an 
education. Studies show that homeless children have four times 
the rate of delayed development, are twice as likely to repeat 
a grade, and are more susceptible to being homeless as adults.
    The McKinney program is really the only Federal education 
program targeted to homeless children. In fiscal year 2001, 
Congress appropriated $35 million for the program, and last 
year funding was increased to $50 million.
    Mr. Regula. Judy, excuse me for interrupting, but is the 
program working? I assume it goes out through the States.
    Mrs. Biggert. The program is actually in No Child Left 
Behind, which was just passed in H.R. 1.
    Mr. Regula. The question I have, we put $50 million in last 
year. Is it getting results?
    Mrs. Biggert. It is getting great results. The problem is 
that there is not enough money for the numbers, for the 1 
million children. It is only able to service about 35 percent.
    Mr. Regula. But those that are getting it----
    Mrs. Biggert. Prior to this bill, it was done through the 
States, with money coming from the Federal Government. The 
problem was that we had to change the program because of the 
red tape, that children were not included in the schools. When 
they would go to the schools, the schools would say, I'm sorry, 
you do not have your records in yet, you don't have all this. 
It was working as long as there was somebody directing it in 
the States, but the States came to us and said, we really need 
this program, too. That is why we put it into Federal 
legislation.
    But I think that the money that was spent with the $35 
million and the $50 million was used to the maximum and was 
working, but it was just not enough.
    Mr. Regula. It was getting results but maybe not enough?
    Mrs. Biggert. Right, and there are too many children being 
left out.
    Mr. Regula. You are requesting $60 million this year?
    Mrs. Biggert. $70 million. That was what was authorized in 
H.R. 1.
    Mr. Regula. One of the problems with H.R. 1 is it 
authorized a lot of things that we are not going to have the 
money to fund. It is easy to authorize and a little more 
difficult when you have to put up the cash.
    Mrs. Biggert. I can understand the problems that you are 
going to have with this.
    Mr. Regula. We are going to have to make priority choices 
on all these programs. That is why I am interested in as to 
whether or not this is working. Because we sit here and we 
appropriate money and always what crosses my mind is are we 
getting results.
    You are telling me that, from what you know about it, it 
is?
    Mrs. Biggert. We are getting results, but it is a very 
expensive program with providing the transportation, providing 
funds to really advocate for the children and to get them into 
the schools.
    Mr. Regula. Is it administered through the public school 
system?
    Mrs. Biggert. Yes, it is. It is a public school program.
    Mr. Regula. I suppose in the big cities is where the real 
impact is?
    Mrs. Biggert. In the big cities, but even in my area, which 
would be suburban Chicago, which would be thought of as a 
rather affluent area, there are some shelters there that take 
care of these homeless kids. It has been dramatic what they 
have been able to do, the stories of the kids that have 
graduated from high school and have gone on to college and 
actually gotten scholarships.
    There is a stigma that kids have when they are living in a 
shelter or are living in a car and trying to get education. The 
one thing that really is stable to them is that they have a 
school to go to.
    Mr. Regula. So this program would give them some additional 
assistance to ensure that they participate in theprogram?
    Mrs. Biggert. That is right; and, really, to even find----
    Mr. Regula. To identify them?
    Mrs. Biggert. Part of the bill is an education program, 
outreach, to go out to where these kids are to make sure that 
they are even going to any school at all. They are kind of lost 
in the system.
    Mr. Regula. Do the States apply for this money, or is it 
distributed on a formula?
    Mrs. Biggert. It is distributed on a formula.
    Mr. Regula. Very interesting. Thank you.
    If there is anything you want to add, go ahead.
    Mrs. Biggert. On the subject of education, I would be 
remiss if I did not ask for the Committee to consider the full 
$450 million for the math and science teacher training. This 
has been a top priority and certainly in our Committee on 
Science as well as the Education Committee. Certainly our new 
high-tech economy demands that students have stronger math and 
science skills.
    A number of reported studies really underscore that girls 
fall behind boys in math and science skills, and the gap in the 
upper grades widens, so the No Child Left Behind Act authorizes 
$450 million to help teachers better prepare students for 
careers. This will also help in not having to use all the H-1B 
visas, so we have a workforce that is trained in this country.
    Mr. Regula. I understand.
    Mrs. Biggert. Finally, I would like to take a moment to 
discuss women's health. The bottom line is women do have some 
fundamentally different health needs that must be addressed. 
That is why I am pleased that the President has requested an 
increase in the funding in the Department of Health and Human 
Services to $29.1 million. This funding will make a difference 
in the issues of minority women, violence against women, and 
women with HIV/AIDS.
    So we are pleased that the President's budget conforms with 
the Subcommittee's commitment to double the budget of the 
National Institutes of Health to $27.2 billion next year. We 
hope that this can be accomplished in the fiscal year 2003 
bill.
    It certainly is never easy to pick and choose among 
diseases, and we respect and admire the Subcommittee's efforts 
to fund a broad array of research programs through the National 
Institutes of Health, particularly for women and girls.
    I think the Committee is well aware of the immense needs in 
disease research, so we encourage you to carefully consider the 
most promising research being done on several diseases which 
primarily affect women and girls and that you work to provide 
the maximum funding possible. These include breast cancer, 
cervical cancer, ovarian cancer, Rett syndrome, and 
osteoporosis.
    I think you have heard moving testimony over the last few 
weeks describing the need for more funding research for heart 
disease, diabetes, epilepsy, muscular dystrophy, and other 
neuromuscular disorders and other cancers. We would ask if you 
would fund at the maximum level for that. The word I know that 
you hear over and over again is ``more,'' so, again, I simply 
add my voice to that chorus and ask that you provide more 
funding in appropriation for these.
    Mr. Regula. I would point out that in women's health we 
have gone from $2 billion to $4 billion over the 5-year period, 
so it is about a 100 percent increase.
    Mrs. Biggert. That is great.
    Mr. Regula. I think the NIH is sensitive to this. I think 
Director Healey was particularly instrumental in pushing 
women's health issues while she was at the NIH; and we heard, 
of course, from Julia Roberts the other day on Rett syndrome.
    Mrs. Biggert. Yes, and she came to the Women's Caucus after 
that and brought the families there, and I actually had a 
family from my district. It was a very moving afternoon.
    Mr. Regula. That is one I had not heard of. I have learned 
about a lot of health issues over the last couple of years. The 
NIH says there are 6,000 diseases that they have identified, 
and not many of them have missed us, I do not believe. It is 
amazing what is out there, and it is a big challenge for them, 
because they have to make priority choices at NIH. We allocate 
this year--it will be about $27 billion, and then they choose 
where to put the emphasis and what research to fund.
    Mrs. Biggert. And I think that is the proper way to do it.
    Mr. Regula. We cannot start earmarking on this committee or 
in the Congress. It would be impossible.
    Mrs. Biggert. What we need to do is keep that level up as 
much as we can. So I know that you have to make tough choices, 
and lives will literally hang in the balance for those choices 
that you make. So thank you for the opportunity to testify.
    Mr. Regula. Thank you.
    [The prepared statement of Congresswoman Biggert follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Ms. McDonald.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman. As 
always, thank you for allowing the Women's Caucus to come 
before you this morning. We would like to thank you for your 
support and your sensitivity.
    Certainly this year we have as our theme the wellness of 
women, and we focus primarily on those types of diseases that 
Judy and I, leading the 62 women of the House, have chosen as 
our theme for this year. While we do concentrate on all of the 
areas that Judy has brought to you, I would like to just draw 
your attention to some that I think are equally as important.
    As why you know, HIV/AIDS has run rampant in the 
communities of color, and I have focused somewhat on mother-to-
child transmission. This has now been taken up by the Women's 
Caucus, and we have met with Secretary of HHS Tommy Thompson, 
who seems to think that if we focus on the mother-to-child 
transmission that will decrease those numbers exponentially in 
that fight against HIV/AIDS.
    So, in doing so, we are asking that you increase the 
funding for HIV/AIDS no less than $5 million, just for the 
mother-to-child transmission, so we can continue to try to 
decrease those numbers. Those are the numbers that even the 
Secretary of HHS has talked about.
    Mr. Regula. We are making great strides on that, I amtold.
    Ms. Millender-McDonald. Absolutely, in that area. So the 
Women's Caucus really wants to continue to work in that area, 
because, if we reduce those numbers, we can then reduce the 
other numbers.
    Secondarily, we recognize that in the minority communities 
the infant mortality is just alarming, 14 deaths per 1,000 in 
the African American community alone versus six per 1,000 in 
non-African American communities.
    Mr. Regula. What do you attribute that to?
    Ms. Millender-McDonald. Prenatal care. Mothers are not 
getting prenatal care. They do not even have health insurance, 
so if we can provide some of those clinics and some of those 
health facilities with the funding that is necessary----
    Mr. Regula. Do the community clinics fill somewhat of a 
role in prenatal care?
    Ms. Millender-McDonald. They play a tremendous role.
    Mr. Regula. I am very favorable toward those, because I 
think they relieve the burden on the emergency rooms and they 
open up some measure of health care for low-income people.
    Ms. Millender-McDonald. Absolutely. In addition to that, 
outreach is so critical, so funding that is provided for 
prenatal care helps with the outreach programs, as well, 
because a lot of the women are frightened to death. In my 
district, I have such a large percentage of immigrant women, 
and they are just scared to death of going to any health 
facility, so the outreach is very critical.
    We also recognize that heart disease is the number one 
killer for women. We recognize breast cancer, cervical and 
ovarian cancer are tremendous health problems with women, but 
heart disease is the number one killer, so, for that, we are 
asking that you put no less than $10 million to help us in the 
continuation of trying to do research for the women.
    I have come very conservatively with my numbers, and thank 
you for giving us the amount of money that has been put in for 
women's health initially. But these are some of the illnesses 
that plague women, and women are not still there yet in knowing 
that heart disease is the number one killer. So in spite of 
trying to do an outreach, it is critical that we continue to do 
research to provide the type of leadership for that.
    The Minority Health Department of Public Health has said 
that the disparities in the health care delivery of racial and 
ethnic minorities are real and are associated with the worst 
outcomes. So in speaking back on the minority health that was 
cut by the Administration by $3 million, we are asking for the 
fiscal year 2002 funding level of $50 million. That will be a 
100 percent increase for that.
    These are the critical areas: heart disease, HIV/AIDS, 
prenatal care. Through the type of minority programs with 
Centers for Disease Control as well as the NIH these are very 
critical components that we should recognize.
    The HIV/AIDS mother-to-child transmission, we are asking 
for just $5,000,000 for that.
    So these are the areas that I, in being the co-chair with 
Judy, have come before you to ask that you really give this 
serious thought. Because not only are we 62 Members strong, but 
women are really the majority--are 52 percent heads of 
households, so we really must make the wellness of women real.
    We thank you so much, and in the absence of the ranking 
member, we thank you both for your sensitivity to the Women's 
Caucus and the health issues that we have to fight for.
    Mr. Regula. We pay attention to these things.
    Ms. Millender-McDonald. I know that is right. Thank you.
    [The prepared statement of Congresswoman Millender-McDonald 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mrs. Thurman.
    Mrs. Thurman. Mr. Chairman, thank you.
    I probably am going to repeat some of the things that have 
already been said, but I first want to say to you that we do 
appreciate your time and your staff's time for allowing us to 
participate. I know these can be very long hours and days, but 
just the idea that you are trying to learn and understand and 
be concerned about all the issues facing Americans, we really 
do appreciate the time that you are spending on this. This is 
important.
    I know just last week we had a young man by the name of 
Josh who was up here to talk to you about polycystic kidney 
disease. I just want to let you know that that is a disease 
that affects my family, my husband and my daughter. So I will 
just put in a little plug for the PKD, because it, too, is an 
issue that I am very concerned about.
    I was going to start off by telling you a story about my 
mother, who died last year of cancer of the jaw. During that 
time, she lived with me. She had lived with me for about 10 
years, and there is an issue in this country that I am not sure 
if you can do much about, but I certainly would appreciate any 
help that you can give us. That is certainly in the area of the 
national caregivers and support programs.
    That is the $3,000 that we are trying to work on, but also 
we are trying to also set up a way for independence from our 
children having to be responsible for having to take the bills 
when they are trying to raise their own children and helping 
them and encouraging them to buy long-term insurance, but that 
also gives a deduction.
    I am trying to work on that in the Committee on Ways and 
Means, so you will know I am trying to do my part of it, but I 
want to bring it up.
    Mr. Regula. We do fund caregivers programs to really help 
instruct people how to be good, efficient caregivers.
    Mrs. Thurman. That is why I bring it up, because I want you 
to continue to do that. Because, as women, generally that 
responsibility lies on us to take care and be the caregivers, 
so it is--in fact, most women leave a job so they can stay home 
with somebody. So we appreciate your continued support in that 
area.
    In another area, cervical cancer, just to give you some 
numbers, strikes about 12,800 number women every year. The 
effects, as you probably already know, can be devastating. If 
it is undetected, untreated, it does result in death. In 2000, 
there were 4,600 women that died due to the disease. Recently, 
evidence has shown that as much as one-fourth of all new 
cervical cancer cases occur in women over the age of 65, and 40 
percent of deaths due to cervical cancer occur in women over 
the age of 65.
    So one of the things that we have been working on also 
inthe Committee on Ways and Means and through Medicare is to make sure 
that we allow for pap smears continuing. We would again just bring 
those numbers up to you.
    Breast cancer is the most common form of cancer in women, 
and the second leading cause of cancer death to women. Seventy-
seven percent of breast cancers and 84 percent of deaths occur 
in women over 50.
    Mammograms, we know, are one of the effective ways of 
breast cancer detection. Recently, the National Cancer 
Institute and the American Cancer Society endorsed annual 
mammogram screening for women age 40 and over.
    Another area is osteoporosis, a disease characterized by 
weak, brittle bones. It afflicts around 8 million older women, 
resulting in 1.5 million fractures annually. According to the 
National Osteoporosis Foundation, the direct medical cost 
resulting from osteoporosis totals $14 billion per year. In 
takes up about 3 percent of our Medicare cost.
    We would like to hope that we could get some bone mineral 
density testing and bone mass measurement, which are the only 
accurate ways to diagnose any and all of these that I have 
discussed.
    Mrs. Thurman. In saying all of that, I would say, you know, 
one of the reasons we are here is to help and give you support. 
In your venture to try to get your committee and the Congress 
to understand how important the NIH funding is for this country 
and the----
    Mr. Regula. Well, we are well aware of it, because of this 
committee and prior to my time when we continued to just double 
the budget. This will be the fifth year of doubling the NIH 
budget.
    Mrs. Thurman. And I think it has been marvelous, and we 
certainly are seeing the effects of those monies being used.
    The last thing that I would talk about just for one brief 
second is the shortage of nurses. I have to tell you every day 
you read in your newspapers in Florida, it is not just about 
what is happening today. It is what the future of nursing is 
going to look like as we go into the baby boomers, and I am 
very concerned. So I would hope that you would make available 
$122 million for the Advanced Education Nursing Workforce 
Diversity and the Basic Nursing Education and Practice Grant 
programs.
    Mr. Regula. We are very aware of it. We had some 
interesting testimony maybe a month or so ago from--that 
stresses in the nursing professions is pushing a lot of people 
out. It is just so stressful that they don't stay, and I think 
it is going to be a critical problem, the whole shortage in the 
time ahead.
    Mrs. Thurman. And I would say, too, Mr. Chairman, I think 
the other thing that happens is safety in that workforce and 
the safety issues. I mean, you know, accounts that we are 
finding with hepatitis C in professionals, and it is just--they 
have got families, and they can have--and have other areas 
where they can go to work and still use their profession, and 
very good areas. I mean, that is where we get our home nursing 
care from, but we have just--we need to look at the safety and 
we----
    Mr. Regula. No question, it is a tough issue.
    Mrs. Thurman. Thank you so much for letting us be here, and 
I am going to run off.
    [The prepared statement of Congresswoman Thurman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Wilson. Thank you, Mr. Chairman. I also appreciate 
your willingness to let us talk a little bit this morning and I 
would like to put my written statement in the record, with your 
consent.
    Mr. Regula. Without objection.
    Mrs. Wilson. There were two things that I wanted to 
highlight with respect to health care that I think deserve 
continued emphasis. One is cardiovascular disease, and my 
colleague spoke of it briefly. It is the No. 1 killer of women, 
and yet only 1 in 10 women think that--perceive heart disease 
as their greatest health threat.
    Mr. Regula. Are you speaking in terms of heart or in the 
vascular system?
    Mrs. Wilson. Heart and stroke. If you put the two together, 
I think 512,000 American women die each year from 
cardiovascular disease, either stroke or heart disease.
    Mr. Regula. Is the incidence higher in women than in men?
    Mrs. Wilson. It is interesting--it is interesting you ask 
that. I think it is more unknown and often undiagnosed in 
women, particularly--and this is--women will see the symptoms, 
or have symptoms of heart problems or initial heart attack 
symptoms, and they don't go in to get it treated or cared for 
because they think heart attack only happens to men, and so it 
is that awareness and prevention.
    The CDC has started a program called Wise Woman, and it is 
for screening and evaluation, education about heart disease and 
heart care and its risk factors, and it is focused on low-
income women and uninsured women. And it is working. I think it 
needs to be extended to more States, and the CDC has said with 
$20 million they can expand that program to 20 new States, and 
I think it is something worth looking at.
    The second area I did want to bring to your attention is 
diabetes. Six percent of American adults have diabetes. Of 
Hispanic Americans, it is about 10 percent. Of Indian 
Americans, Native Americans, it is 23 percent. So 23 percent of 
adult American Indians have diabetes. One of the things that 
concerns me is the increase in type 2 diabetes and also the 
reducing age at which children are being diagnosed with type 2 
diabetes, much of which has to do with nutrition and exercise, 
and can be prevented.
    The cost to our health care system of diabetes is one of 
the most expensive diseases, lifelong, that we deal with, 
because of all of the complications that go along with being a 
diabetic, from blindness to amputation, to sores that don't 
heal, and it is a huge cost to our health care system and a 
place where prevention money, I think, can probably make a big 
difference with education and prevention.
    Finally, I did want to mention in the area of education the 
support for the Math and Science Education Partnership Grants, 
which is one of the things that the Administration has put a 
lot of emphasis on and that I strongly support so we can get 
more math and science teachers trained and in the classroom, 
and Reading First and Early Reading First, both of which are 
initiatives authorized under the No Child Left Behind Act. If 
we can get a kid to--as you know, I used to be the Secretary 
for Child Welfare in New Mexico, and we would look at what are 
the real indicators that a kid is going to be in trouble with 
the law when they are a teenager, and there are all kinds of 
things, drug abuse, family problems, parents with drug or 
alcohol problems, parents who are imprisoned, all kinds of 
different social factors, and we would look at all of them. But 
the No. 1--the best indicator that a kid is going to be in 
trouble as a teenager and drop out of school is their third 
grade reading score. If we can get a kid reading, no matter 
what is going on in their life, they have got a ticket to a 
dream and a way out. That is why reading is so important.
    Mr. Regula. I am with you on that.
    Mrs. Wilson. And so I would ask for your support for those 
programs.
    Mr. Regula. You know, we get pulled both ways on the math 
and science and reading, but to do math and science, you have 
got to be able to read, and that is an interesting observation 
you made on the third grade, that you can already identify the 
possibilities, and understandable. If you can't read, you look 
for other ways out, let us rob the 7-11 if I can't get a job 
because I can't read.
    Mrs. Wilson. Well, and kids start to fall more and more--by 
the third grade you shift from learning to read to reading to 
learn, and kids start hiding it more and more, acting out, not 
showing up, attendance problems, leads to dropouts, and they 
have got too much time on their hands and they are into 
trouble. And I think with math and science education, it is 
important in secondary school but also in the primary grades. 
America does not do well compared to other countries on math 
and science education, and part of it is--you know, a lot of 
teachers become elementary teachers because they can't stand 
math and science, and we want to be able to get kids directly 
hands-on involved in mathematics and science and jazzed about 
it.
    Mr. Regula. The Gates Foundation is committing millions of 
dollars to reduce the dropout rate in high school. I think I 
will pass along your comment to their Director, whom I happen 
to know, that maybe reduce the dropout rate in high school, you 
better start----
    Mrs. Wilson. Making sure they learn to read. Absolutely.
    Mr. Regula. That is an interesting observation.
    Mrs. Wilson. My city of Albuquerque, which you have 
visited, we have more scientists and engineers per capita than 
any other city in the country, and yet a third of our kids 
don't graduate from high school.
    Mr. Regula. That is----
    Mrs. Wilson. And it is that dichotomy that we can't sustain 
that as a community. We can't survive.
    Mr. Regula. I have been searching for ways to deal with the 
dropout rate. The big cities are about 50 percent, and that is 
a terrible waste of human capital, to say nothing--our attorney 
general in Ohio is beginning to identify the fact that the 
pattern of crime tracks right with the dropout rate, and you 
can understand that when you think about it.
    Mrs. Wilson. Thank you, sir.
    [The prepared statement of Congresswoman Wilson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I add my thanks to 
those of my colleagues for your patience, perseverance, and 
your commitment in listening to all of the needs that emanate 
from the funding decisions that you make in what I consider one 
of the most important subcommittees and parts of our budget.
    I associate myself with the comments that have been made by 
my colleagues. Matter of fact, I served on the Glenn Commission 
that dealt with math and science teaching, and if you can get 
those teachers to energize these kids and to know that math and 
science can be fun, that is a great step forward.
    I also have a daughter who is a nurse and a daughter-in-law 
who is a nurse. I know the critical situation. I also have 
osteoporosis, so I know the need for that. And, you know, as it 
goes on and on.
    What I have done, sir, is I have given you a full 
testimony.
    Mr. Regula. It will be in the record.
    Mrs. Morella. Right. And I am going to just pull out some 
of the issues that my colleagues may not have spoken of. And 
one of them has to do with the growing group of people with 
HIV-AIDS are actually low-income women and women of color being 
hit hardest by this epidemic. It is the leading cause of death, 
AIDS is, among young African American women, and so I 
particularly urge your support for the development of a 
microbicide to prevent the transmission of HIV and sexually 
transmitted diseases at a level of no less than $100 million. 
That really does work. It could actually revolutionize the 
world if we had a microbicide of that nature in line.
    Federal funding is key. Currently less than 1 percent of 
the budget for HIV and AIDS-related research at NIH is being 
spent on this microbicide research, and best estimates show 
that less than half this amount is dedicated directly to 
product development. So clearly this is not enough to keep pace 
with the growing STD and HIV epidemics.
    I want to mention tuberculosis. Although it is not a widely 
known fact, TB is the biggest infectious killer of young women 
in the world. In fact, tuberculosis kills more women worldwide 
than any other cause of maternal mortality combined. Currently 
an estimated one-third of the world's population, including 15 
million people in the United States, are infected with the TB 
bacteria. And due to its infectious nature, TB can't be stopped 
at national borders. It is impossible to control TB in the 
United States until we control it worldwide. So, Mr. Chairman, 
I urge support for an annual investment of at least $528 
million for the fiscal year 2003 for the Centers for Disease 
Control efforts toeliminate TB.
    I want to point out the Violence Against Women Act which we 
reauthorized in the last Congress. Included in the bill were 
funding levels necessary to meet the basic needs of domestic 
violence programs around the country. It passed the House with 
371 votes in favor, and yet in fiscal year 2001, none of the 
authorized amounts were met, and new programs were not funded. 
So I am respectfully requesting that the funding become a 
priority for the Subcommittee.
    Under the Family Violence Prevention Act, domestic violence 
shelters provide essential services to women, and I am 
requesting that the shelters under Family Violence Prevention 
Act are funded at their authorized level of $202 million for 
fiscal year 2003.
    Rape prevention and education, I think that program should 
be funded its full authorization level of $80 million for 
fiscal year 2003.
    Also I ask you a very small amount, $1 million, just to 
continue to provide for that Women in Apprenticeships in 
Nontraditional Employment Act. Since that measure was signed 
into law in 1992--in fact, it was my bill--it has provided $1 
million each year to help women access high wage, high demand 
jobs in fields that have continued to be traditionally male-
dominated, such as information technology and construction. It 
is critical that we continue to support such a program that 
benefits not only women but families and the economy.
    I mentioned child care programs, and certainly the Child 
Care Development Block Grant in my submitted testimony.
    I do also have--finally, Mr. Chairman, I have a few local 
issues, and one has to do with the bill including $1.25 million 
to commence and implement an Older Americans Act titled for 
Demonstration Project to Further Develop Innovative Models for 
the Provision of Supportive Services to Seniors in the State of 
Maryland as an example, and also a Public Health Syndromic 
Surveillance System asking for $507,000. It is a major priority 
in our area and would certainly help with detecting in a timely 
manner unusual health occurrences indicative of possible 
chemical or biological terrorism.
    There are plenty more issues, and I know that you know 
them, and again I reiterate my confidence in your decision-
making and my great admiration for you in sitting through all 
of these hearings and digesting and cogitating and then trying 
to come to some decisions that help our country.
    [The prepared statement of Congresswoman Morella follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Well, it is very interesting. I would say we 
have a great staff on this subcommittee, and that is the key 
to----
    Mrs. Morella. It is.
    Mr. Regula [continuing]. Dealing with this. Our budget is 
$130 billion, and that is a lot of money to hand out and do it 
wisely, and that is why I question does the program work. And 
unfortunately, there are so many programs that we fund that we 
just don't have time to pursue and see if they are getting the 
taxpayers' monies worth and if they are really getting results. 
And all of you are important in bringing that to our attention.
    Mr. Regula. Okay. My colleague from Ohio, Ms. Kaptur.
    Ms. Kaptur. Thank you very much, Mr. Chairman, and I wanted 
to associate myself with the remarks of all of my colleagues 
from the Women's Caucus in complimenting you. I would have to 
say as an appropriator myself, this is a very unusual hearing, 
and it is a real testament to you and to your vision of what it 
is to be a public servant, and to give even Members of Congress 
an opportunity to testify in this type of setting. I am going 
to take that back to the Buckeyes that I represent. I am very 
proud of you.
    Mr. Regula. Thank you.
    Ms. Kaptur. And I am glad you are from northern Ohio. You 
fit the image of what we are. And what we should be.
    And I will be very brief. I will submit my remarks for the 
record.
    Mr. Regula. Without objection.
    Ms. Kaptur. But in joining my colleagues, I want to just 
highlight, if I could, 3 programs vital to women and children 
in this country and ask your particular attention to these, and 
then I wanted to make a comment on nursing and also on 
education, if I might.
    First of all, specifically I come here today on behalf of 
the Women's Caucus to seek special attention to the National 
Institutes of Mental Health, NIMH, and additional assistance we 
would seek for them to understand the many gender-related 
variables in mental disorders and to translate research 
findings into diagnosis, treatment, prevention and public 
health. Specifically, we strongly urge you to fund the NIMH at 
the level of $1.454 billion, to fund critical research to 
clarify the risk and protective factors for mental disorders in 
women and to improve women's mental health treatment outcomes.
    There are gender-related differences, for example, in the 
presentation of depression, of bipolar, or schizophrenia, of 
anxiety-related disorders, and we are learning more about this 
now. It has all to do with the chemistry in the end, we know, 
and we need to get NIMH even more focused on this.
    Mr. Regula. I think the authorizing committee is going to 
take up the mental health issue this year, the parity question, 
and Mr. Boehner indicated to me that they would be holding some 
hearings because it is a growing issue.
    Ms. Kaptur. That is very important in the research, in the 
different regimens that are necessary to find markers in women 
versus men in these important and life-crippling illnesses. So 
that is one area that I would particularly commit to your 
attention.
    Secondly, in the area of child care, we strongly urge you 
to reaffirm your commitment to children by appropriating an 
additional $11.025 billion in discretionary funds over the next 
5 years for the Child Care Development Block Grant program. We 
know that full day care for children averages $4,000 to $10,000 
dollars a year, and we are only serving 1 out of 10 in the 
country. And so this is just a huge need. With your leadership, 
we have made a difference. We are making a difference. We know 
we have to involve the States in many of our not-for-profit 
groups and for-profit groups in dealing with the family 
structure of today. But any attention there would be greatly 
appreciated.
    And, finally, in the area of funding in the Pell Grant 
program which you know so well, we know last year the number of 
Pell Grant applicants grew by about 8.3 percent, and compared 
to a 2.5 percent increase that was projected. Andwe are asking 
for an additional $500 per grant. We know that they serve the neediest, 
more than 4 million students across this country with an average family 
income of $14,500 or less. And so additional support to that program is 
probably the best investment we can make in the leaders that will serve 
our society in this millennium.
    And I just wanted to make a couple of comments on education 
and on nursing, if I might. On the education front, because of 
the vast reach you have with these different departments and 
agencies that fall under the jurisdiction of this subcommittee, 
one of the thoughts I have had in looking at the student debt 
that is owed, if there would be a way to connect programs where 
we need workers, for example, our nursing programs, and our 
advanced nursing practitioner program, and allow people who 
have debt to work off, to link it to service in those fields.
    Mr. Regula. There are some--yes. A nursing loan repayment 
plan now which is, I think, along the lines of what you are 
talking about.
    Ms. Kaptur. I just think we need to take a look--if you 
figure the average student owes $17,000 now when they graduate 
from college and many of them don't necessarily go into the 
programs that they majored in, but we need a lot of attention 
in this nursing area. I agree with all of my colleagues on 
that. And I also look at the debt loads that young people are 
coming out of college with, and some of them might go into that 
field. I don't think the linkage there is that clear. The other 
area is--and I would just urge you perhaps to meet with 
Secretary Principi over at the Department of Veterans Affairs. 
We know half the physicians of this country--and I am on the VA 
Subcommittee--have come through the veteran system as 
residents, but we don't have the same averages with nurses. We 
do have training there, but it seems to me that we could do a 
whole lot more to educate nurses, through a combined program. 
Let us say at a veterans' clinic in Canton or Toledo. You have 
got a medical college that sits next door, where you could have 
nursing education tied to service in the veteran system, but 
also to those Community Health Centers that Congresswoman 
Millender-McDonald and you discussed. I think there is a real 
role to play here in the connection between those programs. 
Perhaps through your committee you could experiment. You could 
try a couple of these pilots around the country, but I really 
think there is an opportunity here that we are not--the other 
thing that has amazed me, we have a MASH unit, medical army 
surgical unit. The Guard comes every week into our medical 
college facility, and you have all of these people out there in 
the Guard and Reserve who need emergency training. We don't 
necessarily connect the nursing programs that are being 
promoted through DOD, and what is happening in our local 
communities at our community health clinics and so forth. So 
the synergy isn't happening at the Federal level. I just wanted 
to point that out to you. It is something I am very, very 
interested in and I have looked at it a lot over the years, and 
I think the nursing in particular, if we just thought about 
connectivity, we could do a whole lot to increase those 
numbers. That is one area I wanted to mention.
    The other one I wanted to talk about just for a second in 
closing is our--the education issue, which Congresswoman 
Heather Wilson talked a lot about here today. I agree with her 
totally on the third grade. We are losing kids all over the 
country. I am being approached by my educators and have for 
years tried to bring in money for summer reading programs. I 
could tell you I could bring bucketloads of money. It doesn't 
make a darn bit of difference, because the kids continue to 
falter for the following reason. We did a GAO study that showed 
that in certain families there is tremendous mobility. You can 
identify the schools. In Toledo there are 7. We can pick them 
out. These children, because their parents cannot afford 
housing, keep moving, and the more they move, the lower their 
reading scores are, and by the third grade we have lost them 
permanently. I don't care how many reading programs.
    I have talked to Secretary Martinez about this. I said, Mr. 
Secretary, we need a program where we link our section H 
certificates, which our community is giving back to the Federal 
Government. I said if you just took the ones we gave back every 
year and you signed contracts with a couple local schools just 
on an experimental basis and you linked the section H 
certificate, have the family sign a contract with the school 
that they will keep their child through the school in the third 
grade and they will get the certificate for that and they will 
get other complimentary programs that we could put in our 
school through our family self-sufficiency programs that we are 
operating locally, we can keep that population stable. But we 
cannot teach when they are being uprooted.
    We have a GAO study that proves what is happening. It is 
every city in this country, but to try to get HUD and HHS to 
work together with the Department of Education, it is almost an 
impossibility.
    Mr. Regula. Well, you put your finger on a tough problem in 
government, and that is there is too much turf and not enough 
cross-pollination.
    Ms. Kaptur. Right. And I think through your committee, Mr. 
Chairman, you can really--if you could start a couple 
demonstrations, and just a couple, and show that this works, we 
could make such a difference.
    And the migrant workers, they have the worst, obviously, 
situation, because they are just being uprooted everywhere and 
we can't catch them. But this instance--and there has been an 
article written, Cleveland Crisis magazine, about Cleveland, 
Ohio. And they know the schools. They know the situation. We 
can't connect the programs. But I would be willing to say, this 
member from Ohio would be more than willing to extend a hand 
and say I will work with you on this problem anywhere in the 
country you want to work.
    I spent a lot of time in the schools in our community 
really seeing what is going on there and why these children 
aren't learning. So thank you very much for the opportunity to 
testify.
    Mr. Regula. Thank you all for coming.
    [The prepared statement of Congresswomen Kaptur follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, May 16, 2002.

                                PROJECTS


                                WITNESS

HON. GREGORY W. MEEKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. All right. Mr. Meeks. You have been patient. 
And we have Mr. Schiff for the windup here. So, Mr. Meeks, I 
think you were here first.
    Mr. Meeks. Thank you, Mr. Chairman. I am pleased to come 
today to testify before you and thank you for your patience, as 
indicated by all of those that testified before, for your 
allowing Members to participate in this process. It is truly an 
honor, and we thank you for it.
    I will make my oral statement brief, but I ask that my full 
written testimony will be----
    Mr. Regula. It will be in the record.
    Mr. Meeks. And I realize it is also difficult for the 
Subcommittee and the Nation as we continue to recover from 
September 11th to fund the critical programs. So I am going to 
try to talk about just a few that are very important to me, and 
I guess coming on the--but coming on the heels of the Women's 
Caucus, I will just start with this one first, and maybe I 
should have also talked to them and had them--there is a 
project which I am requesting funding for which is called Dress 
for Success Professional Women's Group, and I am requesting 
$1.5 million for fiscal year 2003. Now Dress for Success, 
though it is based in New York and is a nonprofit organization, 
it has chapters throughout the country; in fact, 41. And they 
are looking to expand into various other areas. And what they 
do, they provide interview suits, career development assistance 
and confidence boosts to low-income women entering the 
workforce. Women are referred to Dress for Success by an array 
of not-for-profit and government agencies, including homeless 
and domestic violence shelters, immigration and job training 
programs. Now, it was developed in New York, and it also 
promotes job retention and career advancement by providing 
information to help women unfamiliar with the workplace 
continue to develop their skills and advance in their jobs.
    Mr. Chairman, they have never received any Federal funds in 
this project, and since its inception in 1996, Dress for 
Success, as I said, has never received any money. The project 
is the first and only job retention model that moves low-income 
women towards self-sufficiency by addressing their social and 
economic needs in relation to work, home and community.
    From a legislative perspective, the detention of employment 
equals a stimulus attack on all aspects of life's problems, 
including poverty, health, housing and education. And, 
coincidentally, as we are debating now on the floor the Welfare 
Reform bill, this is the perfect remedy to welfare reform. When 
people--once you get them off of welfare, where do they go? I 
think that the group that is most affected by this is single 
mothers and this program is directed toward curing that need.
    And so, again, on that project, they have never received 
any Federal money. It is worthwhile, given what we are debating 
today and how we are going to move in the direction putting 
women to work. It helps children, and I would most humbly 
request that you consider the $1.5 million appropriation.
    The second project that I would like to talk about before 
the Subcommittee is the Joseph Peer Dauber Family Health Care 
Center. I am requesting $2 million for Joseph P. Dauber Family 
Health Care Center which is located at 6200 Beach Channel 
Drive----
    Mr. Regula. Are they getting Federal money now?
    Mr. Meeks. Last year this committee was fortunate enough--
they are getting some Federal money, and last year this 
subcommittee authorized $440,000 for them in beginning this 
construction project.
    Mr. Regula. This is one of your projects?
    Mr. Meeks. That is correct. And this is a project which is 
building a health center and an educational center, which are 
combined with York College and the College of Aeronautics. In 
the district they all will be sharing--this is part of the 
construction and----
    Mr. Regula. Let me say on the projects, you should submit 
these to Mr. Obey, because he makes the determination on 
projects, earmarks for the minority side, and I see you got the 
$440,000 last year and that would have been on the 
recommendation of Mr. Obey.
    You just had one last year.
    Mr. Meeks. Yes.
    Mr. Regula. Must have been a freshman.
    Mr. Meeks. Well, I hope that there are some increments as 
you go along.
    Mr. Regula. Well, that is kind of the way it works, but you 
should talk to Mr. Obey about your projects.
    Mr. Meeks. I will. And since you know--and you know Mr. 
Dauber was a former colleague and I----
    Mr. Regula. Yes, I knew him. He was one of my colleagues.
    Mr. Meeks. Great man, and they are doing just a service and 
the opportunity to----
    Mr. Regula. Well, I like those. I think they take care--
they help the emergency rooms by relieving them. It helps a lot 
of people who are afraid to--or don't know where to go for 
medical services and we are going to--through HRSA we are going 
to fund those as much as we can. But, in turn, the clinics have 
to apply for the funding, and I assume thecity, they put in 
some money, too.
    Mr. Meeks. Absolutely, the city and the State. There is a 
whole combined effort. My colleague and State and city 
government are also working. I am just trying to bring my--I 
think the total project is closer to $5 million. I am just 
trying to bring my share in from the Federal Government.
    Mr. Regula. I understand.
    Mr. Meeks. Last year I know that--there are others waiting. 
Let me just mention one other project I am requesting, $500,000 
for the construction of a lead-lined brachytherapy room to be 
used in the outpatient setting. Again, this is the Queens 
Hospital Center and part of the Queens Health Network which 
serves the population of nearly 1 million people from 
southeastern Queens, and one of the primary focuses of the 
Queens Hospital is development of a Cancer Center of 
Excellence. This Center is scheduled to be the leader of this 
important clinical specialty in the Borough of Queens. This 
project is a part of the New York City Health and Hospitals 
Corporation, created in 1970 to provide quality care to all, 
regardless of their ability to pay, and Queens Hospital Center 
is a branch of the Queens Health Network. So it is a needed 
facility and a therapy room that is needed, particularly to 
those that----
    Mr. Regula. Again, I would suggest that you get that to Mr. 
Obey.
    Mr. Meeks. I will talk to him.
    Mr. Regula. Okay.
    Mr. Meeks. Lastly, let me add something in closing. I want 
to support the DHHS AIDS prevention, as well as the treatment 
program as well, and the school construction programs. I mean, 
we need school construction throughout this country but 
particularly in New York. School construction and school 
retention is absolutely necessary. So I want to just throw my 
support behind those.
    Mr. Regula. Okay. Well, thank you for coming.
    Mr. Meeks. Thank you.
    [The prepared statement of Congressman Meeks follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, May 16, 2002.

  HEAD START; LABORATORY SECURITY; PELL GRANTS; AFTER-SCHOOL PROGRAMS


                                WITNESS

HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Schiff, you have been patient.
    Mr. Schiff. Mr. Chairman, how are you? I strategically 
chose the last lot of the day in the hopes that you would be 
sufficiently worn down and ready for lunch, that you would just 
say just give him what he wants and let us be done with it.
    Mr. Regula. Well, it is not that easy and I am not quite 
that worn down, either.
    Mr. Schiff. Okay. I will have to come back later, then.
    I appreciate you taking the time to hear from all of us 
today, and I know you have got some challenges ahead of you 
with the budget being what it is. I wanted to emphasize really 
just three areas today: Head Start; the need to deal with some 
of our lab security problems that were demonstrated in the wake 
of the anthrax attacks; and also touch on education.
    With respect to Head Start, as you know, since 1965 Head 
Start has benefited over 18 million----
    Mr. Regula. I am very aware of the program.
    Mr. Schiff. We have been spearheading an effort to try to 
increase the funding for the program. As you know, there are a 
lot of kids on the waiting list that would love to be involved. 
We join with 120 of our colleagues, and I will provide your 
committee with a letter that 120 members have signed to urge a 
billion dollar increase above the administration request.
    Mr. Regula. Yes. I think they are a hundred million up, but 
there are still a lot of unserved young people. That is the 
problem.
    Mr. Schiff. There are, and with inflation, I think the 
level is either flat or----
    Mr. Regula. Well, we are expanding Head Start. It started 
out as a custodial program through the welfare HHS, and now 
realization that early childhood is a very important element in 
educating, and so you need better trained people, and you need 
to expand the program. And that all spells money.
    Mr. Schiff. It does, and I have always had an interest in 
this area, but now that I am the father of a 3-year-old and I 
have got a second child on the way, it has become very 
personal, as I am sure you could appreciate. So I know you will 
do everything you can, and we need to strengthen the reading 
readiness component----
    Mr. Regula. You are the most important Head Start for your 
child.
    Mr. Schiff. Oh, yes, absolutely. Absolutely. And we believe 
you can't start too early. We started reading to our daughter 
when she was still in the womb.
    Mr. Regula. And that is not a bad idea.
    Mr. Schiff. And she didn't complain too much at thatpoint.
    Let me move on to lab security, if I could. As we found 
throughout the anthrax investigation and are continuing to 
find, we have very lax lab security, and I have introduced 
legislation on the House side, Senator Feinstein on the Senate 
side. It is in conference. And what it will require is the 
certification of some of the labs, greater inspection of the 
labs, and I would just----
    Mr. Regula. Are you talking about public or private 
laboratories or military?
    Mr. Schiff. Both public and private, those that are dealing 
with deadly biological agents, viruses and bacteria. The 
legislation would prohibit the possession of these agents other 
than in government-certified labs. It increases lab security, 
requires background checks for those that are working with the 
agents, and I think some form of these improved safeguards is 
going to emerge from the Conference Committee.
    Mr. Regula. He advised me CDC will be a key player in this 
program.
    Mr. Schiff. Absolutely.
    Mr. Regula. Now, what is the status of your bill?
    Mr. Schiff. Our bill has been introduced in the House. The 
Senate bill has made it all the way to conference. And our 
understanding at the staff level is that it is likely to emerge 
from conference----
    Mr. Regula. So it has passed the House and passed the 
Senate?
    Mr. Schiff. Our version has not passed the House. Has there 
been a--a different version that had--it did pass the House, 
yes. We introduced a bill--there is a House vehicle--I think it 
was a Tauzin bill.
    Mr. Regula. Yes, the Tauzin bill has this element in it.
    Mr. Schiff. Chairman Tauzin introduced it. So we would ask 
that in light of that, that there be some budgetary----
    Mr. Regula. Well, we would have to give CDC funding, 
because they would be the licensing agency.
    Mr. Schiff. Right.
    Mr. Regula. And so that would fit with what your concerns 
are.
    Mr. Schiff. Terrific.
    And, finally, Mr. Chairman, I want to urge your support for 
a greater appropriation for the Pell Grant program. The CBO 
estimates that there will be more eligible students expected to 
apply, and that might mean that the average amount of the Pell 
Grant would decrease rather than increase.
    Mr. Regula. Well, as you probably know, we beefed it up 
quite a bit last year. It went to $4,000 max, and I think we 
will be hard-pressed to--and we will hold to that number, but 
what drives it is the so many more requests and so the total 
goes up, but if you look in the supplemental, which will be on 
the floor next week, there is a billion--I think it is a 
billion dollars of--is it emergency? No, not emergency. Well, 
it has been offset. Right? A billion dollars in the 
supplemental for Pell to help fund these programs. So I am 
pleased to hear you give your support to this program.
    Mr. Schiff. One other thing I will just flag in my 
concluding few seconds here, we are also working on a problem 
that States like California are somewhat penalized in the Pell 
Grant process. California heavily subsidizes at the State level 
its higher education. The community colleges fees are kept very 
low, and as a result, California right now is one of the only 
States, but others will join that category, where the students 
don't qualify for the full amount of the Pell Grant, since it 
is tuition only. And we have worked on some legislation, and we 
would love to work with you and your staff to try to allow 
other costs to be defrayed using Pell Grant funds as well that 
are very higher education-oriented costs. The books, for 
example--because in California in the community colleges, for 
example, the cost of books often exceeds the cost of the fees, 
because the fees have been kept so low. And we don't want to 
disincentivize the States from subsidizing it themselves. But 
when I was in the California Senate, I was on the Budget 
Subcommittee on Education, and we felt we were basically 
sending State dollars to Washington every time we cut tuition 
in the community colleges, and we want to encourage that kind 
of behavior.
    So I would just flag that issue for you and look forward to 
working with you and your staff on it.
    Mr. Regula. That is an interesting point, because Pell is 
restricted to tuition, so that the lower you made the tuition, 
the less demand on Pell Grants, and you are suggesting they 
should be expanded as to what they could be used for.
    Mr. Schiff. Yes. Two very narrowly defined higher expenses, 
things like books, for example, because in California at the 
community college level, students on average pay more for their 
books than they do in their fees, and so if the Pell could be 
applied for books, it would be a great help to them.
    Mr. Regula. Okay. Well, thank you.
    Mr. Schiff. Thank you very much.
    [The prepared statement of Congressman Schiff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. I appreciate your comments and your insights. A 
lot of challenges.
    Mr. Schiff. Very true. I both do and don't envy your 
responsibility.
    Mr. Regula. Well, I understand that. This concludes our 
scheduled hearings this year. The Committee is adjourned.
                                           Wednesday, May 15, 2002.

          EDUCATION AND WORKFORCE ISSUES; MENTAL HEALTH PARITY

                                WITNESS

HON. JOHN A. BOEHNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Regula. Well, we are going to get started. I have a 
long list of Members here, 19 to be exact; and so we will 
appreciate it if you can be as brief as possible. And your 
testimony is obviously sensitive to Members' concerns, but it 
is just a time problem for us to get it all in. You will have 
submitted statements, and we will be very sensitive to that.
    We don't know yet what our allocation is, so I don't know 
what kind of dollars we are going to be working with. Our first 
witness is John Boehner--oh, here he comes.
    You just barely made it. We start on time. You have got 30 
seconds here.
    Mr. Boehner. Mr. Chairman, thank you. I knew I was right on 
schedule.
    Let me just say I want to thank you for the opportunity to 
testify today before your Subcommittee, and I don't envy the 
tough decisions that you all have to make in the shadow of the 
terrorist attacks last year, the need for additional funds for 
homeland defense and all of the other issues that you have 
before you.
    But I want to thank you and your entire Subcommittee and 
your staff for working so closely with us during the 
reauthorization process of the Elementary and Secondary 
Education Act and the Labor-HHS-Education appropriations 
process last year. I think it was a great partnership and a 
great example of how the authorizing and appropriating 
committees can work together towards a common goal; and I have 
confidence that will continue again this year.
    As you know, many of the new resources in the President's 
budget are committed to defense and homeland security. However, 
despite the twin challenges of war and economic recovery, I 
think President Bush has kept his commitment to improving our 
Nation's public schools in closing the achievement gap. I know 
parents, teachers and principals across the Nation are grateful 
to the President for his actions.
    And despite the war and the recovery, the President was 
still able to maintain his historic commitment to ensuring that 
``no child is left behind'' by requesting a $1 billion increase 
in Title I and a $1 billion increase for IDEA, maintaining this 
historic level of funding for teaching quality and aid to 
States and school districts. We are asking a lot from our 
teachers, and they deserve our full support.
    Further, President Bush has proposed increasing Federal 
reading programs by an additional $100 million for a total of 
$1.75 billion. He has also proposed increasing the Pell Grant 
program by $549 million to provide an additional 55,000 
students with Pell Grants and to maintain the maximum Pell 
Grant award level of $4,000, all of which I support. In 
addition to these priorities, I urge you to keep math and 
science programs at the top of your funding priority list.
    I also believe it is important for both Republicans and 
Democrats to keep some perspective about all of this. The 
Federal funding for education programs has more than doubled 
over the last 6 years. And with support of Members on both 
sides of the aisle and, later, a Republican President who 
insisted on greater accountability for results, discretionary 
appropriations for the U.S. Department of Education have 
climbed from $23 billion in fiscal 1996 to $48.9 billion in 
fiscal year 2002, an increase of 113 percent.
    During the reauthorization process of ESEA, we placed a 
great deal of emphasis on consolidating numerous smaller 
programs into a larger, more efficient State formula grant 
programs. Therefore, I hope you will continue to use the No 
Child Left Behind Act as a guide to determine which programs 
should be funded in this year's Labor-HHS appropriations bill.
    On the workforce side of the Committee, I urge you to 
accommodate the President's request of a $3.4 million increase 
for the Office of Labor-Management Standards and a $5.3 million 
increase for the Office of Inspector General. As you know, the 
Office of Labor-Management Standards administers the Labor-
Management Reporting and Disclosure Act of 1959, whichenforces 
the rights guaranteed to rank-and-file workers to foster and maintain 
union democracy. The Office of Labor Racketeering and Fraud 
Investigations in the Office of Inspector General is responsible for 
keeping in check the growth of labor racketeering and organized crimes 
involvement in labor-related activities, particularly in relation to 
employee benefit plans. The proposed increases will help both offices 
better safeguard these important worker protections.
    With regards to the Office of Federal Contract Compliance 
Programs, I would like to briefly note that the fiscal year 
2003 budget request will enable the Agency to more efficiently 
focus its resources on areas where preliminary information 
suggests that discrimination problems may exist through the 
expanded use of technology, wider use of a tiered review 
process, and other management improvements. To the extent that 
the authorized full-time positions are, in fact, declining--
just 18 less than in fiscal year 2002--those reductions will 
not affect the number of compliance officers nor diminish the 
agency's ability to fulfill its responsibilities.
    In addition to these appropriations matters, I would like 
to say a few words about the 1-year reauthorization in last 
year's Mental Health Parity Act. As you know, it was included 
in your bill at the end. And as Chairman of the Education and 
Workforce Committee, I strongly believe that members of my 
committee should be afforded the opportunity to consider any 
authorizing language that falls within our jurisdiction in the 
context of the traditional committee process. Because of this, 
when the Labor-HHS bill came up last year, I committed to work 
with you and advocates to bring greater mental health parity by 
giving this issue substantive consideration in our committee.
    Now, I am pleased to report that just last week, or back in 
March, we did, in fact, have a hearing. We have worked with a 
number of folks from--in our conference and from the other body 
and the Administration, trying to come to some agreement. As 
you are also aware, the President had signaled his support for 
enhanced mental health parity; and I expect that we will, in 
fact, suspend any further hearings as these conversations go on 
between various committees here in the House, our colleagues in 
the Senate and the White House. And hopefully before we get 
into the summer, we will have some agreement on how to proceed 
on this vitally important issue.
    And with that, Mr. Chairman, I want to thank you for the 
opportunity to be here. And I thank you for our great working 
relationship and look forward to a good year this year.
    [The prepared statement of Congressman Boehner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you. And I know our staff from the 
authorizing committee, your committee and mine have worked very 
closely on these matters.
    And you have a challenge, you have IDEA, I believe, that 
needs to be reauthorized and also this issue of parity and 
mental health. So, in your opinion, in H.R. 1, how much of that 
is discretionary? It is about $50 billion essentially, if we 
would maybe move money a little more into, say, teacher 
enhancement versus Title I, any problems?
    Mr. Boehner. We have had significant increases in our 
teacher quality program, and I think that we have got to be 
very careful there. We have had tremendous increases in Title 
I, but I think, given the commitment of the President and 
others to further targeting Title I resources to more needy 
schools, it is very important; and I will tell you why.
    Later on this year and probably in September, students that 
are already in identified failing schools are going to have the 
option of taking a portion of their Title I funds to get 
supplemental services, after-school programs, tutor programs; 
and as a result, these schools are going to be looking for 
additional funds. And I just think that as we go through this 
process, the commitment that we continue to make to Title I is 
important.
    And I do think that the money that has been allocated for 
teacher quality is well spent. But I would have serious doubts 
about taking money out of Title I and moving it to Title II.
    Mr. Regula. Well, that is something that will confront us. 
I feel it is very important to give teacher quality as much 
support as we can, because I think the classroom teacher makes 
a world of difference.
    Mr. Boehner. They do make a world of difference. And I 
think as we get into the reauthorization next year of the 
Higher Education Act, there is going to be an increased focus 
on teacher preparation and what is happening at the university 
level because, as we all know, there appears to be some serious 
deficiencies.
    Mr. Regula. Well, thank you. And we could discuss this at 
great length, but I have to move on. But our staffs will be in 
close contact.
    Mr. Boehner. Does the gentleman----
    Mr. Regula. I am sorry.
    Mr. Boehner. I don't know if the gentleman from 
Pennsylvania--I know he would like to take a few shots at me.
    Mr. Regula. He is a 20-year school board member.
    Mr. Sherwood. I talk to the Congressman often about the 
real world, and we sometimes have interesting views on that.
    Mr. Boehner. Boooooooo.
    Mr. Sherwood. But I just came here to hear what the great 
one had to say.
    Mr. Regula. He will leave a copy of his statement for you.
    Mr. Sherwood. And I will read it with interest.
    Mr. Boehner. Thank you, Mr. Chairman.
    Thank you, Mr. Sherwood.
                                           Wednesday, May 15, 2002.

             HEAD START; MINORITY AIDS INITIATIVE; PROJECTS


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Waters. Mr. Chairman and Mr. Sherwood, thank you for 
the opportunity to come before you this morning to discuss some 
of the programs that I am very much concerned about and would 
like to seek your support for.
    First, let me speak about Head Start. I am very passionate 
about Head Start. I worked in Head Start for--well, when OEO 
first instituted Head Start, I was in that first round of 
employees that helped to develop the Head Start programs. I was 
there when we tried out several models, everything from 
Montessori to other kinds of models, and we finally settled on 
the kind of program that could, indeed, build self-esteem to 
help prepare young children for learning; would involve parents 
so that they could indeed understand that they could be in 
charge of their children's destinies.
    And I think the Head Start program has proven itself. It is 
a successful program that helps to give poor families an 
opportunity to connect their children with the kind of 
experiences that could make them successful in school; and I 
think it has done that.
    I think we should have, by this time, funded Head Start 
fully; however, that has not happened. It is a lot of money, I 
understand that. And each year, we have to talk about how we 
expand Head Start programs so that more children can take 
advantage of it. But today I am here to talk about the proposed 
testing requirements.
    I don't know who thought this up. I am sure that perhaps 
somebody who has been involved in traditional education 
thought, well, perhaps, if we test those Head Start children, 
we can do what----
    Mr. Regula. You are just addressing Head Start in terms of 
testing, not the----
    Ms. Waters. Yes. That's right. I would like to see it fully 
funded, and always say it every year. Let the record reflect 
that.
    However, I do want to talk about opposing the testing 
requirements. I don't know who thought it up. And again, as I 
started to say, I suppose someone who has been in traditional 
education all of their lives would think that perhaps you can 
test the children and decide something about whether or not 
they should go to kindergarten or whether or not they should go 
to a different kind of education setting. I don't know.
    But I do know that if you understand that Head Start is 
about building self-esteem, if you understand that it is an 
introduction to learning, that it is placing children in an 
environment where they appreciate books, that they appreciate 
getting along with their classmates, if you understand it is 
about putting parents in the kind of environment where they 
begin to understand how they can help their children--I was a 
supervisor, at one point, of parent involvement and education 
for parents. And helping to get those parents into the school, 
helping them to be able to observe their children and know how 
to provide a supportive home environment for their children, 
all of that is very important, and I don't know if you can test 
that.
    And I don't want to see Head Start penalized in any way. 
And I would hope that we would not impose upon Head Start some 
kind of testing requirements that are not proven to do much of 
anything. The best thing we could do for Head Start is to try 
and expand it so that more children could take advantage of it.
    The other issue that I would like to speak about this 
morning is the Minority AIDS Initiative. Mr. Chairman, when I 
was Chairman of the Congressional Black Caucus, we discovered 
that many communities, minority communities, were not involved 
in providing any kind of services on this issue. What we 
discovered was that systems have developed at the city and 
county level, very sophisticated systems, where you have task 
forces and you have committees that are devised by the counties 
and the State to help direct where the funds go and help to 
decide what the RFP is going to look like; and many of these 
communities have not gotten into those sophisticated systems.
    Some of those people who were involved early on in dealing 
with AIDS became very expert at how to manage and manipulate 
those systems. And a lot of the minority communities, where we 
were seeing an increase in HIV/AIDS were not in the ball game, 
and they were not getting funded.
    And we set out to build capacity. We set out to place some 
opportunities in those places where we saw an increase in HIV/
AIDS, but no programs were operating.
    We have come a long way. We started out with $156 million 
back in 1998, in a line item I believe, for the Minority AIDS 
Initiative, and we have increased that to $381 million. But now 
our request is $540 million because, again, if we are to catch 
up and if we are to reduce the incidence of HIV/AIDS, we have 
got to provide more opportunities for outreach and education in 
these minority communities. So I would just beg of you to see 
this as a high priority and to respond to the full request for 
$540 million, rather than the $381 million that is in the 
President's budget.
    Now, having said all of that, let me just speak to you 
about some requests that I have. If you take a look at the 
requests that I have for my district, you will see that it is 
focused on education and economic development.
    Mr. Regula. Let me suggest, are you talking about the 
earmarks?
    Ms. Waters. Yes.
    Mr. Regula. If you would, take those up with Mr. Obey 
because, generally speaking, I have dealt with them on the 
majority side and he has dealt with them on the minority on 
earmarks, and we don't know as yet how much money we are going 
to have to distribute.
    Obviously, there will be money for earmarks, but we don't 
have an allocation. But in any event, he would address the 
requests from the minority.
    Ms. Waters. Well, thank you very much. Well, let me just 
conclude by saying the two programs that I have talked about I 
consider extremely important.
    [The prepared statement of Congresswoman Waters follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Let me comment first on the AIDS issue.
    You are at the right place. We have hard carried the money, 
the Senate has not, for Minority AIDS, and we are very 
sensitive to this problem. We have put a lot of money in, and I 
don't know that we can meet what you have requested, but we 
will do what we can.
    My second question is on Head Start. Do you think Head 
Start should be in Education instead of in Welfare or HHS? 
Because I think you are talking about--it started out with a 
welfare component; that is why Head Start ended up in HHS. But 
more and more people are saying, we need to start early 
education as part of Head Start which means changing the type 
of teachers or people. How would you feel about it?
    Ms. Waters. No. Let me say that when Head Start was 
initiated under OEO, it was about poverty. It was about poor 
communities and families who did not have an opportunity to 
give their children an early childhood education experience; 
and it was believed at that time that to the degree that 
families had exposure to these kind of programs, they could 
indeed prepare the children to be more suited for education.
    Now, I don't think that we need to take the emphasis off of 
that. As long as you have poverty, as long as you have ghettos, 
as long as you have communities where you have crime and 
violence and all of those things, you have got to take these 
children and give them the kind of experience that is going to 
give them an opportunity to get into education, and that takes 
a lot. It is not like taking a child and saying, okay, we are 
going to teach you the ABCs.
    Mr. Regula. There is a social component?
    Ms. Waters. Very much so. You have children who come into 
the program who have never been 15, 20 miles out of their 
communities, who are confined to public housing in many cases.
    Mr. Regula. What you are saying is, retain the social 
components and add an education component?
    Ms. Waters. I think it already does have an education 
component.
    Mr. Regula. But we are growing that. We are saying you have 
to have some people who have some skills in communicating ABCs, 
if you will.
    Ms. Waters. But I think they do.
    One of the things you have to understand about Head Start 
is they were early on in recognizing the importance of reducing 
the classroom size and having a better teacher-to-child ratio. 
They started out with three in the classroom. That was an aide, 
an assistant teacher and a head teacher.
    The head teacher always had to have a degree; they had to 
have experience in early childhood education. The assistant 
teacher was normally one who was enrolled in some kind of 
preschool education program, trying to get their degree. And 
the aide came from the community.
    That is an important combination. With that combination, 
you have community interpreters. You have people who understand 
how Head Start can influence people in the community to be 
supportive of the children in the way that Head Start is trying 
to get them to do.
    Mr. Regula. You are really saying we need both components?
    Ms. Waters. We really need all of that. Don't ever get rid 
of that model in Head Start with the aide, assistant teacher 
and head teacher. Always require that the head teacher have a 
degree and that they have the background in early childhood 
education, but keep the other components focused on getting 
this child comfortable with oneself and building self-esteem 
and getting them prepared for learning.
    And as the child gets out of Head Start, if that child is 
ready for kindergarten and if that child can sit in the 
classroom and take instructions and can avail oneself of those 
materials, then you have done the job that Head Start needs to 
do.
    Mr. Regula. Well, thank you very much. I understand your 
passion on the subject and, as well, should be.
                              ----------                              

                                           Wednesday, May 15, 2002.

                       MATH AND SCIENCE EDUCATION


                                WITNESS

HON. VERNON J. EHLERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman, and I wish I could 
speak with such passion. I certainly feel passion for what I am 
going to talk about.
    Mr. Regula. I know you feel it.
    Mr. Ehlers. As a stalwart Dutchman, I probably don't 
express it that well.
    Mr. Chairman, I am in the unique position here, because I 
am not going to ask you for more money out of your allocation. 
I am going to ask you to allocate your money in a certain way. 
Furthermore, I am going to try to save you and the country some 
money in the long term.
    Up there you have the seals of three major departments. In 
fact, I believe you have the largest budget outside of Defense 
in your control. And what I am proposing is an action in the 
Department of Education which will save substantial money for 
both Labor and Health and Human Services in the future. And the 
reason is because what I am proposing will help train kids for 
jobs of the future so they will be much more likely to have a 
well-paying job and not require the services of either Labor or 
HHS.
    Mr. Regula. It is consistent with welfare reform that we 
will be voting on shortly.
    Mr. Ehlers. That's right. And let me give you a little 
background, which I am sure you are familiar with, but I wantto 
get it on the record. Incidentally, you asked me to be brief, so I am 
not going to read my statement.
    But as you know, last year when we passed H.R. 1, when it 
passed the House, we included math-science education in the 
overall picture; and they were going to get 15 to 20 percent of 
the total, which would have been over $500 million a year. The 
Senate, in its wisdom, set up a separate program for math and 
science and authorized that $450 million. However, as you know, 
they didn't fund it last year; and that is the problem I wish 
to address.
    I respectfully request that you and the Committee fund this 
Math and Science Partnerships category, which the Senate 
created at its full authorized level of $450 million.
    Now, as I said earlier, I am not asking you for new money. 
We have in the past consistently spent at least $375 million a 
year on the Eisenhower Program, which the new Math and Science 
Partnerships program replaces. Furthermore, the money you spend 
on this would simply be taken out of Title II. It is not new 
money in Title II, and the Senate recognized that, and you 
recognize that; but I think it is very important to allocate 
that full amount into this fund.
    The Math and Science Partnerships try to get at the teacher 
quality question, which Chairman Boehner raised awhile ago. 
Much of the effort is to try and improve teacher quality. In 
H.R. 1, we did something that is going to require dramatic 
improvements in teacher quality in math and science, because 
for the first time we have put in a requirement that each State 
has to set standards for both math and science and also, within 
a few years, institute tests in both math and science. That 
means there is going to be a massive effort necessary to train 
teachers to teach math and science properly and to understand 
math and science.
    I feel very strongly about this, not just because I am a 
scientist; that is not it. It is because I have worked in the 
schools, the elementary and secondary schools for 20 years. I 
know what goes on in the schools. I know the teachers are 
anxious to do their job, teaching math and science, but in most 
cases they have not learned enough or been taught enough about 
either the subject matter or the methodology of teaching in 
their college and university training. And I hope we can 
address that, as Chairman Boehner said, in our higher ed bill 
next year.
    In the meantime, there is a lot of work to be done in 
teacher training. Teachers are eager to do it. It is very 
important that that money be put in, that $450 million 
authorization, to the maximum extent so that the universities 
and the schools can form these partnerships.
    As I said earlier, the best jobs of the future are going to 
be those jobs. The only job market--even though it has been 
hurt a bit by the recession, the only job market where it is 
still relatively easy to get a job is in the high tech fields. 
A few years ago, there were 365,000 open jobs that they 
absolutely could not fill, and Congress passed a provision to 
allow 200,000 foreigners to come in under H1B visas. If we 
don't change that pattern, we are going to continue to import 
foreigners who will get the better-paying jobs, while our 
students will not.
    I could go into great detail. And let me just show you two 
charts that I think are important, the TIMSS results, and they 
are attached to my testimony. This shows the physics 
achievement of United States 12th graders compared to other 
developed countries. The top country is Norway, score is about 
580. The United States, and this is in physics, the United 
States is dead last with a score of about 420.
    For our country, the one remaining superpower, the greatest 
resources, to be dead last in that subject is just intolerable. 
We have to improve.
    If you look at mathematics, it is not that much better. 
United States, second to the last, beating out only Cyprus.
    That is a trend that cannot continue in a world where 
today, according to a conversation I heard recently on the 
radio, talking about mechanics, garage mechanics, they asked 
the supervisor of a major service garage, a dealership, what do 
you look for when you hire mechanics? He said, ``Well, the 
first thing they have to have is high school algebra and high 
school physics.''
    Now, when I was in high school, the kids who didn't take 
high school algebra and high school physics became mechanics. 
You can't do it anymore. We are entering a high tech world; 
whether it is being a mechanic or an office worker, people need 
the basic understanding of math and science.
    I am not talking just about producing scientists and 
engineers, but just the basic education of the workforce that 
is required for the future is what we need. And this program 
will give it, but it requires that it be funded adequately, now 
certainly minimally, at the level it was before with Eisenhower 
at 375.9 million, but preferably at the authorized level of 
$450,000,000.
    [The prepared statement of Congressman Ehlers follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. I appreciate your testimony.
    I had the CEO of Intel in to see me, and he was making 
essentially the same arguments you are, because they have 
trouble finding the people they need in production of chips.
    Mr. Ehlers. It is almost criminal, we have a lot of 
unemployed people today and jobs waiting for them in a field 
that they haven't been trained for.
    Mr. Regula. He has the same problem.
    Mr. Ehlers. Just to give you a number to put with this in 
terms of saving our Nation costs--not only the ones I talked 
about the government saving labor and welfare costs--but 
American industry today, according to the best figure I have 
been able to find, spent $62 billion a year training their 
employees. Now, roughly a third of that, about $20 billion, is 
retraining in skills they didn't get in high school.
    The industry in this Nation is spending more on retraining 
than the Federal Government is spending on the K-through-12 
education system. And I think there is a lesson there.
    Thank you very much.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                           Wednesday, May 15, 2002.

                           EDUCATION FUNDING


                                WITNESS

HON. PATSY T. MINK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII
    Mr. Regula. Next is Mrs. Mink. Glad to see you.
    Mrs. Mink. Thank you very much, Mr. Chairman and members of 
the committee. I have my prepared statement which I submitted; 
in order to save time, I would like to briefly describe from 
the list I presented those that I think that are extremely 
urgent in my sense of priorities.
    The reason I prepared this list, Mr. Chairman, is that I 
served as a conferee on H.R. 1, and we labored and labored to 
try and condense the many, many programs that we had authorized 
over the last decade. And in doing so, we came up with a list 
that we thought was a fairly well-examined and analyzed list of 
programs that succeeded, had a very precise direction that it 
was taking educational support towards. And in working with the 
majority, minority, with the White House, we had the assumption 
that this list was going to be submitted in the budget and 
funded, as we had requested in H.R. 1.
    Well, to our amazement, when the budget was submitted, 41 
of the programs that we agreed to were zero funded; and that is 
what I am here for today, and I believe you must have this list 
of all the programs that were zero funded.
    And so we need to, I think, look at these programs that are 
zero funded, that have been in existence and have been 
successful. Some are very close and dear to my heart.
    The first is the Native Hawaiian Education program over 
which we have had a number of debates and discussions. It is an 
absolutely critical program for the Native Hawaiian children 
who are the most disadvantaged--disadvantaged because under a 
1920 act of Congress, they were forced to settle in the most 
remote areas, away from job possibilities, away from the center 
of our metropolitan communities. And as a result, their 
opportunities, even for education, have been sacrificed.
    So they need this special money. So I am hoping that the 
Committee will look at the previous funding and agree to the 
$30.5 million which was authorized last year and appropriated.
    The other program is one that I am associated with for 
several decades. In the 1970s, when the program first started, 
the Women's Educational Equity Act, WEEA, we also fought for 
the appropriation levels on the floor. That program has been 
successfully maintained.
    We were able to authorize it in our conference committee at 
a very minimal amount of money, at $3 million; and I am hoping 
that the Committee will agree to that sum and provide it. It is 
essential that the gender emphasis of equity be sustained in 
our schools. And anyone who has read the recent reports from 
AAUW will see this type of program emphasis is still needed.
    A very small program, next, has to do with minority and 
disabled students by providing them with special mentoring 
programs and other workshops, internship programs and so forth, 
funded at only $250,000. I came to the Committee last year and 
asked for this money, and the Committee very graciously 
provided a small earmark for that national program, and I am 
here again to ask for that money.
    The next program has to do with the school counseling. The 
Speaker, Mr. Hastert set up a task force between the minority 
and the majority after the very serious Columbine incidents and 
others; and while we disagreed on what steps needed to be done 
to prevent this type of violence in the schools, we came to the 
conclusion that the most important thing that the country could 
do was to emphasize the importance of counseling, so that the 
young people who are troubled and who have conflicts at home or 
have tendencies to violence and so forth would have someone to 
go to.
    Right now, they have a vice principal, who is there 
primarily for discipline. They can't go to this individual for 
the counseling and attention that they need.
    This program inexplicably was zeroed out in the President's 
budget, and I can't consider any more important program to meet 
the current crisis in our schools than this program. And I 
think this has very wide bipartisan support, and I am asking 
for $75 million.
    Arts and education: I believe the Chairman is a sponsor of 
the Congressional Arts program, and we know how important arts 
is in our school activities. And this very small amount of 
money of $30 million was also zero funded out. And I think this 
is an important program. We shouldn't stop it; we should 
encourage it. It gives our young people a chance to explore 
their own creativity, their sense of worth of themselves, as 
they create these art works; and so I hope that the Committee 
will continue that.
    Community Technology Centers, Close Up Fellowships that we 
have, mentoring programs, again which we worked very, very hard 
in H.R. 1 to establish a program and to articulate the 
importance of mentoring; and we find that the funding has been 
eliminated in the budget. So we are asking for $50 million.
    A very popular program among Members of Congress is the 
National Writing Project. That is not primarily for students; 
that is for teachers. When we look at the accountability 
criteria, we see that it is not only math, language arts and so 
forth; it is moving into writing. And it is a concept of 
instruction that is difficult to deal with, so we need 
something like this to help train our teachers in writing 
techniques and so forth.
    Mr. Chairman, I represent rural Hawaii. My colleague, Mr. 
Abercrombie, represents the City of Honolulu. All my 
constituents are rural. Our biggest difficulty there is 
attracting teachers to come out to those schools, and once they 
come out, they stay 1 or 2 years, and we have this constant 
turnover with huge vacancies in terms of teachers.
    We all know that if we are going to meet the standards of 
H.R. 1 that we enacted, school accountability, we are going to 
have to spend some efforts to try to equalize this problem. And 
rural America is suffering. So I feel that the funding request 
of $300 million is a very modest one and will allow the rural 
communities to have this special assistance to come up with 
programs for retention, for ways to attract teachers into their 
areas and to make their environments equal to the environments 
in other middle class communities throughout the country.
    Mr. Chairman, I hope that you will look at all of these 
programs that I have listed. I know that time--my time is up, 
but every single one of them--the gifted programs, Star 
Schools, Even Start--all of these things have to do with 
success of our educational system.
    And if H.R. 1 is to succeed and the concepts of 
accountability are to bring to fruition our ambition for 
quality education, then these programs should not be 
sacrificed. They were gone over thoroughly in the Conference 
Committee, and they should not be zeroed out and should be 
funded currently in the programs--and increases in some cases, 
as I pointed out.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Congresswoman Mink follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. I can't disagree with you on a lot of them. The 
only problem is allocation.
    Mrs. Mink. I wish I could print money or somehow get you 
the resources, but I am sure with your ability and knowledge of 
the budget, you are going to find the money for the things that 
are important.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Regula. I think in our list, Mr. Visclosky, you are 
next. Some are not here yet.
    Mr. Visclosky. Mr. Chairman, you have my testimony and I 
wanted to come personally to thank you for all of your past 
kindness and consideration, to thank Mr. Obey and the staffs. 
They have been terrific to deal with.
    I have three requests--one for Valparaiso University, one 
for Indiana University and one for Ivy Tech State College--and 
look forward to working with you on those requests and trust 
your good judgment and fairness.
    [The prepared statement of Congressman Visclosky follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. I suggest you submit those to Mr. Obey. And I 
am sure they are all good projects; the problem will be having 
enough money to do all the good projects that we know are out 
there.
    Thank you.
                              ----------                              

                                           Wednesday, May 15, 2002.

  EDUCATION FUNDING; CHILD CARE AND DEVELOPMENT BLOCK GRANT; CDC; HIV/
                AIDS; WORKFORCE INVESTMENT ACT; PROJECTS


                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Mr. Crowley?
    Mr. Crowley. Thank you, Chairman Regula. I also thank 
Ranking Member Obey for granting me this opportunity to testify 
before the Subcommittee to discuss some of my key priorities.
    To best communicate the needs of my district, I would like 
to present my remarks in three specific parts. They are 
providing our children a high-quality public education, 
strengthening our public health system and providing for the 
newest members of our American community.
    With respect to improving the quality of education, I 
believe it is imperative that our society continues to invest 
in our children and in our public schools. While I was pleased 
to see the passage of H.R. 1, the No Child Left Behind Act, I 
am concerned to see that the President did not fund all of our 
shared priorities in this budget. I hope the Committee will 
address this issue in its bill.
    For example, I am a strong supporter of the Magnet School 
Assistance Program and have submitted a joint letter to this 
committee, along with my colleague and Committee member, 
Congresswoman Roybal-Allard, expressing my support for this 
initiative and for funding it at $125 million, the authorized 
level for fiscal year 2002 as outlined in H.R. 1.
    Even with the diversity of New York City, we still have a 
problem with the desegregation of our public school system. 
Continued Federal funding of magnet schools will help us 
alleviate this problem in a way that best serves the schools 
and students.
    Additionally, to help our precollege students succeed, I am 
seeking $250,000 for a 21st Century Community Learning Center 
for a school district that encompasses several communities 
within my district, including the neighborhoods of Morris Park 
and Pelham Parkway, sections of the Bronx Community School 
District 8. Funding of this important program would make key 
investments in our children by creating and expanding new 
after-school programs. Proven initiatives such as these give 
local schools and communities more options for improving 
student performance and reducing juvenile crime.
    Thirdly, I seek $100,000 for the Whitestone Hebrew Center 
in Queens, New York, to fund an adolescent mentoring and civic 
education program. A longstanding member of northern Queens the 
Whitestone Hebrew Center has had a strong presence in our 
community for well over 73 years.
    Whitestone offers a variety of community activities for 
children and adults, regardless of faith, including children's 
and senior day care, as well as mentoring programs. Serving 
over 8,600 people last year, Whitestone is a prominent and 
well-deserving member of our community.
    Regarding the health needs of my constituents, I seek 
funding for an innovative program in my district to combat 
sexually transmitted disease, including HIV/AIDS, among youth. 
Steinway Child and Family Services of Queens, New York, has 
created a program of educating teen peer counselors and having 
those teen counselors speak to their contemporaries about HIV/
AIDS and its prevention. Using honesty and education, these 
teens can speak to their counterparts in a language they can 
understand, recognize and respect, thereby better reinforcing 
the message.
    Steinway has a proven record and has benefited from the 
generosity of this committee in fiscal years 2000 and 2001 for 
similar programs.
    Additionally, as some of you know, particularly the 
gentlelady from New York, Mrs. Lowey, New York has some of the 
highest rates of breast cancer--Queens has, excuse me. African 
American women, Latino have a higher rate than white women, 
caused by inadequate access to early mammography and preventive 
care.
    To help address these concerns, a public hospital has 
undertaken an extensive outreach and education program with 
respect to breast cancer in northwestern Queens. And we are 
asking for $500,000 for a digital mammography unit at that 
hospital.
    [The prepared statement of Mr. Crowley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Let me say on the projects, you should talk 
with Mr. Obey; we have an agreement that I work--I am talking 
about earmarks now--I do the majority side and he does the 
minority. And so that is just a suggestion.
    Mr. Crowley. Mr. Chairman, I will take up your suggestion, 
and I will speak to Mr. Obey.
    Mr. Regula. I assume you did last year.
    Mr. Crowley. I have, and I will in the future as well.
    And I will yield back the balance of my time and speak to 
the Ranking Member.
    Mr. Regula. I hope we have enough allocation to do a lot of 
these projects, because I personally believe that Members know 
their districts; and they know what is important, what will be 
the most beneficial to those that they represent, perhaps more 
so than those in the bureaucracy.
    Mr. Crowley. I hope so.
    Mr. Regula. We will do all we have available in terms of 
resources to the Committee.
    Mr. Crowley. Appreciate that.
                              ----------                              

                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. Mrs. McCarthy, you have been very patient.
    Mrs. McCarthy. Thank you, Mr. Chairman. And after what you 
just said to my colleague, I know I have to go to Mr. Obey, but 
it is always good to have the other side listening also.
    The programs that I am going to be asking for are really 
programs that I am very closely related to in my district. 
Unfortunately, Nassau County, where I live, has come upon hard 
times. It was probably considered one of the richest counties 
in the country, and yet they have cut all programs because we 
are now just about in bankruptcy.
    Mr. Regula. What did you lose, industries, tax base.
    Mrs. McCarthy. Unfortunately, because of poor management, 
we kept going into debt.
    Mr. Regula. Mismanagement of the school system or the 
county?
    Mrs. McCarthy. The whole county. There has been quite a 
stir, and we are trying to get out. And New York State has 
tried to help us a little bit, as far as lending us money and 
giving us a certain amount of time; but with all the social 
problems that are going on in Nassau County, almost all of them 
have lost all their funding.
    I had given you my full testimony, but again, Adelphi 
University, they have what they call a hotline. It deals with 
all of New York State as far as working with women that have 
breast cancer. A lot of them are survivors; they are on the 
hotline to talk to women when they first find out that they 
have cancer.
    We have social workers. They have a tiny little room in 
Adelphi University, which Adelphi has currently given them to 
be able to use, but again they need money to keep this program 
going because New York State--as you know, also--which funded 
them, with the financial problems that we have had in New York 
because of September 11, they have lost their funding from New 
York State.
    Mr. Regula. Your social programs are suffering because of 
the mismanagement in the county government?
    Mrs. McCarthy. Well, we got double hit. Nassau County, 
which does not have money anymore for their social programs, 
and then New York State, which also helped fund some of these 
programs, they don't have the money for it either. So I am 
asking for money for Adelphi University.
    One of the other things, too, is that Nassau Community 
College, they have a great nursing program and for someone who 
has been a nurse for over 30 years, I have spent time in their 
lab. They cannot afford the new equipment to teach the future 
nurses of this country what nursing is all about. So I am 
requesting funding for that, which I think is extremely 
important.
    If we are going to have young people go into nursing, they 
should be trained on the equipment that is in the hospitals 
now. So with that, I am asking for funding for that.
    And we have the amounts, so I am trying to cut this down 
really short.
    The other thing that I am looking for is to help--and again 
I appreciate what you said about Mr. Obey--is to highlight a 
program that we have in Hewlett, which is called the LIFE 
program. This is a program that has been around since 1973, and 
it basically helps--my district has become very integrated with 
different cultures. But LIFE's main mission is to help families 
stay together by offering educational programs for children, 
parents and grandparents, because we know when they all work 
together, it is the best thing for the children.
    It is an educational program that includes vocational 
training, after-school and weekend initiatives for children at 
risk. There is also retail vocational training for disabled 
teenagers and adults.
    Over the last several years the number of people who need 
LIFE services has grown dramatically. In response, LIFE has 
begun raising $10 million on their own to expand its program to 
house them in a central facility in Hewlett. More program 
dollars to support the key community educational services would 
help them quite a bit.
    With that, I am asking for $1.5 million for the expansion 
and integration of LIFE's community educational programs from 
the Labor-HHS appropriations.
    The other program that I am asking for is the Peninsula 
Counseling Center. They basically are licensed by the New York 
State Office of Mental Health and the New York State Office of 
Alcoholism and Substance Abuse.
    In 2001, Peninsula's professional staff of 77 
psychiatrists, psychologists, nurses, social workers and 
vocational rehab counselors provided mental health and 
alcoholic treatment services to more than 5,000 people just in 
my area alone. Unfortunately, as a result of the national and 
local trauma after September 11, there has been a great need 
for mental health services. I will say in my district alone in 
Nassau we lost over 700 people on September 11, and it has had 
a tremendous impact on all of my communities. Federal support 
would help the Peninsula Counseling Center keep up with the 
high demand for services on Long Island.
    Mr. Chairman, on behalf of Long Islanders, I request $1.2 
million for the Peninsula Counseling Center from the Labor-HHS 
appropriations.
    I thank you. I know money is tight, and I do appreciate 
that.
    [The prepared statement of Congresswoman McCarthy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Query: You mentioned the county's 
mismanagement. Is the school system funded separately from the 
county, so it would not affect their resources.
    Mrs. McCarthy. Our school taxes--each one of us in our 
school district pays the taxes. Next Tuesday, we all vote on 
our budgets. Unfortunately, most of the school budgets are 
probably going to be voted down next Tuesday.
    Mr. Regula. What do they do if they vote it down?
    Mrs. McCarthy. Unfortunately, a lot of people don't 
understand how a school budget actually functions. So when they 
vote a school budget down, they feel they will go on austerity 
budgets. That does not cut what the main thing that a school 
functions by. Teacher salaries still have to be paid, 
administration has to be paid.
    So what is cut out? Usually school buses, the athletic 
programs, all the things that affect the kids.
    But that is actually separate from Nassau County. So we are 
really--I will give you an example. I have a tiny little house 
that I bought from my parents, going back 25 years ago. I think 
my parents paid $11,000 for it. I am on a 40 x 100 piece of 
property. My taxes this year will probably go up to close to 
$9,000. $9,000.
    Mr. Regula. You had better move to Ohio.
    Mrs. McCarthy. It has been tempting. But I am working. 
There are many young couples--so it is really hard. And the 
programs that we have reach out to such a diversified 
population; and as a nurse, any way that I can help people to 
make a better life for themselves, certainly to me it is money 
well spent.
    Mr. Regula. Thank you for your testimony.
    Mrs. McCarthy. Thank you, Mr. Chairman.
                              ----------                              

                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Regula. Mr. Watkins.
    Mr. Watkins. Mr. Chairman, I am glad you are here. I guess 
I am the lone Republican, because I think the President is 
speaking with the Caucus.
    Mr. Regula. We have a lot of witnesses so we are going to 
keep going.
    Mr. Watkins. I might mention to you, I had a choice of 
three things--I had a head cold--go see the doctor, go see the 
President or come and see you and the staff. So I decided to 
come and try to make my requests.
    Mr. Regula. That is a pretty good choice.
    Mr. Watkins. Thank you so much. I come with several 
requests.
    I know you have got more requests on the table and probably 
don't have a handle, but I would like to follow up, the 
question last year, we had a request for the Center for 
International Trade Development. I think we had about $750,000 
requested; I think we got about $300,000.
    We are trying to improve our global opportunities by 
developing our international studies and international trade 
activities and the rural enterprises, applying some practical 
connections there with it along with the School of 
International Studies.
    It is working and something that I sure would like to see 
us continue in a way to help us close that gap in international 
trade. As you well know, that is one of the most alarming 
things we have got in the country today.
    Also an exciting, very exciting situation is in career 
technology. In Oklahoma--Stillwater, Oklahoma, where I live; 
that is the State office--quite a bit of money has been put 
into developing career technology. In fact, we probably have 
the most comprehensive career technology curriculum training of 
any center anywhere in the United States.
    We are trying to make sure that we are able to convert some 
of that and be able to utilize that, working with our 
international center. So, as you can imagine, being able to 
convert that in a language--and also we can either work with 
the training or trying to enhance the opportunity to do more 
international trade.
    So it is a program, like I mentioned, because of such an 
outstanding CareerTech program in Oklahoma, I have become a 
product of that, I guess, in some respects.
    Two health department requests: we have requested $4 
million in rural telemedicine. As you know, that is one of the 
big things that GAPP--communities are losing their doctors and 
we are trying to figure out how to provide the medicine for 
them. So I know that is another area.
    Also Fragile X, something we started just providing a 
little research. Fragile X is the most commonly inherited cause 
for mental retardation. And let me say, Mr. Chairman,some of 
that research is beginning to pay off. And it is something that you and 
the staff and others can be very proud of and I hope that you can help 
with that program.
    I know there are a couple of others.
    [The prepared statement of Congressman Watkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. I assume you have submitted a letter.
    Mr. Watkins. I have.
    Mr. Regula. You have prioritized?
    Mr. Watkins. I will bring them back a priority typed 
letter.
    Mr. Regula. Bring the priorities, because obviously we 
don't have funding to do all the things that people would like; 
and therefore we want to do what is the most important, in your 
judgment.
    Mr. Watkins. Mr. Chairman, I appreciate that very much and 
I appreciate you and the staff and I am glad to be before you 
today and maybe you can help me out a little bit here. Thank 
you.
    Mr. Regula. I think you will be able to make the other 
meeting, too.
                              ----------                              

                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Regula. Mr. Roemer? Before we get started, didn't you 
sponsor the bill on John Adams?
    Mr. Roemer. I did and we passed it, Mr. Chairman, with your 
help. It is law. The President signed it. With your help, we 
are moving along quickly on that. Hopefully, we will make it 
happen and I will ask your advice on the floor this week, 
probably, for a couple of questions on where we go from here.
    Mr. Regula. Remarkable individual.
    Mr. Roemer. He really was.
    Have you read the McCollough book?
    Mr. Regula. And had a remarkable spouse, too.
    Mr. Roemer. Abigail should be part of the memorial.
    Mr. Regula. That is true, very true.
    My wife started the National First Ladies Library, 
recognizing spouses and their role; and she is the epitome of 
what a spouse--the possibilities--all of them have been 
influential, when you really get into it.
    This is a bit of a digression. All right, let us hear about 
your projects.
    Mr. Roemer. Thank you, Mr. Chairman. I ask unanimous 
consent to have my entire statement entered, and I will try to 
be very brief.
    First of all, I want to thank you. You have supported, 
along with Mr. Obey, a project which is a builder, a successor 
to the Troops to Teachers program. We will need to hire 2 
million more teachers in the next 8 to 10 years. Nothing will 
determine the success of public education in this country more 
than the quality of our teachers.
    While we worked in a bipartisan way with President Bush to 
pass the bill No Child Left Behind, there is a glaring omission 
from that bill, and that is that we did not do enough to 
improve the quality of our teachers. This Troops to Teachers 
follow-on, which is called Transition to Teaching, which you 
funded along with Mr. Obey in a bipartisan way last year, I 
think $35 million needs to be increased this year to help the 
quality of teaching as we go into this hiring mode to replace 2 
million teachers in the next few years.
    The President has recognized the success of this program 
and, in this budget, asks for almost $40 million for this 
program. I would request humbly, Mr. Chairman, that we go up to 
$50 million given the need to accelerate opportunities to hire 
good people out there.
    The Troops to Teachers model has been an astounding 
success. We still have more than 3,300 former military people 
teaching in our schools, some of the most difficult schools to 
teach in, with the highest dropout rates, and theyare staying 
in there and getting great grades and great evaluations as teachers.
    So we can do even more of this, bringing in math and 
science teachers from the private sector to replace some of the 
people that will be retiring, to go in and teach in areas where 
we have high growth rates.
    So I applaud this committee for their bipartisan work on 
this very successful Transition to Teaching model, and I think 
we need to do more there.
    The second request is for $1.5 million for a very 
innovative program at the University of Notre Dame that is a 
school administrator certification program for under-resourced 
schools, K through 12. As important as you and I have 
recognized that teachers are, principals are probably 
determining the morale and the direction of these schools. We 
need better programs to make sure that we have the best 
principals trained in these schools.
    This program at the University of Notre Dame will train 
more than 100 people to be the principals of the future in our 
schools.
    And finally, Mr. Chairman, we have the request for $800,000 
for Safe Kids-Safe Neighborhoods programs in the City of South 
Bend. Our mayor spent over $532,000 on these programs last 
year.
    Why are these after-school programs important? In our 
largest cities in America, over 50 percent of our children in 
those schools and those high schools will not graduate on time; 
33 percent of those children will not graduate at all.
    Now we have a terrorism problem in the world. We have a 
huge problem in our schools with this dropout rate. We can 
solve the terrorism problem, and if we don't solve the dropout 
rate, especially in our bigger cities in the inner-city 
schools, I am not sure in the long term--you know, what good 
the other one is going to do for us.
     So this after-school program comes up with programs for 
our innercity kids--homework, social skills and character 
building at Studebaker Elementary School; a computer skills 
program at Harrison Elementary School; and a science olympiad 
at Riley High School--3:00 to 6:00, when a lot of these kids 
tend to get into problems after school when they don't have 
someplace to go at home----
    Mr. Regula. Are you aware of what the Gates Foundation is 
doing? Bill and Melinda Gates have committed enormous amounts 
of money to set up programs in Ohio, with $35,000,000 for 
starters, to get the dropout rate or noncompletion rate 
improved in our big cities; and that is exactly what you are 
saying here.
    Mr. Roemer. That fits exactly with what I am saying, Mr. 
Chairman. I think the Gates Foundation is doing some----
    Mr. Regula. But check if Indiana is participating.
    Mr. Roemer. I will do that. That is a great idea.
    Mr. Regula. They announced in my district the $35 million. 
It was Ford, Gates and another one combined. And I think, as 
you point out, it is a real tragedy.
    Mr. Roemer. It really is for this country.
    Mr. Regula. Many of the cities' dropout rates exceed 50 
percent, and what a waste of talent.
    Mr. Roemer. Well, the foundations can do a lot to help us, 
as they are with you. Indiana is not far from Ohio, so maybe we 
can talk them into coming over there to South Bend, too. But if 
we can get your help at the Federal level--Mr. Chairman, you 
and Mr. Obey have been so helpful in this Transition to 
Teaching program, an innovative approach to quality teaching--
--
    Mr. Regula. Teach for America has been very successful. I 
agree with you. Probably the one place we need to pursue a 
little bit is the education institutions to wherever possible 
improve the quality of education of our prospective teachers 
and principals. I think what you are saying about the principal 
being the leader is an absolutely important feature.
    Mr. Roemer. Thank you. I look forward to your help on these 
projects, Mr. Chairman; and I thank you for all your help on 
the Adams project, too.
    Mr. Regula. Let's see if we can get that one moved.
    Mr. Roemer. We will. Thank you.
    Mr. Regula. Thank you.
    [The prepared statement of Congressman Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. As I look at our list here Mr. Baca, I think 
you were the next one in, and then Mr. Bereuter.
    Mr. Baca. Thank you, Mr. Chairman. I come before you; and, 
hopefully, you will take the statement that I have submitted as 
well in writing.
    Mr. Regula. We will.
    Mr. Baca. According to the Census Bureau, the Inland Empire 
saw the fastest growing population growth in the Nation, San 
Bernardino County being the sixth in the Nation. It has 1.7 
million in population, 25 percent growth over the last 10 
years.
    Riverside County, which is the other area--and, as you 
know, I am surrounded on an island with Jerry Lewis, Ken 
Calvert, Mary Bono, David Dreier, Gary Miller and now Buck 
McKeon, who will have the other portion of that area--Riverside 
County had 1.5 million in population, a 32 percent growth.
    A combination of strong job creation and affordable housing 
has led to an economic and population boom since we have had a 
lot of affordable homes in the area. So people from L.A. 
County, Orange County and San Diego have moved into the Inland 
Empire. The growth in the Inland Empire can no longer be 
limited to population or economics but must also be represented 
in the quality of education we provide for our youth.
    That is why it is important--one of my first priorities is 
a request for the Virtual High Tech High School program, which 
is located and actually physically located in Congressman 
Lewis's district, but we represent both of the areas of the 
services it provides throughout the Inland Empire. The Inland 
Empire students are not acquiring the skills and knowledge in 
science and technology that they need for better-paying 
careers, and we know that if you want to compete in the 21st 
century you have got to make sure that you have the technology 
and the training to move in that area and in creating job----
    Mr. Regula. Does your area have a post high school two-year 
technical program available to students?
    Mr. Baca. No, that is why we have created the Virtual High 
Tech that will be available. It is a joint consortium of the 
different high schools in the area from San Bernardino, Rialto, 
Fontana, or the----
    Mr. Regula. This would be post high school, a 2-year 
associate degree, I assume, that they would give?
    Mr. Baca. They would get a degree in high school in 
technology and training in that area, not towards secondary. 
Secondary would be the post, which would go into a community 
college. That is another program that I would like to look at 
as another priority.
    But this is to develop a Virtual High Tech training program 
to get our kids to begin to have the same opportunity as we 
talk about leaving no child behind. We have got to make sure 
that they have the opportunity for technology and training in 
that area so they can become competitive and get good jobs and 
stay in the area. But if we don't provide that training it 
becomes difficult, because not every school has wires and 
access to technology. So what we want to do is create an 
opportunity for those students to go to Virtual High Tech in an 
agreement that we have with the consortiums of schools within 
the areas to give them an opportunity to compete and to get 
jobs.
    Some of the kids that are actually in high school have now 
been offered a job for $50,000 just starting directly out of 
high school----
    Mr. Regula. So this would be paid out of a central point 
through the fiber-optic cable, I assume that you are saying, a 
virtual reality kind of a setup; and the instruction would come 
in over the cable to the schools?
    Mr. Baca. That is directly--and then we would have 
agreements with them, and it would be located at Norton Air 
Force base. That is where the Virtual High Tech is, which is 
directly in Jerry Lewis's District, but both of us have 
jurisdictions since the schools come from my area and go there. 
We are dealing with a lot, just as we had a conference call 
dealing specifically with the Virtual High Tech here in D.C. 
with the schools that were part of it. That is why I think it 
is important that we look at preparing our kids for the 21st 
century in technology.
    The other area, I am actually requesting $2.5 million for 
this important project. It is a high priority for us and for 
Congressman Lewis, too, as well in the area. My second request 
is for a Student Tutorial Center in San Bernardino County 
Unified School District and San Bernardino Valley College. This 
will be jointly dealing with middle college high schools to 
offer high school students who are not meeting the full 
potential an opportunity to earn an associate of arts degree, 
which is the postsecondary that we talked about in San 
Bernardino Valley College, and high school diplomas at the same 
time. This program has yielded excelled results thus far. At 
the end of the first semester, 77 percent of the students 
improved their point grade average.
    Again, these programs are good when we talk about it 
because it builds self-esteem, confidence, and it builds the 
attitude that I can through the tutorial programs that we have 
in centers. I think those are very important because sometimes 
students lack the confidence and the ability, but when you go 
into a tutorial program and you are able to provide that 
assistance, a student then begins----
    Mr. Regula. Does this also spill over into several 
congressional districts?
    Mr. Baca. Yes, it does into the immediate area.
    Mr. Regula. Let me suggest if you could get a consortium of 
the Members. Because we have so many dollars that we allocate 
to special projects, and it is done by Member, and, of course, 
if several Members would join in a request it would broaden the 
amount that we could put in that project since it is serving 
several congressional districts.
    Mr. Baca. But the majority of it falls in the district of 
Congressman Lewis and myself in that particular one, and it 
touches base with Ken Calvert that is on the other side and 
with Mr. Dreier now that has taken over my old district in 
Rancho Cucamonga. I am seeking $350,000 to create a tutorial 
center for middle college high school students.
    The third priority request is for an English Language 
Development and Academic Skills program. The number of students 
with limited English has grown 265 percent in 10 years, and 
English learners make up about 25 percent of the student 
population, 42.6 growth over the last 10 years. Riverside 
county has had a 25 percent dropout so--from Ken Calvert's 
district. He has a higher dropout in that area.
    That is why I think it is very important, and I can speak 
from my own personal experience. Because, Mr. Chair, when I 
first started going to school I got put in slow learners 
classes because I didn't speak a word of English, not that 
Icouldn't perform academically, but that wasn't my primary language. It 
wasn't until later on that I was put into the regular mainstream 
classes and was able to perform with a lot of the other students.
    That is why these programs are so important in developing 
skills in English language, and that is why I am requesting $2 
million for this particular project that I think is very 
important.
    The fourth project is the request for the Hispanic Border 
Leadership Institute at the University of California at 
Riverside. This is actually located in Ken Calvert's district, 
but that is the only university serving the Inland Empire in 
Mary Bono's district as well as my district and Jerry Lewis and 
Gary Miller and then, of course, now Buck McKeon. This program 
is run by a consortium of eight higher education institutions 
with a mission to improve education in our border regions, with 
particular emphasis on the Latinos and improving education in 
Arizona, California, Colorado, New Mexico and Texas. I 
respectfully request $4 million for the Hispanic Border 
Leadership Institute.
    Again, I thank you. We need to meet the needs of education 
and training for our workforce for the future. And in order to 
do that we must meet the challenges of the 21st century.
    With that, those are the four areas that I put a priority 
on; and, as you know, Mr. Chair, I and many individuals, we 
believe that education is a high priority. Education is the 
foundation that will lead to saving us tax dollars in the 
future. Because if we educate individuals at less money than we 
spend on incarceration, it presents more opportunities in early 
preparation and training and then that also serves as a tax 
base in our communities.
    Mr. Regula. I agree. Thank you.
    Mr. Baca. By the way, here's the article that came out in 
today's L.A. Times that talks about the jobs we have just 
recently lost in the immediate area, and that is why the aspect 
of education and training----
    Mr. Regula. It is happening in a lot of districts, 
including mine.
    [The prepared statement of Congressman Baca follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

      CLOSE UP; HHS OFFICE FOR THE ADVANCE OF TELEHEALTH; PROJECTS


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Regula. Okay. Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman and members of the Subcommittee, 
thank you for hearing my testimony today.
    I was pleased to hear your comments about collaboration, 
because the request I am making is a significant part of a 
collaborative request.
    I would ask unanimous consent that a statement from 
Congressman Blumenauer and a statement from President Stephen 
Janger of the Close Up Foundation be submitted for the record.
    Mr. Regula. Without objection.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bereuter. Mr. Chairman, members of the Committee, I 
have three requests that I am conveying that are in part 
consortium requests. The first is for the University of 
Nebraska Medical Center College of Nursing, a second for an 
appropriation for the Institute for Rehabilitation Science and 
Engineering at Madonna Rehabilitation Hospital in Lincoln, and 
third for a Lewis and Clark Bicentennial Special. I also speak 
about some committee report language which I think would be 
important in the latter part of my statement.
    First, with respect to the $3 million I am requesting for 
the University of Nebraska Medical Center College of Nursing, 
this is a request supported by my colleague, Tom Osborne, who 
will perhaps speak about it shortly, who is behind me.
    The requested funding, which we elaborate in some detail in 
a statement is based upon the nursing shortage across the whole 
country but is particularly severe in several parts of the 
Nation, would allow the University to broaden its distance 
education opportunities in rural Nebraska. Specifically, the 
funding would allow the University of Nebraska College of 
Nursing to become one of the first nursing schools to offer a 
bachelor's degree in nursing, completely through distance 
education with hands-on supervision and in-service application.
    The second request is for the Institute forRehabilitation 
Science and Engineering at Madonna Rehabilitation Hospital, $3 million. 
It is the first request I or any other Member from Nebraska has ever 
made for this rehabilitation hospital. It focuses exclusively on 
rehabilitation and has a very heavy research component. It is funded by 
charitable contributions and by foundations. They are a national leader 
and innovator in rehabilitation care. They are always ranked in the top 
ten. Many people say it is the premier rehabilitation facility in the 
Midwest.
    My request to you was generated some time ago when we had 
it prepared, but I might tell you, Mr. Chairman, on a personal 
basis, I spent the last 3 weekends in large part in that 
hospital because my mother suffered a severe fall with five 
fractured bones, and she is one of the people there. At the 
same time, I understand Congressman Osborne's mother-in-law was 
there. So we are very fortunate to have it at hand, but the 
question was generated before I am getting a first-hand taste 
of what kind of care they have.
    They are asking for the funds through me to allow the 
Institute to develop new programs and projects in physical 
therapy as well as clinical programs based on research projects 
in the gait and motion laboratory. Specifically, this funding 
would allow the Institute to conduct a project on the use of 
quantitative EEG to improve functional movements in patients 
with multiple sclerosis and Parkinson's disease. With the 
requested funding, the Institute also plans to conduct an 
assessment on the optimal use of clinical informatics to 
improve orthopedic rehabilitation and a study on the use of 
handheld wireless computers as cognitive protheses to increase 
employment of people following brain injury.
    One of the reasons they had such a large research component 
is that a key faculty member was himself stricken and lost the 
use of his legs and has devoted a large share of his time now 
to leading the rehabilitation laboratory there. This is 
separate and apart from the hospital care that they provide for 
people throughout the Nation.
    The third is the Corps of Discovery, a Lewis and Clark 
Bicentennial Special. I make this request on behalf of the 
entire Nebraska House delegation and all of the Oregonians, 
except Mr. DeFazio, who is also looking for $1.5 million from 
the same funding source.
    Mr. Regula. We have got a time problem, but in listening to 
all of your questions let me suggest, if you could coordinate--
we have so many dollars that we can do in special projects, or 
earmarks as it is called, and every Member has an amount. Mr. 
Obey does the minority. I do the majority. The Senate has the 
same thing. If Members could coordinate and take a portion of 
their quota along with a portion of somebody else's quota, we 
could do some of the larger projects in terms of dollars.
    I think, from what I hear you saying, a number of things 
you have it takes in the whole State or----
    Mr. Bereuter. Two States.
    Mr. Regula. Right. Mr. Osborne and so on. And it would 
enable us to do a larger project if we take some of the 
allocation of several Members to make it happen.
    Mr. Bereuter. I understand your point. It is exactly what 
we have done in this instance, and we have the documentation.
    This one will permit Oregon Public Television and Nebraska 
Educational Telecommunications to do this joint special with 
all of the Web sites and so on. It involves six or seven 
different local historical groups. We have a letter which shows 
you that it is supported by all four Senators from the two 
States. They made the request to your counterpart.
    This is supported by all the Oregonians and Nebraskans 
except Mr. DeFazio who is supporting but did not want to use--
--
    Mr. Regula. His portion of the quota. I understand.
    Mr. Bereuter. And we have a history on this one now. These 
public television institutions collaborated to provide the 
special that ran all over the country on the Oregon Trail. So 
we have a high degree of expertise in these two States, and it 
will be available for the entire Nation.
    Mr. Regula. We might ask you to coordinate it. And this is 
all done in the conference. It is not done in the original 
bill, but----
    Mr. Bereuter. We have provided you the budgetary detail; 
and we will, if we haven't already, demonstrate the commitment 
of all two States' delegations.
    That is the nature of my request, Mr. Chairman, in addition 
to speaking very favorably about Close Up again.
    Mr. Regula. These are all good things, and that is one 
reason I am interested in earmarks. Because Members can bring 
to our attention things that are very important to their 
districts that might not be important to the people downtown. 
But we are interested in the Members, and they represent their 
districts.
    Mr. Bereuter. Mr. Chairman, I will make a special plea that 
the $1.5 million we are requesting for these two States' 
institutions is either provided next year or it is too late. 
Because the bicentennial is upon us----
    Mr. Regula. This is the Lewis and Clark. Yes, that is true.
    Mr. Bereuter. Thank you. I will be happy to answer any 
questions you might have.
    Mr. Regula. Okay, thank you very much.
    [The prepared statement of Congressman Bereuter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. JULIA CARSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Regula. I have Ms. Carson, Mr. Osborne, Mr. Oberstar 
and Mr. Forbes; right? We have got a vote here at about 11:45. 
Assuming we can squeeze out another 5 or 8 or 10 minutes out of 
that time, I would like to get you all in before we have to go 
vote. So if you can cut it short, we will put your statements 
in the record. That way, we will give everybody a chance to be 
heard.
    Ms. Carson.
    Ms. Carson. Thank you very much, Chairman Regula and 
members of the Committee.
    All the projects that I have are for Indianapolis, Indiana. 
You have heard from Dr. Israel, who has done a yeoman's job in 
terms of enhancement of the medical professions out in 
Indianapolis, and a lot of this incorporates this. We have got 
a $1 million request for the Center of Aging and Community, 
which is a one-of-a-kind academic champion for gerontology in 
Indiana. It gives the seniors access to addressing their needs 
with chronic conditions.
    We have the Indianapolis Project to Promote Responsible 
Parenting, which is a fatherhood project. We are asking for 
$500,000 for that.
    We have another project, Mr. Chairman, that is called 
Healthnet's Southeast Multiservice Center, $420,000, which will 
allow it to add some new programs to the neighborhood, 
including a network of health care needs. We have, like many 
urban areas around the country, an extreme shortage of nursing 
personnel; and they train nurses to respond. We have urban 
hospitals that are turning away ambulances that are coming 
there because they don't have sufficient nurses to respond.
    Finally, we have a request for $750,000 for a project 
called I'm Ready from Marian College. It targets youths from 
lower income areas to consider health-care-related fields.
    I would also, Mr. Chairman, like to provide for the record 
an Indianapolis Star article by Dr. Israel that was----
    Mr. Regula. Without objection, it will be part of the 
record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Carson. I will yield back the balance of my time and 
hope that you will consider that as your favorable markup--.
    Mr. Regula. On your personal projects, get them to Mr. 
Obey. He does the minority and I do the majority on earmarks.
    But let me also suggest you talk to the Senators, because 
they, too, have earmark ability and more than we do because 
there are fewer of them and we basically deal with the same 
total amount in each House. So if you can get them on board, 
that will be helpful, that when we get to the conference that 
we can use some of their quota along with yours to do what you 
think is a worthwhile project.
    Ms. Carson. Thank you very much.
    [The prepared statement of Congresswoman Carson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Regula. Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman. Thank you for this 
opportunity.
    My first request would be full funding at $50 million for 
Mentoring for Success. I have spoken with you about this in the 
past, and I appreciate your support of mentoring.
    At the present time, it is estimated that 16 million 
children in our country badly need mentoring. I believe there 
are 700,000 that have a mentor. So the ratio is about 21 to 
one, those who get it and those who need it. So we would 
appreciate any help----
    Mr. Regula. I visited a company in Columbus. They have a 
thousand of their employees who spend an hour each week, and 
they pay their salaries while they are doing this. The city 
school sends a bus out to pick them up, and they mentor 
kindergarten kids. I have talked with some of them, and they 
said it has worked so well, it has made a world of difference 
in the lives of these kids. It gets them started off in 
reading. So mentoring programs are terrific.
    Mr. Osborne. Yes. We would appreciate any help you give us 
in that regard.
    The second request has to do with the Rural Education 
Flexibility and Assistance program, which provides a minimum of 
$20,000 to small rural schools of less than 600. The big 
problem there is they get funding strings from the 
Federalgovernment. Because they are so small, the number of students, 
it doesn't do them any good. They have grant riders. So we think that 
is helpful, and we appreciate that.
    Finally, two projects from the University of Nebraska Med 
Center. One of them Mr. Bereuter mentioned. That had to do with 
nursing telemedicine.
    Then there is $1 million to improve the delivery of health 
care to rural areas through telemedicine. Many of our rural 
hospitals just aren't hooked up.
    One I forgot is a telecommunications laboratory at the 
University of Nebraska at Kearney. That university is the only 
one to offer training for telecommunications management in the 
State of Nebraska. Right now, on rural areas we are losing 
population; and unless we begin to ramp up our 
telecommunications and diversify the economy, we are going to 
have a heck of a problem. So this would really help.
    Mr. Regula. If you can work with Mr. Bereuter and the 
Senators, because these are major projects that affect the 
entire State, from what I understand you are saying, and 
therefore should be supported by both the Members and the 
Senator. That will allow us to allocate more money for getting 
us some contribution of their quota from each of the 
participants.
    Mr. Osborne. I appreciate it. Thank you for your time, and 
we look forward to working with you.
    Mr. Regula. Thank you.
    [The prepared statement of Congressman Osborne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. J. RANDY FORBES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Regula. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman; and I am going to be 
very brief. I have submitted a statement for the record of a 
number of requests that we have, but this morning I am going to 
talk about two.
    One is just to thank you for what you did last year for the 
Children's Museum in Portsmouth. That was a tremendous help. 
Over a million people have gone through that museum, and that 
wouldn't have happened if it weren't for your help.
    The second one, if I could point your attention to the 
Appomattox Governors School for the Arts and Technology. The 
reason this school is so important is because it serves 
students from 13 different cities and counties, and many of 
these students are innercity students that would have no other 
opportunity to get this kind of training other than this 
school. Like many schools today, its back is up against the 
wall. Without some help, it just isn't going to be able to 
continue.
    The other programs we have cited. They are more global 
programs that I think are joined in by a number of Members and 
I submit that for your consideration.
    Mr. Regula. You have heard what I said about getting 
Members, if they can coordinate. Because we have an allocation 
for each Member, as you know. Mr. Obey does the minority, and I 
do the majority. But if they contribute some of their 
allocation, then we can do some of the more major projects that 
benefit a wide spectrum of people that would go beyond any 
Member's single district.
    Mr. Forbes. We will certainly do that, Mr. Chairman.
    Mr. Regula. Get Senators involved, too. With only 100 of 
them, their quotas are a little----
    Mr. Forbes. Little bit larger.
    Mr. Regula. That is right. Thank you.
    [The prepared statement of Congressman Forbes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

    BREAST CANCER RESEARCH; LIHEAP; RURAL HEALTH; TRIO; IMPACT AID; 
                                ADOPTION


                                WITNESS

HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Regula. Mr. Oberstar.
    Mr. Oberstar.  Thank you, Mr. Chairman. I will make your 
job easy. I am not here to intrude on your allocations.
    Mr. Regula. It is your allocations.
    Mr. Oberstar. I just want to talk broadly about programs, 
and I appreciate the time that you have allocated for Members 
to come.
    Six issue areas. The first is funding for breast cancer 
research. It is 11 years since I lost my wife to breast cancer 
and almost 20 years since she was diagnosed with it. I was on 
the Budget Committee at the time, and the total budget for 
breast cancer was $35 million. It is now approaching $600 
million, or a little over $600 million, thanks to your support 
and that of many others. But you have been a constant, and I 
want to encourage you to continue to make that investment.
    Every year, more women die of breast cancer than all the 
members of the armed services that we lost during the entire 
Vietnam War.
    Every year, the George Washington University Breast Cancer 
Center sponsors a lecture series from the donations that were 
contributed. Jo was treated at GW, and we have had some of the 
best minds, like Dr. Steve Rosenberg, who is Chief of Cancer 
Surgery at NIH, Rick Klausner----
    Mr. Regula. Let me say, to speed it up, that Nita Lowey 
will take good care of that program.
    Mr. Oberstar.  It is critical.
    The Low-Income Home Energy Assistance Program has been 
shortchanged this year.
    Mr. Regula. I understand, and we are trying to get it 
released. I don't know if we will be successful, but we are 
very supportive of the program.
    Mr. Oberstar.  The glacier retreated 10,000 years ago, Mr. 
Chairman, but every winter it makes a return engagement in my 
part of the country, and we need that help.
    You heard a little bit about rural health. My district is 
roughly 30,000 square miles, about the size of the eastern 
seaboard from here to Connecticut, and without the rural health 
initiatives we will have more people migrating out of rural 
areas all across America than we have had in the past 20 years. 
It is health care that keeps people there.
    We have very innovative initiatives. I just visited with a 
group quite by accident who came in and talked about 
telemedicine. I visited a telemedicine project in one of the 
hospitals where they do telehome care so they don't have to 
send professionals out, a telelaproscopy that reduces the cost 
and provides high quality health care. So we want your 
continued support for adequate funding to get it to the $1.5 
billion level that was envisioned.
    TRIO, I strongly support funding----
    Mr. Regula. We are on board on that one.
    Mr. Oberstar [continuing]. At an increased level; and the 
Impact Aid. We have these huge areas of public land ownership, 
no tax base. Cook County, that has only 6 percent of its land 
on which to support the entire population. Without Impact Aid--
here it looks like just a little bit, but it is like if you 
wear a size 16 collar shirt and they give you a 15 and a half. 
You can't quite button it.
    Mr. Regula. I understand.
    Mr. Oberstar.  Finally, funding for the Adoption 
Opportunities Program. Jo and I were adoptive parents, and with 
Larry Craig I am co-chair of our Coalition on Adoption. We have 
done a lot of really good things, and we have 135,000 children 
in foster care across America. Dave Thomas was very strong and 
very supportive on this initiative. We can put them all in 
loving homes.
    Mr. Regula. We lost a great one in Dave Thomas. Recently, 
he died, as you know. He did wonderful things for people.
    Mr. Oberstar.  Yes. We need to address that problem at home 
in addition to the international adoptions that are becoming 
very popular. But this committee I know has been very 
attentive, and it is a relatively modest amount but will do an 
enormous amount of good.
    Mr. Regula. Thank you for coming.
    [The prepared statement of Congressman Oberstar follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. SHERROD BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. We have two witnesses left, and we are still 
ahead of the vote bells.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. It is a pleasure to be 
in front of you again.
    I want to thank you and the Subcommittee for the support 
you have provided in the past on the St. Joe's Community Center 
Conversion Initiative and Lorraine County Community College. 
You personally have been particularly helpful in that. Those 
projects have meant a lot to the citizens of northeast Ohio.
    The University of Akron is the public research facility and 
university of northern Ohio and has a long-standing record in 
community engagement and collaborative partnerships.
    Mr. Regula. Do you have Akron University as of January?
    Mr. Brown. As of January, yes.
    Two of their recent outreach projects include the Center 
for Gerontological Health Nursing and Medina University Center, 
which it is my understanding Medina might be in a new 
congressional district come January which you will become more 
familiar with.
    Mr. Regula. Yes, I will pay a little more attention to it.
    Mr. Brown. It is nice to be in front of a committee where 
the chairman is picking up some new territory that I now 
represent.
    The quality of life is threatened by a national shortage, 
as you know, of trained health care professionals. Particularly 
acute is the lack of nursing professionals.
    The Center for Gerontological Health Nursing at Akron U, 
which will be split between my district and the newly created 
17th district, is an established research, education and 
service entity that addresses health care issues. They have 
received a $500,000 grant for the Administration on Aging to 
investigate best nursing practices for end-of-life care.
    The Center will expand nursing education through Web-based 
and Web-enhanced internet instruction. It will establish core 
research resources. It will disseminate to the academic and 
health care community its research findings and education 
products to improve care of older adults.
    The University of Akron has also established its leadership 
in regional economic development with its documented strengths 
in support of workforce development. It is developing such a 
center in Medina, Ohio. It will offer flexible, comprehensive 
curriculum to meet the constantly changing needs of the 
region's workforce.
    You and I have talked about that privately. I would like to 
make a public pitch to you to continue your work on that 
project and the other Akron gerontological service and thank 
you again for the work you have done with the two Lorraine 
projects that I mentioned.
    Mr. Regula. Will you have the physical plant of Akron U?
    Mr. Brown. I will have a small part of the physical plant. 
It is within 100 or 200 yards of my district, the rest of the 
University.
    Mr. Regula. And the balance will be in the 17th----
    Mr. Brown. In the new 17th, correct. But the Medina 
University branch will be in the 14th.
    Mr. Regula. I figured that one out.
    Mr. Brown. You knew that. It is nice to be able to come in 
front of a committee like this, Mr. Chairman. Thank you.
    Mr. Regula. Thank you for coming.
    [The prepared statement of Congressman Brown follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, May 15, 2002.

                                PROJECTS


                                WITNESS

HON. LEE TERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA
    Mr. Regula. Mr. Terry, you are the last congressional 
witness this morning, we are going to get before the bells go.
    Mr. Terry. Great. One of the things one of my law 
professors always said at law school in Creighton University is 
it is best to be first or last. So I appreciate----
    Mr. Regula. And short either way.
    Mr. Terry. And short. And I am here to display my affection 
for Creighton University and the importance of my request for 
$2 million for their health science complex.
    Quickly, the University, Creighton University, the majority 
of its majors that it offers, its graduate studies and doctoral 
studies have been in the health sciences. They have become a 
leader in two areas, particularly in chemistry programs, 
undergraduate and graduate chemistry programs, as well as 
become a national leader in hereditary cancer research.
    What they want to do or need to do at Creighton University 
is kind of develop a new philosophy. They are combining their 
buildings, their undergraduate, doctoral studies and medical 
school, all into one seamless program and need help in order to 
rehabilitate some of their buildings. They are building new 
buildings, and what I am here to do is ask for your help, this 
committee's help, the Federal Government's help in assisting 
them as they try to establish or help with the needs of rural 
health care.
    Mr. Regula. As I suggested to Mr. Bereuter, because your 
schools tend to overlap beyond any one district, that if your 
delegation, including the Senators, can coordinate. Because you 
and Mr. Bereuter and the Senators that have quotas for these 
special projects, then you can combine part of yours with a 
part of theirs to fund a fairly substantial----
    Mr. Terry. Perhaps our philosophy has been somewhat 
different since I am the only Creighton grad. Congressman 
Bereuter took the University of Nebraska that is established in 
his district, and I am championing the Creighton request, all 
of which are coordinated for the greater good of the State of 
Nebraska, particularly in meeting its health care needs.
    Mr. Regula. And the Senators, of course----
    Mr. Terry. And the Senators as well.
    Mr. Regula. Does Creighton get any NIH funding----
    Mr. Terry. We have had a significant talk about that. They 
are just now becoming a player with the NIH as they elevated 
their Hereditary Cancer Institute. So it is starting. But if 
you look even 2 or 3 years ago, it was minimal at best.
    Mr. Regula. It is something they ought to look into.
    Mr. Terry. Yes. They are well aware of it.
    Mr. Regula. From listening to you it sounds as if they are 
expanding their capability to do research. How big is 
Creighton?
    Mr. Terry. Creighton has about 6,000 students, the majority 
of which are in post-graduate work, working for their doctorate 
degrees. They have a great medical school and facility in 
downtown Omaha which handles most of the Medicare.
    Mr. Regula. So they would be a good candidate to do 
research, since they are at a substantial level----
    Mr. Terry. Absolutely.
    Mr. Regula. Is it a nonprofit or a private----
    Mr. Terry. It is a private, Jesuit-run college, well, 
university now. It is the first university started in Omaha.
    Mr. Regula. I would assume they get substantial support 
from the community. You have some----
    Mr. Terry. Yes, which is why they are able to build their 
new buildings and their medical school as well as a new 
building, a new biotech center on campus. Frankly, the $2 
million request here is probably a single digit percentage of 
the overall costs, and they have been able to raise the 
difference from the community.
    Mr. Regula. Okay. Well, thank you for your testimony; and, 
of course, I assume you have submitted a letter.
    Mr. Terry. We have submitted a letter and also multiple-
page statement.
    Mr. Regula. Okay, thank you.
    Mr. Terry. Thank you, Mr. Chairman.
    [The prepared statement of Congressman Terry follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. The Committee is adjourned.
    [The following statements were submitted for the record by 
Members of Congress and other interested individuals and 
organizations:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                          ORGANIZATIONAL INDEX
                              ----------                              
                                Part 7B
                                                                   Page
ACORN Clinic.....................................................   551
Ad Hoc Group for Medical Research Funding........................   555
Alliant International University.................................   560
Alpha-1 Foundation...............................................   565
American Academy of Dermatology Association......................   570
American Academy of Nurse Practitioners..........................   575
American Academy of Pediatric Dentistry..........................   590
American Academy of Pediatrics...................................   578
American Academy of Physician Assistants.........................   596
American Association for Cancer Research.........................   602
American Association of Colleges of Nursing......................   607
American Association of Colleges of Pharmacy.....................   612
American Association of Community Colleges.......................   614
American Association for Geriatric Psychiatry....................   617
American Association of Immunologists............................   623
American Association of Museums..................................   628
American Association of Poison Control Centers...................   632
American Cancer Society..........................................   637
American Chemical Society........................................   642
American College of Cardiology...................................   644
American College of Rheumatology.................................   650
American College of Surgeons.....................................   654
American Congress of Community Supports and Employment Services..   660
American Dental Hygienists' Association..........................   663
American Gas Association.........................................   669
American Gastroenterological Association.........................   671
American Geophysical Union.......................................   676
American Indian Higher Education Consortium......................   677
American Legion..................................................   682
American Library Association.....................................   691
American Medical Association.....................................   686
American Museum of Natural History..............................58, 694
American Network of Community Options and Resources..............   699
American Nurses Association......................................   702
American Optometric Association..................................   708
American Psychological Association...............................   712
American Public Power Association................................   718
American Rehabaction Network.....................................   720
American Social Health Association...............................   723
American Society of Clinical Oncology............................   726
American Society for Clinical Pathology..........................   210
American Society of Hematology...................................   728
American Society of Mechanical Engineers.........................   732
American Society for Microbiology................................   743
American Society of Nephrology...................................   737
American Society for Nutritional Sciences........................    91
American Society for Pharmacology and Experimental Therapeutics..   752
American Society of Tropical Medicine and Hygiene................   755
American Thoracic Society........................................   760
American Urogynecologic Society..................................   766
Association of Departments of Family Medicine....................  1252
Association of Family Practice Residency Directors...............  1252
Association of Minority Health Professions Schools...............    71
Association for Professionals in Infection Control and 
  Epidemiology...................................................   781
Association of Public Television Stations........................   775
Association of State and Territorial Director of Health Promotion 
  and Public Health Education....................................   142
Association of State and Territorial Public Health Nutrition 
  Directors......................................................   783
Association of Women's Health, Obstetric and Neonatal Nurses.....   787
Babyland Family Services, Inc....................................   792
Bank of New York.................................................   110
Barry University.................................................   168
Blue Cross Blue Shield Association...............................   797
Boston Public Schools............................................   802
Brain Injury Association of America..............................   807
Brown Medical School.............................................   125
California Hepatitis C Task Force................................   811
Cancer Research Center of Hawaii.................................  1290
Cancer Research Foundation of America............................   815
CAPE/PETE Net....................................................   817
Center for Victims of Torture....................................   822
Centers for Disease Control and Prevention Coalition.............   828
Chad Foundation for Athletes and Artists.........................   834
Charles R. Drew University of Medicine and Science...............   886
Charlotte-Mecklenburg Schools....................................   802
Children's Brain Diseases........................................   840
Children's Heart Foundation......................................   844
Coalition for Health Funding.....................................   217
Coalition for Health Services Research...........................   846
Coalition of National Health Education Organizations.............   852
Consortium of Social Science Associations........................   857
Council of State Administrators of Vocational Rehabilitation.....   862
Council of State and Territorial Epidemiologists.................   197
Crownpoint Institute of Technology...............................   866
Cystic Fibrosis Foundation.......................................   871
Digestive Disease National Coalition.............................   876
Doris Day Animal League..........................................   881
Farm Resource Center.............................................   890
Florida State University.........................................   894
Friends of the Health Resources and Services Administration......   897
Friends of NIEHS.................................................   902
Georgia Department of Health, Georgia SIDS/Other Infant Death 
  Information and Counseling Program.............................   115
Health Professions and Nursing Education Coalition...............   905
Helen Keller National Center for Deaf-Blind Youths and Adults....   916
Helen Keller Worldwide...........................................   911
Hepatitis Foundation International.............................179, 919
HIV Medicine Association of IDSA.................................   925
Humane Society of the United States..............................   928
Immune Deficiency Foundation.....................................   187
Infectious Diseases Society of America...........................   932
Inner City Games Foundation......................................   942
Inter-National Association of Business, Industry and 
  Rehabilitation.................................................   945
JRL Enterprises..................................................   950
Kennedy Krieger Institute........................................   954
Legal Action Center..............................................  1163
Lovelace Respiratory Research Institute..........................   957
Maryland Stroke Club, Upper County Branch, Montgomery County.....   967
Math/Science Partnership Coalition...............................   969
Medical Library Association......................................   970
Men Against Breast Cancer........................................    22
Mended Hearts, Inc...............................................   975
MENTOR/National Mentoring Partnership............................   977
Miami Beach, Florida, City of....................................   981
Miami Children's Hospital........................................   161
Mount Sinai School of Medicine...................................   984
National Alliance to End Homelessness............................   987
National Alliance for Eye and Vision Research....................     1
National Alliance for the Mentally Ill...........................   992
National Alliance for Migrant and Seasonal Farmworker Vocational 
  Rehabilitation.................................................   997
National Alliance of State and Territorial AIDS Directors........  1003
National Alopecia Areata Foundation..............................  1006
National Association of Home Builders............................  1011
National Association of Independent Colleges and Universities....  1013
National Association of Retired and Senior Volunteer Program 
  Directors......................................................  1018
National Association of Senior Companion Project Directors.......  1018
National Association of State Alcohol and Drug Abuse Directors, 
  Inc............................................................  1022
National Association for State Community Service Programs........  1028
National Association of State Universities and Land-Grant 
  Colleges....................................................228, 1032
National Breast Cancer Coalition.................................  1037
National Center for Learning Disabilities, Inc...................  1041
National Center for Heart and Stroke Research....................  1046
National Coalition of STD Directors..............................  1049
National Congress of American Indians............................  1054
National Council on Rehabilitation Education.....................  1063
National Depressive and Manic-Depressive Association.............  1068
National Even Start Association..................................  1071
National Federation of Community Broadcasters....................  1074
National Fuel Funds Network......................................  1078
National Head Start Association..................................  1083
National Health Council..........................................  1087
National Labor Relations Board Union.............................  1092
National Latex Allergy Network--ELASTIC Inc......................  1097
National Marfan Foundation.......................................  1102
National Minority Public Broadcasting Consortia..................  1122
National MPS Society, Inc........................................  1107
National Multiple Sclerosis Society..............................  1110
National Primate Research Center Directors.......................  1113
National Prostate Cancer Coalition...............................  1116
National Public Radio............................................  1126
National Recreation and Park Association.........................  1130
National Rural Health Association................................  1133
National Society of Professional Engineers.......................  1138
National Treasury Employees Union................................  1139
National Youth Employment Coalition..............................  1144
National Youth Sports Program Fund, Inc..........................  1149
NephCure Foundation..............................................   101
New York Botanical Garden........................................    41
New York University Cancer Institute.............................    50
New York University Downtown Hospital............................   110
New York University School of Medicine...........................    50
Newark, New Jersey, City of......................................  1154
North American Brain Tumor Coalition.............................  1158
North American Primary Care Research Group.......................  1252
Ohio Council of Behavioral Health Care Providers.................  1163
Oklahoma State Experimental Program to Stimulate Competitive 
  Research.......................................................  1169
One Voice Against Cancer.........................................  1172
Parkinson's Action Network.......................................  1177
Partnership for Prevention.......................................  1179
People for the Ethical Treatment of Animals......................   881
Population Association of America................................  1183
Public Policy Council............................................  1188
Pulmonary Hypertension Association...............................   132
Quinalt Indian Nation............................................  1194
Racial Ethnic Health Disparities Coalition.......................  1198
Research to Prevention...........................................  1208
Robert Wood Johnson University Hospital..........................  1213
Rotary International.............................................  1219
RTI International................................................  1224
San Francisco, CA, City and County of............................    10
San Francisco Department of Public health........................    10
Sisters Network, Inc.............................................  1229
Sjogren's Syndrome Foundation....................................  1233
Skirball Institute of Biomolecular Medicine......................    50
Society for Maternal-Fetal Medicine..............................  1242
Society for Neuroscience.........................................  1247
Society of General Internal Medicine.............................  1238
Society of Teachers of Family Medicine...........................  1252
Sporting Goods Manufacturers Association.........................    81
State Associations of Addiction Services.........................  1163
Structure House..................................................  1258
Sudden Infant Death Syndrome Alliance............................   115
Suncoast AfterSchool Alliance....................................  1262
Texas Department Health, Public Health Promotion Program.........   142
Thurgood Marshall Scholarship Fund...............................  1268
Trust for America's Health.......................................  1275
Tuberous Sclerosis Alliance......................................  1272
United Cerebral Palsy Associations...............................  1279
United Tribes Technical College..................................  1284
University of Arizona College of Medicine........................   210
University of Hawaii.............................................  1290
University of Indianapolis.......................................    31
University of Kentucky, Department of Mining Engineering.........   228
University of Medicine and Dentistry of New Jersey...............  1295
University of Michigan...........................................  1301
Virtual Herbarium Project........................................    41
                                <greek-d>

</pre></body></html>
